<html>
<title> - NATO: ENLARGEMENT AND EFFECTIVENESS</title>
<body><pre>[Senate Hearing 110-506]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-506
 
                  NATO: ENLARGEMENT AND EFFECTIVENESS

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             SECOND SESSION



                               __________

                             MARCH 11, 2008

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                     U.S. GOVERNMENT PRINTING OFFICE
44-537 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Asmus, Ronald D., executive director, Transatlantic Center, 
  German Marshall Fund, Brussels, Belgium........................    42
    Prepared statement...........................................    45
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     1
Craddock, GEN John, U.S. European Command and Supreme Allied 
  Commander, Europe, NATO Headquarters, Mons, Belgium............    13
    Prepared statement...........................................    15
Fried, Hon. Daniel, Acting Under Secretary for Political Affairs, 
  Department of State, Washington, DC............................     5
    Prepared statement...........................................     8
Gordon, Dr. Philip H., senior fellow for U.S. Foreign Policy, 
  Brookings Institution, Washington, DC..........................    50
    Prepared statement...........................................    53
Jackson, Bruce, president, Project on Transitional Democracies, 
  Washington, DC.................................................    59
    Prepared statement...........................................    61
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Townsend, James J., Jr., director, International Security 
  Program, Atlantic Council, Washington, DC......................    67
    Prepared statement...........................................    70

             Additional Statements Submitted for the Record

DeMint, Jim, U.S. Senator from South Carolina, prepared statement    86
Obama, Barack, U.S. Senator from Illinois, prepared statement....    85

                                 (iii)

  


                  NATO: ENLARGEMENT AND EFFECTIVENESS

                              ----------                              


                        TUESDAY, MARCH 11, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:40 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Dodd, Menendez, Casey, Lugar, 
Hagel, Voinovich, and Isakson.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order.
    Mr. Assistant Secretary, welcome back. It's been only about 
a couple of days since you've been here. It's good to have you 
back. And, General Craddock, welcome. And thank you both for 
being here today.
    Next month, the 26 Member States of the NATO Alliance will 
gather in Bucharest, Romania. And central to the discussions 
will be the questions of Ukraine and Georgia, bringing them 
closer to the Alliance, and Croatia, Albania, and FYROM--or 
Macedonia, as our Government refers to it--into the Alliance. 
The other major issues that will be front and center is the 
effectiveness of NATO in its first out-of-area military 
commitment in the ongoing war in Afghanistan.
    Summits have a tendency to force events and a time for 
actual decisions on hard issues, so it's no surprise that, in 
the runup to this summit, disagreements among allies sometimes 
get the spotlight. Even so, I am deeply concerned that, on the 
eve of this summit, the Alliance is especially fractured and 
incoherent. And, quite frankly, Senator Lugar and I have been 
here a long time. I don't know how many conferences I've 
attended about whether NATO will survive? I know we always have 
these discussions, but this is a particularly difficult moment.
    First, there appears to be a total lack of clarity on how 
to respond to the applications of Ukraine and Georgia for 
Membership Action Plans, or MAP. I believe--speaking for myself 
only, that we should encourage Ukraine and Georgia by granting 
their requests for MAP. Both countries have made substantial 
progress toward consolidating gains of the Orange and Rose 
Revolutions, and have made substantive contributions to NATO 
operations. A Membership Action Plan, as you both know better 
than anyone, is not an irrevocable step for either the 
applicant state or for the Alliance. The decision on an 
invitation to join the Alliance can take as long as NATO wants 
or the applicant state requires.
    Second, there is no apparent consensus on the three 
countries who are candidates for actual membership. During the 
1990s, NATO became a force for promotion of a Europe whole and 
free in ways that its founders, I don't think, ever fully 
imagined. The prospect of membership encouraged Europe's newly 
liberated countries to settle longstanding disputes, to deep-
root democracy and human rights, and, of course, to build 
competent militaries. I am proud, along with Senator Lugar and 
my deceased colleague Senator Roth and others, to have played a 
part in helping the initial enlargement of NATO after the wall 
came down. It remains my conviction that we should extend an 
offer of NATO membership to any country that applies and meets 
the criteria.
    As a strategic matter, the admission of Croatia and Albania 
and Macedonia to NATO would bring the Balkans closer to the 
European future its people deserve, and it would strengthen, in 
my view, regional security. But, that doesn't mean these three 
candidates, in my view, must enter as a block. Each country 
should be judged against the established criteria and on its 
own merits. Of course, NATO's current members must still agree 
on the decision to invite new ones, period.
    I've strongly urged Greece and FYROM, or Macedonia, to find 
a reasonable compromise to the name dispute that stands as a 
bar to Macedonia's membership. If they're unable to do so in 
time for the summit, that failure should not, in my view, 
penalize the prospects of Croatia or Albania. I expect our 
witnesses to address the readiness of these three countries to 
join NATO, and our second panel includes two prominent experts 
who disagree on whether these countries are ready. And it's 
important, I think, to hear this debate here in the Foreign 
Relations Committee.
    And finally, the other critical issue in this summit is 
Afghanistan--the forgotten war, in my view. I was there, along 
with Senator Lugar and Senator Kerry, just a few weeks ago. 
Each of us has spoken to our deep concern that, while 
Afghanistan remains winnable, we are not winning. In my view, 
we need a new strategy for success and a new NATO commitment, 
in terms of the individual countries and their rules of 
engagement. This should not be America's fight, alone. Our 
allies joined this war from the very start. This was not a war 
of choice; this was a war of necessity. And they have as much 
at stake as we do, I'd respectfully suggest.
    Since 9/11, Europe has been repeatedly targeted for terror, 
and virtually every attack can be traced back to the Afghan-
Pakistan border regions. The heroin Afghanistan produces winds 
up in the streets of Madrid and Berlin, not in New York. In 
fact, since 2001 far more Brits have lost their lives to Afghan 
drugs than to Taliban arms. Many of our NATO allies thought 
they were signing up for a peacekeeping mission, not a 
counterinsurgency operation. And many are fighting like it is a 
peacekeeping operation: Not fighting. Some are fighting with 
incredible bravery, particularly in the south. But, the so-
called national caveats are making a mockery, in my view, of 
NATO and the notion of a unified mission. One ally can fight 
here, but not another place; another ally can do this, but not 
that. In my view, you're either in this fight or not you're 
not, and it's time for NATO to be fully in the fight. I believe 
that the future of NATO is at stake in Afghanistan.
    The NATO summit must bring these issues to a head. We are 
right to expect more from our allies and from NATO, but they 
are also right to expect more from us. When I first went to 
Afghanistan, right after the Taliban fell, in January 2002, I 
asked the commander of British Forces how long his people would 
allow him to stay in Afghanistan, and I'll never forget what he 
told me. He said, ``We Brits have an expression, Senator. As 
long as the big dog is in the pen, the small dogs will stay. 
When the big dog leaves, the small dogs will go home.'' Well, 
the big dog left, in my view, in 2002. The big dog left, and we 
diverted so much of our attention and so many of our resources 
to Iraq, there wasn't a lot left for Afghanistan. Instead of 
finishing the war of necessity, we started a war of choice. I'm 
not here to debate that war of choice. I'm here just to make 
the point that we--and interesting to me, and I don't know 
whether my colleague from Nebraska found the same thing--
whether we were talking to diplomats, military personnel, or 
NGOs, they all, when we asked them about the situation in 
Afghanistan, they'd all say something to the effect of, ``It is 
true, from 2002 to 2006 we didn't do much, but we began to 
change policy and make--regain some ground in 2006--late 
2006,'' an interesting admission that we heard uniformly, 
across the board.
    I commend Secretary Gates, who acknowledged, last month, 
that the Europeans tend to project the hostility they feel for 
the war in Iraq onto the fight in Afghanistan. I would also 
point out, I think that's happening here in the United States. 
The hostility toward the war in Iraq is being--coloring the 
attitude of Americans toward the war in Afghanistan.
    I think this represents a fundamental misreading of the 
facts. But, we have done a poor job in distinguishing the case 
for one war from the other. And I'm glad Secretary Gates has 
dedicated himself to correcting the record.
    We always say that the summit is critical, but I think this 
one really is; it's critical for the construction of Europe, 
for the war in Afghanistan, and, I think, the future of the 
Alliance, itself.
    So, I look forward to hearing from all of our witnesses, 
particularly our colleagues sitting before us, and I would now 
yield to my colleague Chairman Lugar.

 STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    I appreciate this opportunity for the committee to once 
again talk about and examine the future of NATO, and I join you 
in welcoming our very distinguished witnesses.
    The NATO Alliance is preparing for an historic summit in 
Bucharest, Romania, next month. And the Bucharest summit finds 
NATO facing new challenges, adjusting to new priorities. Much 
attention is being focused on NATO's role in Afghanistan, which 
is, as you pointed out, the most demanding and defining combat 
operation in Alliance history. European troop contributions to 
the Afghanistan operation and the removal of caveats 
restricting how troops are employed will be the subject of 
intense discussions, surely, at the summit.
    But, even as we work through the important issues related 
to Afghanistan, I would urge the administration to bring an 
even broader vision to deliberations in Bucharest. The recent 
announcement of independence by Kosovo; President Putin's 
statements that we are in the midst of a new arms race; Russian 
threats against Poland, the Czech Republic, and Ukraine; and 
Moscow's intransigence on issues ranging from the shutting down 
of British cultural affairs offices to abandonment of the CFE 
Treaty, require strategic leadership from the United States and 
close cooperation with NATO allies.
    At the summit, I believe the Alliance must invite Albania, 
Croatia, and Macedonia to join NATO. Each is working hard to 
meet the specified requirements for membership. They occupy 
critical geostrategic locations, and are best situated to deter 
any efforts by any party to destabilize the Balkans through 
violence. These three candidate countries also have proven 
their commitment to making meaningful contributions to the 
International Security Assistance Force in Afghanistan.
    NATO also must extend Membership Action Plans to Georgia 
and Ukraine. The governments of both countries have clearly 
stated their desire to join NATO, and both have made remarkable 
progress in meeting Alliance standards. Both countries have 
made as much progress on democratic, economic, and military 
reform as Romania, Bulgaria, Slovakia, and Albania had made 
when they received MAPs in 1999.
    I understand that Georgia and Ukraine must accomplish much 
more before they can be offered NATO membership, but extension 
of these MAPs is an important symbol of Alliance intent.
    In January, I traveled to both Georgia and Ukraine. And 
during my visit in Georgia, President Saakashvili reiterated 
his hopes for a MAP. In Ukraine, President Yushchenko, Prime 
Minister Tymoshenko, and the Speaker of the Parliament signed a 
letter to the NATO Secretary General signifying the unity of 
purpose behind their MAP request. If NATO is to continue to be 
the preeminent security alliance and serve the defense 
interests of its members, it must continue to evolve, and that 
evolution must include enlargement. Potential NATO membership 
motivates emerging democracies to make important advances in 
areas such as the rule of law and civil society. A closer 
relationship with NATO will promote these values and contribute 
to our mutual security.
    In addition to membership issues, we must ensure that 
meaningful progress is made on energy security. Today, the 
denial of energy resources is a weapon that can cripple a state 
as effectively as traditional armies. NATO must recognize the 
risks we face and begin to implement a strategy to prepare us 
for future energy contingencies.
    Ukraine, Georgia, Estonia, and Lithuania have all faced 
hostile energy supply actions from Russia. Today, Germany, 
Bulgaria, Greece, Italy, Hungary, and others have signed 
bilateral deals with Russia that could have serious 
implications for European energy security and for the NATO 
Alliance. In my judgment, NATO is the only institution capable 
of uniting the transatlantic community under a common energy 
policy with the urgency that this threat warrants.
    Three years ago, the U.S. Senate unanimously voted to 
invite seven countries to join NATO. Today, Bulgaria, Estonia, 
Latvia, Lithuania, Romania, Slovakia, and Slovenia are making 
important contributions to NATO, and are among our closest 
allies in the global war on terrorism. It is time again for the 
United States to take the lead in urging its allies to 
recognize the important efforts underway in Albania, Croatia, 
Macedonia, Georgia, and Ukraine, and offer them membership and 
Membership Actions Plans, accordingly.
    I thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Gentlemen, thank you very much. I'll suggest, Mr. Chairman, 
we have 7-minute rounds when the testimony is finished. We have 
good attendance here.
    Let me begin with you, Mr. Secretary. Why don't you begin 
your testimony.

  STATEMENT OF HON. DANIEL FRIED, ACTING UNDER SECRETARY FOR 
     POLITICAL AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Fried. Thank you, Chairman Biden, Ranking Member Lugar, 
and members of the committee. I'd like to thank you for the 
opportunity to appear before you to discuss the North Atlantic 
Treaty Organization, the world's most successful alliance.
    NATO is more than a military alliance, it is an alliance of 
values. NATO's mission remains the same: The defense of its 
members. But, how NATO fulfills this mission is evolving.
    During the cold war, NATO was superbly prepared to face the 
Soviet Army across the Fulda Gap. It never fired a shot in 
anger, but, by maintaining the peace in Europe, the Alliance 
provided time for the internal decay of the Soviet system.
    NATO's other historic achievement is also important, though 
sometimes less remarked. It was the security umbrella under 
which Europeans settled centuries-old national rivalries. On 
September 12, 2001, NATO invoked, for the first time, the 
Washington Treaty's Article V Clause of Collective Defense. I 
was in the White House on September 11 and 12. I remember, and 
greatly appreciate, NATO's solidarity, as did all of us there 
on that day.
    But, let me be frank, in 2001 NATO lacked the capacity to 
respond to the challenge of September 11; yet, within months, 
several allies had joined us in Afghanistan, and by August 
2003, NATO took over the U.N.-mandated International Security 
Assistance Force, the ISAF mission, in Kabul. This accelerated 
NATO's geographic and capabilities transformation.
    NATO has also tried to build a new kind of relationship 
with Russia, although we've been disappointed that the NATO-
Russia Council has not yet fulfilled its potential. President 
Putin's plan to attend the summit in Bucharest next month 
represents both an opportunity and a challenge. The opportunity 
is to renew efforts to work together with Russia. The challenge 
is to make sure that NATO takes decisions on issues based on 
what is good for the Alliance, not based on a veto by outside 
actors. Whether on enlargement, missile defense, or granting 
aspirants a Membership Action Plan, NATO must make its own 
decisions, for the right reasons.
    Mr. Chairman, Senators, you will find in my written 
statement a section on how NATO has strengthened, and is 
strengthening, its capabilities. This includes ongoing work in 
two areas where this committee has provided leadership: A NATO 
Cyber Defense policy and a new focus on energy security.
    Today, I will report to you about NATO's ongoing 
transformation, and indicate how we believe this can be 
addressed in Bucharest and beyond: First, how NATO is bringing 
its new capabilities to bear in ongoing operations in 
Afghanistan and Kosovo; and, second, about enlargement.
    NATO is in action in two major operations: Afghanistan, 
through ISAF, and in Kosovo, through KFOR. More than anywhere 
else, Afghanistan is the place where our new capabilities are 
being developed and tested.
    Now, let me be blunt. The Alliance faces real challenges 
there. Levels of violence are up, particularly in the south. 
The border areas with Pakistan provide a haven for terrorists. 
Civil/military cooperation does not work as well as it should. 
We welcome, in this regard, the appointment of Kai Eide, a 
special representative of the U.N. Secretary General for 
Afghanistan, which will help. Narcotics remains a serious 
problem. Efforts to counter this challenge, this scourge, are 
working in some, but not all, parts of the country.
    There is good news, also. Operationally, NATO has had real 
successes. It's worth recalling that 6 million Afghan children 
now go to school, one-third of them girls; that's 2 million 
girls in school, when, under the Taliban, there were none. 
Zero. Afghan soldiers are increasingly at the forefront of 
operations. And the number we have trained and equipped has 
swelled to almost 50,000. This spring, we will send an 
additional 3,500 Marines to capitalize on these gains and 
support the momentum.
    NATO commanders, with strong U.S. support, are looking at 
force contributions, and hope to have more forces identified at 
Bucharest. In addition, we must give allied commanders on the 
ground more flexibility.
    I had the privilege of testifying on Kosovo before this 
committee last week, and so I'll keep my remarks on this topic 
brief.
    I was there last Friday, and I found the Kosovo leadership 
rightly focused on building their country and reaching out to 
the Kosovar-served community. I also met with Serbian community 
leaders, including two members of the Kosovo Government. They 
said they intend to remain in Kosovo. They hope their 
communities will remain in Kosovo. And this is good news.
    NATO, through KFOR, is continuing to provide security, 
freedom of movement, and protection for minorities and 
religious and cultural sites in the world's newest state. 
Almost 90 percent of the KFOR forces are European, and I am 
happy to report to this committee that, so far, the security 
situation in the country is as good as we expected, and much, 
much better than we had feared.
    Let me turn to NATO enlargement. Now that Kosovo is 
independent, we need to look at how to help the entire Balkans 
region leave behind the crises of the 1990s and strengthen, 
stabilize, secure, and democratize their societies in the 21st 
century. To complete this job, the administration strongly 
supports the aspirations of Albania, Croatia, and Macedonia to 
join NATO. They have made significant progress in their 
reforms. All three have shown a clear commitment to bearing the 
responsibilities of membership; for example, by sending troops 
to Afghanistan and supporting NATO's mission in Kosovo. 
Supporting their aspirations following Kosovo's independence 
helps us take the Balkans into the 21st century and 
demonstrates to the world that NATO's enlargement process, a 
great success, is still running.
    Albania has made steady progress on combating corruption, 
with arrests of high-level government officials, substantial 
progress on judicial reform, and progress on laws to increase 
judicial transparency.
    Croatia has a proven track record of political and economic 
maturity, and is also an important partner on the battlefield. 
Significant progress on military reforms has created a more 
modern armed forces.
    Macedonia has made strides since 2001 in building a 
multiethnic democracy. It has taken strong steps on the rule of 
law by implementing critical laws on its courts and police, and 
by taking action against trafficking in persons.
    One issue threatens Macedonia's candidacy: The dispute with 
Greece over Macedonia's name. Without a resolution, Greece has 
said that it will block an invitation for Macedonia to join 
NATO. The administration is urging both parties to work 
together, and with U.N. negotiator Matt Nimetz, to come to a 
solution before Bucharest. And if we can do so--if our 
Government can help these countries on a national basis, we are 
also prepared to do so.
    All three aspirants have work to do, but they've already 
done significant work, and, critically, they have put 
themselves on a trajectory for success. The United States and 
our allies need to consider whether it is better for the 
security of the Alliance and the stability of the Balkans to 
invite these countries in or to keep them out. We know, from 
experience, that countries who join NATO continue to reform.
    Ukraine and Georgia have expressed an interest in joining 
NATO. They are not ready to be members now, as they recognize. 
But, we can help them help themselves and prepare themselves 
through NATO's Membership Action plan, as they have requested. 
The timing of that step will be a key issue at the Bucharest 
summit.
    Montenegro, Bosnia-Herzegovina, and Serbia were invited to 
join NATO's Partnership for Peace in November 2006. While it 
was a controversial issue then, I think the doubters now see 
that it was the right decision. NATO's door must remain open. 
The Alliance's decision to invite a country must be made 
according to that country's performance, willingness, and 
ability to contribute to the security of the Euro-Atlantic area 
and its desire to join. No country outside of NATO has the 
right to decide these questions for them.
    Mr. Chairman, Mr. Lugar, other members of the committee, 
several administrations have worked to build a Europe whole, 
free, and at peace. NATO has been an indispensable instrument 
of this noble objective, and NATO is becoming a multilateral 
instrument of transatlantic security for the 21st century. This 
administration will strive to hand over to the next this great 
undertaking.
    Thank you for your attention, and I look forward to your 
questions.
    [The prepared statement of Mr. Fried follows:]

  Prepared Statement of Hon. Daniel Fried, Acting Under Secretary for 
         Political Affairs, Department of State, Washington, DC

    Chairman Biden, Ranking Member Lugar, members of this committee, 
thank you for giving me the opportunity to appear before you today to 
discuss the North Atlantic Treaty Organization, the most successful 
political-military alliance the world has ever known.
    NATO is not just a military alliance; it is an alliance of values, 
and NATO's success in the past and promise for the future reflect its 
fusion of strength and democratic values. I will speak today about how 
the alliance is transforming itself to address global security 
challenges; its current missions and challenges, including ongoing 
operations in Afghanistan; and our goals for the Bucharest summit and 
beyond.
    NATO provided a foundation for freedom's victory in the cold war. 
It is now evolving into its 21st century role: Defending the 
transatlantic community against new threats and meeting challenges to 
our security and values that are often global in scope.
    NATO's mission remains the same: The defense of its members. But 
how NATO fulfills this mission is evolving. Much of what I discuss 
today has to do with this important ongoing adaptation.
    During the cold war, NATO was superbly prepared to face the Soviet 
Army across the Fulda Gap, but never fired a shot. Yet, by maintaining 
the peace in Europe, the alliance provided time and space for the 
internal decay of the Soviet system and the Warsaw Pact, and for forces 
of freedom in Warsaw, Vilnius, Budapest, Prague, Bucharest, Kyiv, and 
even Moscow to prevail.
    NATO's other historic achievement is not mentioned often, but is no 
less important: It served as the security umbrella under which 
centuries-old rivalries within Europe were settled. NATO provided an 
essential precondition for the European Union, a united Europe, to take 
shape. Since 1945, Western Europe has enjoyed its longest period of 
internal peace since Roman times.
    After the end of the cold war, NATO faced two fundamental 
challenges: First, should it remain fixed in its cold-war-era 
membership? Second, should it remain fixed in its cold-war activities?
    Three successive American administrations--those of President 
George W. Bush, President Bill Clinton, and President George H.W. 
Bush--have demonstrated leadership in helping transform NATO from a 
cold war to a 21st century profile. Members of this committee played, 
and continue to play, a major part in that bipartisan policy effort.
    In the 1990s, under American leadership, NATO enlarged its 
membership for the first time since the fall of the Berlin Wall. It did 
so again in 2002.
    Also in the 1990s, NATO engaged in its first military combat 
operations to force an end to ethnic cleansing in the Balkans. NATO's 
operational role has continued to grow since then.
    On September 12, 2001, a day after the attacks on New York and 
Washington, NATO invoked for the first time the Washington treaty's 
critical article 5 clause of collective defense. In the 52 years of 
NATO's existence prior to that date, no one ever expected that article 
5 would be invoked in response to a terrorist attack; an attack on the 
United States rather than Europe; and an attack plotted in Afghanistan, 
planned in Pakistan, Malaysia, and Germany, carried out inside the 
United States, and financed through al-Qaeda's fund-raising network.
    I was in the White House on September 11 and 12; I remember and 
greatly appreciate NATO's act of solidarity. That decision, and its 
implications, eventually brought an end to NATO's now seemingly 
``quaint'' debate about going ``out of area.''
    But let me be frank: In 2001, despite this decision, NATO lacked 
the capability of responding to the challenge of September 11. And, to 
be even franker, at that time the United States had not thought through 
how to work within NATO so far afield as Afghanistan. But within 
months, several individual allies had joined us in Afghanistan, and on 
August 11, 2003, NATO took over the U.N.-mandated International 
Security Assistance Force (ISAF) mission in Kabul. From that moment, 
NATO had crossed into a new world, and transformation became an 
operational as well as a strategic necessity.
    NATO has come far since the cold war. In the early 1990s, NATO was 
an alliance of 16 countries, which had never conducted a military 
operation and had no partner relationships. By the middle of this 
decade, NATO had become an alliance of 26 members. And its soldiers and 
sailors had experienced:

  <bullet> Bringing security and stability to Afghanistan;
  <bullet> Maintaining security in Kosovo and Bosnia;
  <bullet> Supporting and training peacekeepers in Africa;
  <bullet> Training the Iraqi security forces;
  <bullet> Delivering humanitarian aid in Pakistan after the earthquake 
        and in Louisiana after Katrina; and
  <bullet> Patrolling shipping in the Mediterranean to prevent 
        terrorism.

    NATO also has established partner relationships with over 20 
countries in Europe and Eurasia, seven in North Africa and the Middle 
East, four in the Persian Gulf, and has global partners such as 
Australia, Japan, New Zealand, and Singapore, which are working with 
NATO in Afghanistan.
    I should also add that one of the transformations we have tried to 
make at NATO is to build a new kind of relationship with Russia--one 
where NATO and Russia can work together to address common interests. 
This was the thinking behind the NATO-Russia Founding Act in 1997, and 
the NATO-Russia Council, created in 2002. I must admit that we have 
been disappointed that the NATO-Russia Council still has not lived up 
to its potential.
    The Russian Foreign Ministry has announced that President Putin 
plans to attend the meeting in Bucharest. This represents both an 
opportunity and a challenge. The opportunity is to renew efforts to 
work together on issues where NATO and Russia really do have common 
interests--from nonproliferation, counterterrorism, to border controls 
and counternarcotics with respect to Afghanistan. The challenge, 
however, is to make sure that NATO takes decisions on issues on their 
own merits--based on what is good for the alliance and good for the 
issues at hand--without undue pressure from any outside actors. Whether 
on enlargement, missile defense, or a Membership Action Plan, NATO must 
make its own decisions for the right reasons.
    Fifteen years ago, no one would have predicted such far-reaching 
changes for NATO. So we must be modest about predicting the future 
challenges NATO will face, and the way NATO will adapt to them.
    But I can report to you about NATO's ongoing transformation to 
address global security challenges, and indicate how we believe this 
will be addressed at NATO's summit in Bucharest next month and beyond.

  <bullet> First, I will deal with capabilities NATO must build in this 
        new era. NATO is making progress, but this task is not done.
  <bullet> The second issue is how NATO is bringing these new 
        capabilities to bear in ongoing operations, particularly:

    <all> In Afghanistan, where NATO is helping establish security and 
            stability, to enable reconstruction, development, and good 
            governance.
    <all> And in Kosovo, where NATO is maintaining peace and freedom of 
            movement in a now independent and sovereign country.

  <bullet> Third, I will speak about enlargement. NATO is taking on new 
        members and helping others prepare to become members in the 
        future if they so desire.

                              CAPABILITIES

    NATO must strengthen its capacity in three key areas: An 
expeditionary capacity to operate at strategic distance against new and 
diverse threats; a comprehensive capability to better integrate 
military and civilian activities; and a missile defense capacity to 
protect alliance territory and populations against emerging missile 
threats.
    First on hard capabilities. NATO is developing these step by step. 
NATO has established:

  <bullet> A NATO Special Operations Coordination Center in Mons, 
        Belgium, that boosts the effectiveness of allies' special 
        operations forces by increasing interoperability between 
        nations, sharing key lessons learned, and expanding and 
        improving training, all of which are yielding concrete gains on 
        battlefields in Afghanistan.
  <bullet> A NATO Response Force that is being ``updated'' to make it 
        more usable and deployable if the need arises.
  <bullet> A strategic airlift consortium to allow interested allies 
        and partners a mechanism to pool limited resources to own and 
        operate C-17s.
  <bullet> An initiative to enhance NATO helicopter capacity, first in 
        Afghanistan, to lease private helicopters for nonmilitary 
        transport. In the medium- and long-term, we are examining ways 
        to pool support and maintenance functions and to acquire 
        additional helicopters.
  <bullet> A NATO Cyber Defense Policy, to be endorsed at Bucharest, 
        will enhance our ability to protect our sensitive 
        infrastructure, allow allies to pool resources, and permit NATO 
        to come to the assistance of an ally whose infrastructure is 
        under threat. I thank the Senators on this committee for 
        focusing attention on this issue following the cyber attacks 
        against Estonia.
  <bullet> A new focus on Energy Security, for example, by reviewing 
        how NATO can help mitigate the most immediate risks and threats 
        to energy infrastructure. I appreciate the leadership of 
        Senators on this committee for their involvement in energy 
        security and believe NATO is building a response to the 
        concerns you have raised.
  <bullet> A Defense Against Terrorism Initiative, in which allies have 
        improved their precision air-drop systems and enhanced 
        intelligence, surveillance, and reconnaissance technologies to 
        detect terrorists. The allies have also equipped large aircraft 
        to defend against Man-Portable Air Defense (MANPADs) weapons, 
        and worked together on technologies to detect and counter 
        improvised explosive devices.
  <bullet> A NATO Maritime Situational Awareness initiative, to ensure 
        Information Superiority in the maritime environment, thus 
        increasing NATO's effectiveness in planning and conducting 
        operations.

    I could go on. But let me stop here just to note that, 
notwithstanding all the concerns we have about levels of defense 
spending among the allies, and allies' need to develop and field more 
expeditionary forces for NATO operations, NATO's military capabilities 
are better off than they were 7 years ago. We are continuing to work to 
make them better still.
    Many of these new capabilities are being tested in Afghanistan--
which is also where we are learning how to better integrate civilian 
and military efforts. With each passing month, all of us allies learn 
more about what it takes to wage a 21st century counterinsurgency 
effort--a combined civil-military effort that puts soldiers side by 
side with development workers, diplomats, and police trainers. Whether 
flying helicopters across the desert at night, embedding trainers with 
the Afghan military and police, conducting tribal councils with village 
elders, or running joint civilian-military Provincial Reconstruction 
Teams, our institutions are reinventing the way we do our jobs.
    As Defense Secretary Robert Gates has said, this requires new 
training, new equipment, a new doctrine and new flexibility in 
combining civil and military efforts in a truly comprehensive approach 
to security.
    And a final point on capabilities is missile defense. Article 5 of 
the NATO Treaty says NATO allies will provide for collective defense. 
It does not allow for exceptions when the threat comes on a missile. 
NATO has been studying missile defense for years, and we expect that at 
the Bucharest summit, NATO will take further steps to acknowledge 
growing missile threats, welcome U.S. contributions to the defense of 
alliance territory, and task further work in strengthening NATO's 
defenses against these new threats. We have taken on board advice from 
some in Congress, and some of our allies, as we have advanced a more 
NATO-integrated approach to missile defense.
    NATO's work is focused on the short-range missile threat, technical 
work regarding future decisions on possible long-range threats, and 
possible opportunities for cooperation with Russia. The United States 
and NATO efforts are complementary and could work together to form a 
more effective defense for Europe.

                              AFGHANISTAN

    NATO is in action in two major operations, ISAF in Afghanistan, and 
KFOR in Kosovo.
    More than anywhere else, Afghanistan is the place where our new 
capabilities are being developed and tested. Allies are fighting and 
doing good work there, but NATO--all of us--have much more to do and 
much more to learn.
    Let me be blunt: We still face real challenges in Afghanistan. 
Levels of violence are up, particularly in the south, where the 
insurgency has strengthened. Public confidence in government is shaky 
because of rising concerns about corruption and tribalism. And the 
border areas in Pakistan provide a haven for terrorists and Taliban who 
wage attacks in Afghanistan.
    Civilian-military cooperation does not work as well as it should, 
and civilian reconstruction and governance do not follow quickly enough 
behind military operations. In this regard, we welcome the appointment 
of Kai Eide as Special Representative of the U.N. Secretary General for 
Afghanistan. In this capacity, Ambassador Eide will coordinate the 
international donor community and raise the profile of the U.N.'s role 
in Afghanistan, in supporting the Government of Afghanistan. The United 
States will lend its strongest support to Ambassador Eide's efforts. It 
will be critical to ensure that he is empowered to work in concert with 
NATO and to coordinate broad civilian efforts--and go back to capitals 
for more resources--in support of the sovereign Government of 
Afghanistan. We look forward to Ambassador Eide's confirmation by the 
U.N. Security Council later this week and hope he will be present at 
the Bucharest summit in April.
    Narcotics remain a serious problem. Efforts to counter this scourge 
are working in some but certainly not all parts of the country. The 
Taliban are using the profits from drug revenues and the instability 
spread by corruption and lawlessness to fund their insurgent 
activities. Helmand province continues to be the epicenter, with fully 
53 percent of total cultivation, and our eradication efforts there have 
had insufficient traction, significantly due to the absence of adequate 
force protection for our eradication force. Yet there is good news too. 
In much of the north and east, poppy cultivation is down. In a secure 
environment, farmers can more easily exercise alternatives and are not 
subject to the same threats and intimidation by insurgents. According 
to U.N. data, we expect that this year 22 of 34 provinces are likely to 
be either poppy free or cultivating fewer than 1,000 hectares of 
poppies. With improved governance and security conditions, we believe 
it will be possible to achieve reductions in cultivation in the 
remaining provinces in coming years.
    NATO is working hard, but needs to focus on counterinsurgency 
tactics, provide both more forces in order to facilitate increased and 
faster reconstruction assistance and improve performance in supporting 
robust Afghan counternarcotics efforts. Fundamentally, NATO needs to 
show greater political solidarity and greater operational flexibility 
for deployed forces.
    But while we are sober about the challenges, we also must recognize 
our achievements. There is good news. NATO had some real operational 
successes last year with our Afghan partners. Despite dire predictions, 
the Taliban's much-vaunted spring offensive never materialized in 2007. 
Think back to a year ago, when the Taliban were on a media blitz 
threatening to take Kandahar. Today we hear no such claims because we 
stood together--Afghans, Americans, allies, and our partners--to stare 
down that threat.
    We pursued the enemy last year, and over the winter we maintained 
NATO's operational tempo, capturing or killing insurgent leaders and 
reducing the Taliban's ability to rest and recoup. Some districts and 
villages throughout eastern and southern Afghanistan are more secure 
today than they have been in years or decades.
    Roads, schools, markets, and clinics have been built all over the 
country. Six million Afghan children now go to school, one third of 
them girls. That is 2 million girls in school when under the Taliban 
there were none--zero. Some 80 percent of Afghans have access to health 
care--under the Taliban it was only 8 percent. Afghan soldiers are 
increasingly at the forefront of operations and the number we have 
trained and equipped has swelled from 35,000 to almost 50,000 in the 
last year. This spring, the United States will send an additional 3,200 
marines for about 7 months to capitalize on these gains and support the 
momentum. Of this number, 2,000 marines will be added to ISAF combat 
missions in the south and 1,200 more trainers for the U.S.-led Combined 
Security Transition Command-Afghanistan. We are urging allies to match 
these contributions so they can take on the same roles when our Marines 
leave this autumn.
    Afghanistan is issue No. 1 for NATO's Bucharest summit next month. 
NATO is preparing a common strategy document on Afghanistan that will 
help explain to publics the reasons we are fighting in Afghanistan, and 
how we are going to succeed.
    We will also look at force contributions, and hope to have more 
forces identified at Bucharest. All contributions are valuable--from 
all 26 allies and the 14 partners there with us.
    Some allies deserve special praise for taking on the hardest 
missions in the south--particularly the Canadians, British, Dutch, 
Danes, Australians, Romanians, and Estonians.
    Others deserve recognition for increased contributions over the 
past year. Top of that list is Poland, a new and committed ally that 
has twice sent in more troops to eastern Afghanistan--first in fall 
2006 when it added 1,000 and then again in this winter with a pledge 
for 400 more troops and eight vital helicopters. Australia more than 
doubled its forces in 2007, to a total of 1,000 in the southern 
province of Uruzgan. The U.K. has added over 1,400 troops in Helmand 
province since late 2006 to meet increased security needs, while 
Denmark added 300 to double its contribution in the same area. France 
meanwhile has moved six fighter and reconnaissance aircraft to 
Kandahar, and pledged four training teams.
    Do we need more allies fighting? Yes. With this in mind, we very 
much welcome President Sarkozy's pledge that ``France will stay engaged 
in Afghanistan for as long as necessary because what is at stake there 
is the future of our values and that of our Atlantic alliance.''
    We also need allies and partners to do more to train and equip the 
Afghan national security forces--the Army and the police. NATO is 
providing small embedded teams directly into Afghan forces to serve as 
coaches, trainers, and mentors to the Afghan Army units. Currently, 
there are 34 NATO training and mentoring teams (called Operational 
Mentoring and Liaison Teams--OMLTs) deployed in Afghanistan. But we 
need at least 22 more by this time next year and we are asking all of 
our allies and partners to step up and do more.
    In addition to more troops, we need to give allied commanders on 
the ground more flexibility so they can use their forces most 
effectively. We understand the political constraints under which our 
allies operate, but less flexibility requires more troops and prolongs 
the mission.
    At the same time that we build a more capable NATO, we also want to 
see a stronger and more capable EU. If Afghanistan has taught us 
anything, it is that we need a better, more seamless relationship 
between the two. Bureaucratic hurdles should not put soldiers' lives on 
the line. We can't keep showing up side by side in far flung parts of 
the world and play a pickup game. We must work together to develop 
better NATO-EU cooperation.

                                 KOSOVO

    Let me now turn to Kosovo, NATO's second largest operation after 
Afghanistan. We all know the history. In fact, I was there a few days 
ago. As I had the privilege of testifying on Kosovo before this 
committee last week, I will keep my remarks brief.
    Kosovo's declaration of independence ends one chapter but our work 
is not yet done. We must deal with short-term challenges of security 
and longer term challenges of Kosovo's development. These are serious. 
But the status quo was unsustainable; and seeking to sustain it would 
have led to even greater challenges.
    NATO, through KFOR, continues to provide security, freedom of 
movement, and protection for minorities and religious and cultural 
sites in this, the world's newest state. There has been no significant 
interethnic violence, no refugees or internally displaced persons, and 
no trouble at patrimonial sites. KFOR remains authorized to operate in 
Kosovo under UNSCR 1244. Almost 90 percent of the KFOR forces are 
European.
    We expect that NATO will also play a key role in the establishment 
of a new, multiethnic Kosovo Security Force and a civilian agency to 
oversee it, as well as in the dissolution of the Kosovo Protection 
Corps. Kosovo is eager to contribute to NATO, the organization that 
intervened to save the people of Kosovo during their darkest hour.
    Our current challenge is dealing with Serbian extremists who seek 
to foment violence, chaos, and perhaps de facto partition of Kosovo. 
NATO and UNMIK are responding to this challenge firmly, defusing 
conflicts before they escalate, and KFOR deserves credit for its 
prompt, effective actions thus far. KFOR however is just one piece of 
the puzzle, and we are working closely with the U.N., EU, and the 
Kosovo Government itself.

                            NATO ENLARGEMENT

    Now, let me speak about NATO enlargement, a major part of the 
Bucharest summit.
    NATO enlargement has been a major success, thanks to the work of 
many on this committee. The administration strongly supports the 
aspirations of Albania, Croatia, and Macedonia to join NATO. They have 
all made substantial progress, especially over the past 1 to 2 years. 
Their forces serve with us in Afghanistan and other global peacekeeping 
operations. They continue to play important roles on Kosovo. In short, 
they have shown a clear commitment to bearing the responsibilities of 
NATO membership.
    Albania has made steady progress on combating corruption, with 
arrests of high-level government officials among others, substantial 
progress on judicial reform, and progress on laws to increase 
transparency and efficiency within the court system. In addition to the 
strong support and leadership on Kosovo, Albania is the greatest per-
capita contributor to NATO and coalition operations in Afghanistan and 
Iraq.
    Croatia has a proven track record of political and economic 
maturity and is also an important partner on the battlefield. 
Significant progress on military reforms has created more modern and 
deployable armed forces, in addition to Croatia's support in promoting 
regional stability.
    Macedonia has made significant strides since 2001 in building a 
multiethnic democracy. The government has taken strong steps on rule of 
law by implementing several critical laws on its courts and police and 
taking action against trafficking in persons. Macedonia, like the other 
aspirants, is punching above its weight in operations, and its progress 
on defense reforms has been impressive.
    One issue threatens Macedonia's NATO candidacy--the dispute between 
Greece and Macedonia over Macedonia's name. Without a resolution of 
this issue, Greece has said it would block an invitation for Macedonia 
to join NATO. The administration repeatedly has emphasized its support 
for the ongoing U.N.-facilitated talks on the name issue. It has urged 
both parties to work together and with U.N. negotiator Matt Nimetz to 
use the time remaining before Bucharest to come to a win-win solution--
and not to allow this issue to prevent Macedonia from being invited to 
join NATO.
    Are the aspirants perfect? No. Have they done significant work and 
put themselves on a trajectory for success? Yes. The United States and 
our allies need to consider whether it is better for the security of 
the alliance and the stability of the Balkans to have these countries 
in or to keep them out. We know from experience that countries who join 
NATO continue to address remaining reforms, and build security in their 
region and the world. An invitation for membership is not a finish line 
and these countries know that.
    Ukraine and Georgia have expressed an interest in joining NATO. We 
have always supported their aspirations. They are not ready to be NATO 
members now, as they themselves recognize. We can help them to help 
themselves, as they are asking, just as we have helped others, through 
the Membership Action Plan (MAP). MAP is the next step for them, and 
the timing of that step will be a key issue for the Bucharest summit.
    Montenegro, Bosnia-Herzegovina, and Serbia joined NATO's 
Partnerships for Peace in November 2006. While it was a controversial 
issue at the time, I think that doubters now see that it was the right 
decision. These countries are also members of the Euro-Atlantic 
community and must be supported in their efforts to join its 
institutions, to the degree they are prepared and seek to. Montenegro 
and Bosnia-Herzegovina have expressed interest in beginning an 
Intensified Dialogue (ID) on membership issues with NATO, and we 
believe that NATO should extend those offers at Bucharest. And when the 
day comes and Serbia is prepared to take up its European future, make 
further reforms, and seek closer cooperation with NATO, we will welcome 
that as well.
    NATO's door to enlargement must remain open. Every country has the 
right to choose its relationship with NATO, and the alliance's decision 
to invite a country to become a member will be made according to its 
performance, willingness, and ability to contribute to the security of 
the Euro-Atlantic area, and desire to join. No country outside of NATO 
has a right to decide that question for them. No amount of outside 
pressure or intimidation should sway allies from doing what is in 
NATO's best interests.
    Depending on the decision at Bucharest, we look forward to working 
with the Senate to ratify additional protocols to the North Atlantic 
Treaty for each state's new membership.

                               CONCLUSION

    Mr. Chairman, Mr. Lugar, and other members of the committee, 
several administrations have worked assiduously to help build a Europe 
that is whole, free, and at peace. NATO has been an indispensable 
instrument of this noble objective and NATO is becoming a multilateral 
instrument of transatlantic security for the 21st century--far afield 
but closely tied to its original purposes and values. We will strive to 
hand over to the 44th President of the United States in 2009, whoever 
he or she may be, this great undertaking.

    The Chairman. General.

   STATEMENT OF GEN JOHN CRADDOCK, U.S. EUROPEAN COMMAND AND 
  SUPREME ALLIED COMMANDER, EUROPE, NATO HEADQUARTERS, MONS, 
                            BELGIUM

    General Craddock. Chairman Biden, Ranking Member Lugar, 
members of the committee, thank you for the opportunity to 
appear before you today to discuss NATO's operation in 
Afghanistan, NATO enlargement, and the future of NATO.
    I have submitted a written statement, Chairman, and I ask 
that it be inserted into the record.
    The Chairman. It will be, without objection.
    General Craddock. Thank you.
    I am especially fortunate to be here today with Secretary 
Dan Fried. I couldn't ask for a more capable wingman, and I am 
grateful for the opportunity. We have appeared at other times 
in the past, in other committees.
    Dan, thank you.
    The International Security Assistance Force in 
Afghanistan--ISAF--remains NATO's most important and 
challenging mission, one that includes more than 47,000 forces 
from 40 nations, including some 19,000 from the United States.
    The security situation remains difficult, especially in the 
southern and eastern parts of the country. Our metrics 
highlight that 70 percent of the recorded security incidents in 
2007 occurred in only 10 percent--or 40--of the 398 districts 
in Afghanistan. These 40 districts are home to approximately 6 
percent of Afghanistan's population. The Afghan National Army, 
the ANA, continues to grow in size, in combat capability, and 
will exceed the size of ISAF in 2008. We are seeing an increase 
in the number and complexity of operations led and executed by 
the ANA; and in the most hotly contested regions, it 
participates in more than 90 percent of all ISAF operations, 
that is in the east and the south.
    The Afghan National Police Force has grown quickly in 
numbers, but it continues to lag significantly behind the ANA. 
Police performance needs to be urgently enhanced. Recent pay 
and structural reforms will help, but corruption, criminality, 
and lack of qualified leadership remain the most pressing 
issues.
    In the development area, the World Bank reported some 
32,000 projects are underway, with some 15,000 completed. Phone 
usage has increased from just 25,000 land lines in 2001 to 
nearly 4 million cell phones today. The child mortality rates 
have decreased by 25 percent since 2001. And 7 million children 
have been immunized against polio. The education of 
Afghanistan's children continues to move forward. Enrollment 
now exceeds 6 million students, including more female students 
than ever before.
    Security progress in Afghanistan is slowed by force 
shortfalls in some key locations and capabilities. We are at a 
critical juncture in Afghanistan, and the ISAF mission needs 
its military requirements filled immediately. Our opponents in 
Afghanistan operate and sustain their opposition against the 
international community within the gap that exists between the 
forces we need and the forces we have in theater.
    Additionally, the numerous national caveats restricting the 
use of NATO forces limit the employment of forces both among 
and within regional commands. These caveats, like shortfalls, 
increase the risk to every soldier, sailor, airman, and marine 
deployed in theater.
    Having said that, I still remain firm in my conviction that 
NATO's efforts in Afghanistan are making a difference. We are 
succeeding, but, indeed, not as fast as we, the international 
community, are capable of succeeding, but I believe we are 
making progress. We are improving the lives of many Afghan 
citizens. We are creating the conditions for a better future. 
But, the reality today is, NATO and its partners throughout the 
international community can, and must, do more.
    Turning to the subject of enlargement, I believe that NATO 
enlargement has been a historic success, strengthening our 
alliance and serving as a powerful incentive to promote 
democratic reforms among expiring members. I believe the 
process of NATO enlargement is not complete. NATO's door must 
remain open. Candidate nations must provide added value to the 
Alliance. They must be contributors to security, not consumers 
of it.
    In this transitional period, I'm concerned about the 
Alliance's collective ability to match its political will to 
its level of ambition. Forces in ongoing operations, the 
command structure, theater and strategic reserves, and the NATO 
response force are demands on the NATO force pool, demands 
that, arguably, may be draining the force pool into a puddle. 
Key capability resourcing is crucial to ensuring NATO's ability 
to simultaneously execute its main task: Respond to crises and 
transform to meet future challenges.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Craddock follows:]

   Prepared Statement of GEN Bantz J. Craddock, USA, Commander, U.S. 
      European Command and Supreme Allied Commander, Europe, NATO 
                      Headquarters, Mons, Belgium

                              INTRODUCTION

    Mr. Chairman, Senator Lugar, distinguished members of the 
committee, thank you for the opportunity to appear before you today in 
order to provide an update on NATO enlargement, NATO's operations in 
Afghanistan, and the future of NATO as it pertains to military 
activities. I intend to devote the majority of my testimony to NATO's 
operations in Afghanistan, but I would like to comment briefly on NATO 
enlargement and the future of NATO.
                            nato enlargement
    To fully appreciate the NATO enlargement decision, it is important 
to provide the committee a context for the decisions under 
consideration. NATO has an open-door policy on enlargement. Any 
European country in a position to further the principles of the North 
Atlantic Treaty and contribute to security in the Euro-Atlantic area 
can become a member of the alliance, when invited by the existing 
member countries. At the 2006 Riga summit, NATO heads of state and 
government declared that the alliance intends to extend further 
invitations to countries that meet NATO standards to join NATO during 
its summit in 2008.
    Aspirant countries are expected to participate in the Membership 
Action Plan to prepare for potential membership and demonstrate their 
ability to meet the obligations and commitments of possible future 
membership. In particular, countries seeking NATO membership must be 
able to demonstrate that they are in a position to further the 
principles of the 1949 Washington treaty and contribute to security in 
the Euro-Atlantic area. They are also expected to meet certain 
political, economic, and military goals, which are laid out in the 1995 
Study on NATO Enlargement. These include:

  <bullet> Each nation possesses a functioning democratic political 
        system based on a market economy;
  <bullet> Each nation treats minority populations in accordance with 
        the guidelines of the Organization for Security and Cooperation 
        in Europe (OSCE);
  <bullet> Each nation works to resolve outstanding disputes with 
        neighbors and makes an overall commitment to the peaceful 
        settlement of disputes;
  <bullet> Each nation has the capability and willingness to make a 
        military contribution to the alliance and to achieve 
        interoperability with other members' forces;
  <bullet> Each nation commits to democratic civil-military relations 
        and institutional structures.

    Accession talks follow the formal invitation. They are the dominion 
of NATO headquarters in Brussels and bring together teams of NATO 
experts and representatives of the nations pursuing the Membership 
Action Plan. Their aim is to obtain formal confirmation from the 
candidate nations of their willingness and ability to meet the 
political, legal, and military obligations and commitments of NATO 
membership, as laid out in the Washington treaty and in the 
aforementioned Study on NATO Enlargement.
    As Supreme Allied Commander, Europe I believe NATO enlargement has 
been a historic success, strengthening our alliance and serving as a 
powerful incentive to promote democratic reforms among aspiring 
members. The process of NATO enlargement is not complete, and NATO's 
door must remain open. I also believe that candidate nations must 
provide added value to the alliance. They must be contributors to 
security, not only consumers of security. At present, three countries--
Albania, Croatia, and the former Yugoslav Republic of Macedonia are 
members of NATO's Membership Action Plan (MAP). While there is a 
military component of MAP, and while Allied Command Operations has been 
working with the three nations in MAP on defense and military reforms, 
enlargement is a political decision under the control of the 26 NATO 
members. It is not a strategic military decision, nor is it a political 
decision in which I participate. Since the Riga summit, the 26 NATO 
nations have discussed and assessed the progress of these three 
countries in the MAP process. I have been asked to provide my input in 
the enlargement process at this time, and I confirmed that the security 
of NATO members will continue to be maintained with the inclusion of 
these nations into the alliance. In Bucharest, heads of state and 
government will provide an authoritative statement with respect to 
invitations for membership or continue to encourage the nations to make 
more progress.

                          NATO IN AFGHANISTAN

    While NATO enlargement is a critical aspect of the alliance's 
adaptation to the evolution of security in Europe, NATO's role in 
Afghanistan is a vital security mission and critical to enhancing 
security at the national, regional, and strategic levels in the 21st 
century. It is also critical to demonstrate NATO's ability to operate 
and provide security at strategic distance, and to address the 
important challenges we face in the 21st century. NATO's approach in 
Afghanistan is three-pronged:

  <bullet> First, NATO provides leadership of the U.N.-mandated 
        International Security Assistance Force (ISAF), an 
        international force of more than 47,000 troops (including 
        National Support Elements) that assists the Afghan authorities 
        in extending and exercising its authority and influence across 
        the country, creating the conditions for stabilization and 
        reconstruction;
  <bullet> Second, NATO has a Senior Civilian Representative, 
        responsible for advancing the political-military aspects of the 
        alliance's commitment to the country, who works closely with 
        ISAF, liaises with the Afghan Government and other 
        international organizations, and maintains contacts with 
        neighboring countries; and
  <bullet> Third, NATO has a substantial program of cooperation with 
        Afghanistan, concentrating on defense reform, defense 
        institution-building, and the military aspects of security 
        sector reform.

    I would like to focus my comments on NATO's ISAF operation. The 
International Security Assistance Force remains NATO's most important 
and challenging mission. With over 47,000 forces from 40 nations, 
including 19,000 soldiers, sailors, airmen, and marines from the United 
States, the alliance has responsibility for ISAF operations throughout 
Afghanistan. Working alongside an additional 11,500 U.S.-led coalition 
forces of Operation ENDURING FREEDOM (OEF) and other international 
actors, ISAF's role is to provide a secure and stable environment in 
which Afghan institutions can develop and expand their influence, while 
simultaneously developing an enduring Afghan capability to provide for 
its own security. The mission in Afghanistan is a complex one, 
involving the cooperation of NATO and non-NATO nations, the Afghan 
Government, and many international and nongovernmental organizations. 
The opposing militant forces (OMF) consist of disparate groups, 
including the Taliban, Haqanni, and the Hezb-e Islami Gulbuddin (HiG), 
tribal warlords, drug traffickers, and other extremists. While in most 
cases the OMF does not work in an organized fashion, they do work 
toward a common goal--that of preventing the democratically elected 
Government of Afghanistan from extending its control and reach 
throughout the nation. In addition to the ISAF forces conducting 
security and stability missions across the country, the 25 Provincial 
Reconstruction Teams (PRT) under ISAF are at the leading edge of NATO's 
efforts for security and reconstruction, and are an important component 
of a comprehensive approach that works with local and national 
authorities and the various organizations of the international 
community to achieve our goals as stated in the United Nations Security 
Council Resolutions and NATO OPLAN 10403(rev).

                     ISAF UPDATE: CAMPAIGN PROGRESS

    Progress in Afghanistan continues. NATO has three lines of 
operation: Security and stability; enhancing governance; and 
facilitating reconstruction and development. Over the past 6 months, 
NATO has adopted Measures of Effectiveness (MOE) to assess its 
performance in Afghanistan. Our intent is to more accurately provide 
objective trend analysis to inform our assessment of progress. We 
developed 63 metrics to measure progress toward our three stated 
campaign objectives from the operational plan approved by NATO's North 
Atlantic Council. As we gain fidelity over time, we expect to see 
trends develop. I will now provide a look into our advancement on these 
three objectives.
    Our first objective is the extension of the Afghan Government's 
authority across the country. ISAF's high operational tempo and 
focused, intelligence-led operations, have forced the OMF to resort to 
terrorist tactics to pursue their strategic objectives. Their 
indiscriminate but calculated attacks are designed to strike at the 
resolve of the Afghan people and those committed to progress in 
Afghanistan. While the security situation remains difficult, especially 
in the southern and the eastern parts of the country, our metrics 
highlight that IED incidents and numbers killed and wounded are 
decreasing. The increased attacks aimed at ISAF and the Afghan National 
Security Forces (ANSF) does not reflect a deterioration of the security 
situation but are a consequence of our successful tactical activity. 
Seventy percent of recorded security incidents in 2007 occurred in only 
10 percent, or 40, of the 398 districts in Afghanistan. These 40 
districts are home to only 6 percent of Afghanistan's population.
    Despite this analysis, recent surveys have indicated a decrease in 
the perception of security amongst the population of Afghanistan. I 
offer three reasons for this. First, by its nature, terrorism aims to 
incite fear in the population--while actual attacks are not far-
reaching, the fear of a potential attack remains. NATO works diligently 
toward timely and relevant communications to mitigate the information-
based effects of OMF tactics. Second, NATO's inability to fill its 
stated military requirements in order to deny the OMF freedom to 
operate and to better create the conditions for reconstruction and 
development undermines the confidence of the local population. Third, 
widespread corruption, especially amongst the Afghan police, and the 
pervasive influence of the narcotics industry further serves to instill 
doubt in the local populace. Public perceptions will change when it 
becomes clear that good governance is a better choice than tyranny, and 
the rule of law a better choice than terror. NATO's strategy is sound, 
but it will only prevail if it has the forces needed without caveats 
that constrain its use. Closing the gap between what we have and what 
we need will deny the OMF the space it needs to operate against us.
    Our second objective is the development of the structures necessary 
to maintain security in Afghanistan without the assistance of 
international forces. The Afghan National Army (ANA) continues to grow 
in size and combat capability. The successful operation to retake Musa 
Qala, an operation planned and controlled by the ANA with ISAF in 
support, was evidence of its increased effectiveness. In support of 
this objective, NATO aims to deploy more than 70 Operational Mentor and 
Liaison Teams (OMLT) across the country. These teams provide mentoring, 
training, and a liaison capability between the Afghan National Army and 
ISAF, coordinating the planning of operations and ensuring the Afghan 
units receive vital enabling support. The Afghan National Police has 
grown quickly in numbers but continues to lag significantly behind the 
Afghan National Army in professional ability. Collectively, therefore, 
the Afghan National Security Forces still lack the capacity to hold and 
stabilize areas that ISAF has secured. Unquestionably, this slows 
progress toward a safe and secure environment and has an adverse effect 
on the public's perception of progress.
    Our third and final objective is the development and maintenance of 
a countrywide stable and secure environment by Afghan authorities, in 
which sustainable reconstruction and development efforts have taken 
hold. NATO, however, is not the lead organization for most aspects of 
Afghanistan's nation-building. The tasks of stabilizing and rebuilding 
the country include development of democratic institutions, which 
extend effective governance and rule of law throughout the country, in 
a manner developed by, and acceptable to, the Afghan people. These 
tasks include many key subtasks: Training of government officials at 
all levels, reduction of corruption, effective counternarcotics 
efforts, and delivery of social services and economic infrastructure. 
Although many major projects are underway, measuring advancement is 
difficult, as the periodicity of reporting differs among the agencies 
involved. Nonetheless, it is clear we are experiencing progress, as 
evidenced by projects such as the ring road and the Kajaki dam. The 
World Bank reported some 32,000 projects underway and 15,000 completed.
    Macroeconomic reporting indicates that the Afghan economy has 
recovered to 1978/1979 prewar levels. Phone usage has increased from 
the 25,000 landlines in 2001 to nearly 4 million cell phones today with 
a current growth of 150,000 cell phones per month. Additionally, we 
have seen an increased medical capacity as well as improved health 
care. Child mortality rates have been reduced by 25 percent since 2001 
and 7 million children have been immunized against polio. The education 
of Afghanistan's children continues to move forward in most regions. 
Enrollment exceeds 6 million students, including more female students 
than ever before. Although NATO does not have the lead for those 
efforts, what NATO does, or does not do, has a far-reaching impact. The 
unique value of NATO's network of partnership with the Afghan 
Government and the international community is that it allows like-
minded countries that have a shared responsibility for international 
peace and stability to unite efforts and pool resources.

                        ISAF UPDATE: OPERATIONS

    ISAF operational tempo throughout 2007 was high. In 2007, 144 
members of ISAF were killed in action; 970 more were wounded. 
Casualties amongst Afghan forces rose as their involvement became more 
significant. A heavy price is being paid to achieve the alliance's and 
our national security objectives.
    ISAF has developed a series of rolling, theaterwide operations 
designed to maximize the impact of our effort in building a secure and 
stable environment. For example, in late fall of 2007, ISAF initiated 
Operation PAMIR, a theaterwide operation that was designed to maintain 
the initiative through the winter and into the spring. The operation 
exploited the historical migration of the opposing militant forces to 
their winter sanctuaries, both inside and outside of Afghanistan. ISAF 
and Afghan National Security Forces have conducted intelligence-driven 
operations oriented toward interdicting logistical support, disrupting 
command, control and communications, and degrading OMF leadership, 
while simultaneously supporting the Afghan Government's winter outreach 
efforts. Targeted Information Operations were designed to enhance 
public confidence in the Afghan Government, Afghan National Security 
Forces, and ISAF. These efforts were focused on strengthening the 
support of the loyal, gaining the support of the uncommitted, and 
undermining the will of those left behind to fight during the winter. 
Particular emphasis was given to publicizing the authority, capability, 
and effectiveness of the Afghan Government, as well as supporting the 
promotion of reconstruction and development. By demonstrating the 
linkage between security and the government's ability to deliver 
development, ISAF seeks to drive a wedge between opposing militant 
forces and the Afghan population.
    The trend toward more complex, rolling, theaterwide operations is 
having a positive impact on the security situation. Operations this 
spring will exploit the success of Operation PAMIR with focused 
operations against the OMF where their influence and freedom of 
movement is greatest. We are already witnessing an increase in the 
number and complexity of operations led and executed by the Afghan 
National Army. Improved security will allow for improved governance at 
district and provincial levels and set the conditions for coordinated, 
focused reconstruction and development into the summer and beyond.
    Local liaison between Pakistan, ANSF, and ISAF in the border area 
is increasingly effective, and at a higher level, the Tri-Partite 
Commission remains an effective mechanism for coordination. The 
situation in Pakistan could have an impact on the stability and 
security in Afghanistan and we continue to work closely in all these 
forums with the Pakistani military to enhance our mutual understanding 
and advance ISAF military operations.

                ISAF UPDATE: CJSOR AND NATIONAL CAVEATS

    Contrary to some reporting, the number of NATO troops in 
Afghanistan including some retained under national control has risen by 
more than 8,700 over the past year and continues to increase. It is 
also not well-recognized that ISAF exceeds requirements in many areas. 
Yet, ISAF still has shortfalls against the minimum military requirement 
in some key locations and in certain key capabilities. Specifically, a 
major shortcoming in the ISAF Combined Joint Statement of Requirements 
(CJSOR) is the deficit in Operational Mentor and Liaison Teams. The 
absence of OMLTs undermines the development of the Afghan National 
Security Forces, largely because U.S. Embedded Training Teams that 
could be supporting police development are compensating for OMLT 
deficiencies. ISAF's stated strategy is to secure, and where and when 
necessary, hold until competent, capable ANA forces are able to take 
over. Competent ANA forces are essential in order to move to the 
transition phase of the ISAF operation. We will need to field 22 OMLTs 
between now and the end of the year to keep pace with ANA growth. In 
addition, the absence of two Provincial Reconstruction Teams, three 
infantry battalions, shortcomings in Intelligence, Surveillance and 
Reconnaissance capabilities, shortfalls in rotary wing aircraft for 
lift, medical evacuation, air support, as well as the need for 
forcewide enhancements in Counter-Improvised Explosive Device measures 
are the key unfilled elements of ISAF's minimum military requirements 
as stated in the Combined Joint Statement of Requirements.
    There are over 80 restrictions or constraints, or caveats, on the 
use of NATO forces imposed on national contributions by national 
authorities. These are political constraints, which limit the 
employment of forces both among and within regional commands. ISAF 
needs the freedom to make the most effective use of its forces if NATO 
is to prevail. In particular, national caveats constrain ISAF's freedom 
to concentrate force and prevent it from compensating, where necessary, 
for CJSOR shortfalls. Caveats, like shortfalls to the CJSOR, increase 
the risk to every Soldier, Sailor, Airman, and Marine the alliance 
deploys as part of ISAF. Our Nations' forces are exceptional, but they 
need as much flexibility as possible to be effective on this 
asymmetric, irregular battlefield.

              ISAF UPDATE: AFGHAN NATIONAL SECURITY FORCES

    The development of the Afghan structures necessary to maintain 
security in Afghanistan without the assistance of international forces 
is a strategic objective of ISAF. Capacity-building is central to the 
long-term success of Afghanistan and to reaching NATO's end state. The 
Afghan National Army continues to grow in size and combat capability 
and will likely exceed the size of ISAF in 2008. To reiterate, the 
successful operation to retake Musa Qala, planned and controlled by the 
ANA with ISAF in support, was clear evidence of increased effectiveness 
and a template for the future. Today, in the most hotly contested 
regions, the ANA participates in more than 90 percent of all ISAF 
operations--this is certainly a positive trend. It is important to note 
that OMLTs have played a critical role in nurturing this capability and 
have been a critical link to ISAF assets in operations. They are our 
most important military contribution to Afghanistan's long-term future.
    Leaders across Afghanistan agree that improved policing would lead 
to improved security overall. The Afghan National Police has grown 
quickly in numbers, but continues to lag significantly behind the 
Afghan National Army in professional ability. This distracts the ANA 
who are required to take on police tasks. Collectively, therefore, the 
Afghan National Security Forces still lack the capacity to hold and 
stabilize areas that ISAF has secured. This sets back advancement 
toward security and has an adverse effect on the public's perception of 
progress. In the longer term, slower capacity-building in a more 
fragile security environment delays the point at which we can hand 
responsibility for security to the Afghans. Consequently, police 
performance needs to be urgently enhanced. Recent pay and structural 
reforms will help, but corruption, criminality, and a lack of qualified 
leadership remain the most pressing issues. In an effort to address 
these concerns, a focused and intensive training program was recently 
implemented by the Combined Security Transition Command-Afghanistan 
(CSTC-A), a program which holds promise in facilitating more rapid 
police reform. Finally, the lack of police mentors below provincial 
level is a significant impediment. I again point out that, by providing 
more OMLTs, the coalition can divert more of its teams to develop the 
police force. In sum, while there are positive indications, there is 
much more work to be done toward building an indigenous security 
capacity.

         ISAF UPDATE: SUPPORTING RECONSTRUCTION AND DEVELOPMENT

    ISAF is also focused on the strategic objective of establishing a 
countrywide stable and secure environment by Afghan authorities, in 
which sustainable reconstruction and development efforts have taken 
hold. NATO does not compete with other organizations for the 
humanitarian and development space. Our efforts to establish security 
and assist with capacity-building allow other international and 
nongovernmental organizations to work more effectively in this complex 
environment. This is, in effect, the comprehensive approach undertaken 
by NATO and its partners. NATO policy recognizes the essential 
requirement to work with Afghan national authorities and numerous 
organizations in the international community to deliver human security 
in a coordinated way. The North Atlantic Council's approved Operations 
Plan articulates the need for a comprehensive approach. Our Provincial 
Reconstruction Teams spearhead this effort on a daily basis. Their 
impact is significant at the tactical level and we are now seeing 
progress in the implementation of a cohesive approach at the 
operational and strategic levels with Afghan authorities and the 
international community.
    As I mentioned earlier, it is clear we are experiencing progress, 
as evidenced by numerous nation-building projects, the positive 
indications of macroeconomic activity, improved health care, and 
advances in the reach of education. The Afghan National Development 
Strategy is Afghanistan's chosen path for the future. It is an 
important next step which must be supported by robust implementation at 
all levels. The international community needs to make every effort to 
assist the Afghan Government in achieving its objectives in national 
development. Regardless of military success, we will struggle to 
succeed in Afghanistan unless others meet their responsibility to build 
governance and stimulate sustained development in a coordinated manner. 
The international community moves into the space created by our 
security operations to commence work. Lack of progress in 
reconstruction and development undermines public opinion at home, 
erodes support within Afghanistan for ISAF, and jeopardizes hard-fought 
security.

                     ISAF UPDATE: COUNTERNARCOTICS

    Eliminating the illicit production of opium in Afghanistan is vital 
to the long-term security, development, and effective governance of 
Afghanistan. Poppy cultivation continues to be a problem in areas where 
there is a relative lack of strong governance. The narcotics trade, 
encouraged and supported by Taliban extremists, funds and supports the 
insurgency, drains the legal economy, promotes corruption, and 
undermines public support.
    NATO does not have the lead for the counternarcotics effort. The 
Afghan Government, supported by the international community and in 
particular, the United Kingdom as the lead G-8-nation, has the primary 
responsibility for counternarcotics efforts.
    While supporting the Afghan government counternarcotics programs is 
an ISAF key supporting task, ISAF is not directly involved in poppy 
eradication. ISAF is not a direct action force in counternarcotics and 
it is not resourced for this role. When requested by the Afghan 
Government, ISAF's support consists of the sharing of information, the 
conduct of an efficient public information campaign, and the provision 
of in-extremis support to the Afghan National Security Forces 
conducting counternarcotics operations. ISAF also assists the training 
of Afghan National Security Forces in counternarcotics related 
activities and provides logistic support, when requested, for the 
delivery of alternative livelihood programs.
    ISAF is committed to the full implementation of its 
counternarcotics tasks as outlined in the current ISAF mandate. NATO, 
at the strategic political level, must do what it can to support and 
encourage those in the lead and to ensure ISAF is resourced to perform 
assigned counternarcotics tasks. At the operational and tactical level, 
ISAF is effectively coordinating its support efforts with the Afghan 
Government's counternarcotics forces as well as other CN actors from 
the international community. ISAF is operating at the limit of its 
existing authority to synchronize and coordinate its actions with those 
of Afghan counternarcotics efforts as provided for in the OPLAN.

                    UPDATE: STRATEGIC COMMUNICATIONS

    NATO's action plan on strategic communications reflects a growing 
recognition that we still have much room to improve in this area, an 
area that comes with a significant resource bill for nations. To ensure 
that we are properly supporting NATO and national strategic 
communications we need to ensure our public affairs capabilities are 
effective and relevant for the 21st century. We need action at two 
levels. In theater, nations need to ensure we have the right caliber 
people, properly trained and with appropriate equipment and resources 
for the job. The appointment of a General Officer spokesman in ISAF is 
a positive step. I asked Chiefs of Defense to ensure they now place 
talented people at every level of our public affairs organization. 
Nations need to make significant investment to build and sustain these 
capabilities.
    At the strategic level, we have made some progress in public 
affairs but have a way to go. We need to invest more effort now to 
ensure we are able to take the information provided from theater and to 
use it to support our common messaging themes. In the end, strategic 
communications is more about what we do as an alliance than about what 
we say. Our inability to resource the CJSOR, the effect of national 
caveats, and other issues play into the hands of our opponents in 
Afghanistan. We need to avoid the consequences of losing the 
information war with the Taliban, and we cannot afford to lose the 
support of our public. An integrated, harmonized strategic 
communications plan, both in and outside of the operational theater, is 
vital.

                           UPDATE: CONCLUSION

    A recurring theme in my testimony is NATO's inability to completely 
fill our agreed upon statement of requirements for forces in 
Afghanistan. We are still short key capabilities and enablers; enablers 
such as intelligence, surveillance and reconnaissance, communications, 
engineering, and air support. It is noteworthy that none of today's 
priority shortfalls are the result of nations reneging on an agreement 
to provide resources. Rather, offers against those stated requirements 
have never been made. Each nation has its own internal issues that it 
must address, but a completely resourced force sends a clear message to 
our adversary and the Afghan people--the message that NATO is committed 
to achieving success. We are at a critical juncture in Afghanistan, and 
the ISAF mission fundamentally needs minimum military requirements as 
outlined in the Combined Joint Statement of Requirements filled 
immediately. Our opponents in Afghanistan operate and sustain their 
opposition against the International Community within the gap that 
exists between the forces we need in-theater and the forces we have in-
theater. In particular, the aforementioned Operational Mentor and 
Liaison Teams are an urgent priority. By January 2009, we need NATO 
nations to provide 22 additional OMLTs to train and mentor the Afghan 
National Army in order for it to more rapidly and successfully assume 
responsibility for security. At every opportunity, I continue to 
encourage the NATO nations to make their offers to fill the remaining 
OMLTs before the Bucharest summit to provide for timely and effective 
deployment to theater by January 2009.
    To conclude, I remain firm in my conviction that NATO's efforts in 
Afghanistan are making a difference. We are succeeding, indeed not as 
fast as we, the international community, are capable of succeeding, but 
we are making progress. We are improving the lives of the vast majority 
of Afghans and we are creating the conditions for a better future. Yet, 
NATO and our partners throughout the international community can and 
must do more. Success in Afghanistan will never be attributed to 
operational military victories alone. It is only through a 
comprehensive approach that true success can be realized. NATO, the 
military, will set the conditions to allow the people of Afghanistan, 
the governments, whether they are provincial or national, to provide 
infrastructure to create jobs. It is the long-term investment and 
development by the international community and the growth of commercial 
activity that will, in the end, make the real difference. It is an 
endeavor in which the international community must succeed in 
integrating, coordinating, and synchronizing its efforts. It cannot 
afford to fail or appear to be failing. Finally, everything we do must 
be seen in the context of how it helps the Government of Afghanistan 
achieve its good governance mandate. We need to work diligently with 
the Government of Afghanistan, at all levels, to reduce corruption and 
enable better governance.

                             FUTURE OF NATO

    With respect to NATO's future, heads of state and government 
endorsed its ``Comprehensive Political Guidance'' at the Riga summit, 
laying out broad parameters for how NATO should develop in response to 
the challenges of the 21st century. The document captures the future 
direction of the alliance and I highlight for the committee the 
following key points from the document:

  <bullet> The alliance will continue to follow the broad approach to 
        security of the 1999 Strategic Concept and perform the 
        fundamental security tasks it set out, namely security, 
        consultation, deterrence and defense, crisis management, and 
        partnership.
  <bullet> The alliance will remain ready, on a case-by-case basis and 
        by consensus, to contribute to effective conflict prevention 
        and to engage actively in crisis management, including through 
        non-Article 5 crisis response operations. A premium will be 
        placed on NATO's ability to cooperate with partners, relevant 
        international organizations and, as appropriate, 
        nongovernmental organizations in order to collaborate more 
        effectively in planning and conducting operations.
  <bullet> The alliance must have the capability to launch and sustain 
        concurrent major joint operations and smaller operations for 
        collective defense and crisis response on and beyond alliance 
        territory, on its periphery, and at strategic distance.
  <bullet> Among qualitative force requirements, the following have 
        been identified as NATO's top priorities:

    <all> Joint expeditionary forces and the capability to deploy and 
            sustain them;
    <all> High-readiness forces;
    <all> The ability to deal with asymmetric threats;
    <all> Information superiority; and
    <all> The ability to draw together the various instruments of the 
            alliance brought to bear in a crisis and its resolution to 
            the best effect, as well as the ability to coordinate with 
            other actors. In this context, the NATO Response Force 
            (NRF) is a fundamental military tool in support of the 
            alliance and a catalyst for further transformation and will 
            have the top priority together with operational 
            requirements.

                            CHALLENGES AHEAD

    NATO has demonstrated a remarkable capability to adjust to the 
rapid changes confronting North American, European, and global security 
since the end of the cold war. The alliance has been confronted with 
instability, humanitarian crises, regional conflict, and terrorism on a 
multinational scale. Simultaneously, we witnessed an increase in the 
speed of global change, the emergence of new threats and risks to our 
collective security, and the direct impact of second and third order 
effects of these types of threats from events around the world. In my 
view, human insecurity knows no borders in this interdependent, 
interconnected world. This is the reality of the 21st century and NATO 
has responded with capabilities at hand and has developed new 
capabilities, new policies, and new partnerships to meet these 
challenges beyond the expectations of the 2002 Prague summit.
    NATO is now entering its most challenging period of transformation, 
adapting not only to the realities of a changed Europe, but also to 
those of a changed world. This is essential if we are to affirm the 
alliance's role as a modern instrument of security and stability for 
its members. NATO is taking important steps to complete its 
transformation from a static, reactive alliance focused on territorial 
defense to an expeditionary, proactive one that works with nations to 
deter and defeat the spectrum of 21st century threats confronting our 
collective security. The alliance is overcoming institutional inertia, 
out-dated business practices, and a cold-war-era stereotype 
understanding of its role, thereby eliminating self-imposed limits that 
directly reduce the security of its members and partners, both 
individually and collectively. At the same time, the alliance is 
assessing the threats we face, understanding better their interaction, 
and developing new capabilities and partnerships to successfully 
address these threats.
    NATO has a narrow margin for error in this new world. We must 
balance a cross section of global interests, 21st century threats, and 
the asymmetric warfare utilized by terrorists. At the same time, NATO 
cannot ignore the challenge of dealing with the unresolved problems of 
20th century Europe in order to realize the fundamental objective of a 
``Europe whole and free.'' These 20th century legacy security problems 
are difficult, real, and impact on the sense of security of the 
alliance and its members. As we assume new roles and new capabilities 
to deal with new problems, we must continue to devote our efforts to 
resolve those legacy issues such as Kosovo, Bosnia-Herzegovina, frozen 
conflicts, uncompleted economic, social, and political reforms in the 
former Soviet Union, nationalism, and ethnic conflict.
    Consequently, alliance transformation reflects the requirements of 
this transitional period. Most significantly, it retains the commitment 
between its members on mutual defense and maintains the alliance as a 
Trans-Atlantic Forum for strategic dialogue on an ever-expanding array 
of security challenges, while simultaneously operating at strategic 
distance to address direct and indirect challenges to our collective 
security. The 60,000 deployed NATO military forces on three continents 
under my command as Supreme Allied Commander-Europe, are a visible and 
effective demonstration of NATO's resolve to collectively meet global 
security challenges. The men and women of the alliance plus other non-
NATO troop-contributing nations are essentially redefining the role of 
NATO by their actions in operations.
    The alliance is adapting, will continue to adapt, and will 
successfully meet the diverse and complex challenges in the future. 
However, in this transitional period, I am concerned about the 
shortcomings that directly impact on the alliance's collective ability 
to respond and react to crises. NATO's adoption of a crisis management 
role at the Brussels summit in 1994 opened a new chapter in the 
alliance's history, with capabilities, policies, and operations 
evolving over the last 14 years. Forces in ongoing operations, the 
command structure, theater and strategic reserves, and the NATO 
Response Force (NRF) are the force pool to meet current 
responsibilities and unforeseen crises. By not resourcing these key 
elements of the alliance's overall military capability, we place at 
risk NATO's transformation to meet future challenges, as well as its 
ability to execute its main tasks while simultaneously responding to 
crises.
    During the cold war, NATO did not conduct any combat operations, 
but today it is involved in six operations on three continents 
performing a variety of missions--the NATO military structure is 
operating at an unprecedented operational tempo. The delta between our 
political will to take on missions and our political will to resource 
them translates into a delta between success and nonsuccess. It is the 
linkage between under-resourced operations at the tactical level, 
under-resourced theater and strategic reserves, under-resourced NRF, 
and under-resourced manning in the command structure that combine to 
place enormous limitations on the ability of the alliance to prosecute 
its missions at the tactical, operational, and strategic level. I 
continue to encourage NATO nations to further examine their ability to 
resource adequately all NATO operations and the NATO Response Force in 
order to minimize the risk to ongoing operations and secure the 
alliance's crisis management capabilities for current and future 
challenges.
    It is my view that the alliance also continues to be questioned 
about its political will to meet both new 21st century challenges and 
unresolved 20th century challenges. Demonstrating political resolve and 
reaffirming NATO's unity of purpose and mission in addressing 
challenges to our security are vital requirements. At the end of the 
day, this cannot be demonstrated in words, but can only be demonstrated 
in the commitment made by nations, the leadership provided by nations, 
and the resources allocated by all nations to NATO's ongoing 
operations. NATO's role and credibility as a security provider in the 
post-cold-war era will be determined and judged by how the alliance 
performs in its military operations.
    The overarching agenda for the alliance in the 21st century is 
deeply rooted in its operations, how the alliance functions and 
performs vis-a-vis current and future challenges and how our publics 
judge our success or lack of success. We must ensure at the highest 
political and strategic level that the ``State of the Alliance'' to 
defend and secure our vital interests is strong, that our strategy is 
correct, and that our resources flow in support of our vital interests 
and priorities.
    In shaping the NATO of the future, we also need to ensure that we 
forge a common strategic perspective on the security environment, on 
our operations with strategic impact, and on the implications of 
success and failure. Strategically communicating these views to our 
publics is vitally important. Much is at stake. In this context, there 
is no strategic message to communicate about NATO's future absent 
strategic success. Success depends on adequate resourcing.
    NATO operations should be the beneficiaries of a resource system 
that accords its top priority to deployed forces. Quite simply, NATO's 
deployed forces need to be fully resourced. It is the single most 
important means to demonstrate political will and symbolize our 
collective accountability to the servicemen and servicewomen put in 
harm's way. It is clear that absent real progress in resourcing the 
alliance's mission, our message will remain hollow with our publics and 
critics. I strongly encourage NATO nations to reinvigorate their 
political commitment to sustaining alliance operations. In so doing, we 
protect the tactical and operational successes in multiple theaters in 
order to achieve the strategic successes we desire in the context of a 
challenging security environment.
    I am convinced that the alliance will successfully meet the diverse 
and complex challenges of the future. As we prepare for that future, it 
is important to remember that in the same way our opponents in 
Afghanistan operate and sustain their activities in the gap between the 
forces we have in-theater and the forces we need in-theater, our future 
opponents will operate and sustain their activities against the 
alliance in the gap between the capabilities and policies we have and 
the capabilities and policies we need.

    The Chairman. Thank you very much.
    General, let me start where you left off, the forces we 
need and the forces we have, as it relates to Afghanistan. How 
big is that gap?
    General Craddock. Chairman, it is a moving gap, and it's--
it deals with assignment of forces against the minimum military 
requirement. NATO has a combined joint statement of 
requirements for every operation they do, and they have one for 
ISAF. In terms of numbers, I don't know the numbers. We talk 
capabilities--battalions, intelligence, surveillance, 
reconnaissance, aircraft, things like that.
    We have, over the past year, increased the number in 
Afghanistan upward of 12-13,000, but not all of those forces 
have been assigned against this CJSOR. So, they come in under 
national control, essentially working for the commander at 
ISAF--some with, some without constraints--the caveats. So, the 
shortfall, right now, is--against the CJSOR is about three 
infantry battalions, it's some heavy-lift helicopters, medium-
lift helicopters, and some significant numbers of enablers, 
such as intelligence, reconnaissance, surveillance, streaming 
full-motion video, things like that.
    The Chairman. Well, that's exactly what the ISAF commander 
told us when we were there a couple of weeks ago. He said--I'm 
not quoting him, but the way I read it, he needs 10,000 folks 
that can shoot straight and kill people if they have to, and--
and are willing to shoot--and which leads me to--I have been a 
strong proponent, as the Secretary knows and my colleagues 
know, along with those up here, of the expansion of NATO. I 
don't think there's any argument about the political rationale 
for the expansion. I mean, it's overwhelming. But, if I can be 
devil's advocate for a moment, some have suggested that the 
political aspect of it, or, to use your phrase, a slightly 
different way of saying it, that we have more consumers than 
contributors, that we may build this so big that it can't 
function, it becomes a jerry-rigged operation. As you expand it 
to 30, or heading toward 30, it becomes more cumbersome. If you 
look at the GDP of most of our European allies--I'm not even 
talking about the aspirants, their allocation of resources, 
percent of their GDP to their defense budgets, in relative 
terms, is embarrassing. And so, how do you respond to the 
notion that bringing in three countries--potentially, three 
countries--who have strong political rationale for it--how is 
that really going to enhance or further drain NATO's resources 
in trying to integrate them and actually make up for some 
obvious shortcomings?
    General Craddock. Thank you, Chairman. I think if one looks 
at the aspirants today and what they are contributing to, for--
let me use Afghanistan as an example--ISAF--if we look at those 
three nations in the context of the 14 non-NATO troop-
contributing nations, in terms of the numbers of personnel they 
are providing, they rank number 3, 4, and 5 of 14. If you look 
at the 26 NATO nations who are participating, they rank ahead 
of five. We are--we've looked at, through the MAP process over 
time, their security-sector processes, reforms, innovations, 
transformation, and all the aspirants have made progress to the 
standard that we believe is acceptable. Because they are 
contributing now and we find them continuing to do so in a 
larger manner, we think that's a positive signal.
    The downside for membership would be air defense. There is 
a requirement in NATO to provide for your own national air 
defense. We have assessed that they are not capable of doing 
that. One nation has some MIG-21s, but they are not 
operationally ready. So, that would be a burden assumed to 
NATO. There is precedent for that. We are doing that now in the 
Baltic nations and Iceland. So, we don't see that as an 
overwhelming burden. It's manageable for the future.
    The Chairman. Mr. Secretary, the first time around, the 
administration, in 1996, concluded that Romania wasn't ready 
for membership, and it held off the invitation at the Madrid 
summit. Romania used that decision to redouble its efforts to 
get prepared; and a few years later, it got an invitation to 
join. Did the Alliance make the right decision, in 1996, with 
Romania?
    Mr. Fried. It certainly turned out well; that is, Romania 
has been a good NATO member, a contributing member. And we saw 
that, both before the invitation, in 2002, which was then they 
got it, and afterward, they've continued their reforms.
    In retrospect, could we have invited them in 1997? 
Possibly. They made good time. They did well, over the next 5 
years, getting ready. Had we known then what we know now, we 
might have invited them. But, the honest truth is that we've 
seen NATO enlargement in practice, and we have the track 
record, and we now know, with great confidence, that NATO 
enlargement does work, both in theory and in practice, and that 
when nations are invited to join the Alliance, and do join, 
their reforms continue.
    The Chairman. General, in 2007, the Secretary General of 
NATO wrote about the need for better integration in the 
Alliance and more reform in NATO headquarters. In an article, 
he claimed that there are still too many vestiges of the cold 
war in the way in which NATO's structure is organized. I know 
that's probably--
actually, it's unfair to ask you that one, only 20 seconds left 
in my time, but what kind of success have we had with NATO 
reform? And what's on the agenda for 2009?
    General Craddock. Well, Mr. Chairman, I can't speak for 
2009, at this point. I think that's work in progress. I 
absolutely agree with the Secretary General, we are still 
hidebound into the cold war, planning and preparing for 
something that never happened, thank goodness. And we must 
transition to the 21st century fact of life, which is fast-
paced operations, requirements for support of the soldiers, the 
commanders in the field, and break through this enormous number 
of committees and this bureaucracy, that it just beats us back 
all the time with a never-ending set of questions. At the end 
of the day, it doesn't make any difference anyway.
    The Chairman. Well, I wish you luck.
    Let me, with the permission of my colleague, point out one 
thing to the Secretary. In 1998, in the context of giving its 
advice and consent, the Senate, with regard to Poland, Hungary, 
and the Czech Republic--the Senate required the President to 
submit reports to the appropriate congressional committees on 
states being considered for NATO membership prior to an 
invitation to such states being--to begin accession talks and 
prior to conclusion of any protocol providing for such 
accession. To date, we've not received the required report for 
this proposed round of enlargement. Is it due to anything we 
don't understand? Because it's due prior to the invitations 
being extended in Bucharest. Are you planning on submitting 
that?
    Mr. Fried. Yes, sir.
    The Chairman. OK, good. Thank you. Some parts of the 
administration don't think they have to respond to us. It's 
nice to know you think you should.
    Mr. Fried. We look forward to sending it before Bucharest.
    The Chairman. Thank you. Thank you very much.
    I yield to my colleague.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Secretary Fried, just along the same line, you've 
indicated, in your testimony, the administration favors 
accession of Albania, Croatia, and Macedonia, and MAP programs 
for Georgia and Ukraine, but what kind of personal dialogue or 
advocacy is the President of the United States prepared to give 
to this effort? In other words, as many of us read press 
accounts, quite apart from your testimony, it would appear that 
there are several--in fact, maybe a couple of major European 
countries--that have grave doubts about these proposals. Is 
there a danger that we could all go to Bucharest and sit down 
around the table, and suddenly we learn that we're not all on 
the same page at all. So, I'm simply asking, between now and 
early April, what is the President prepared to do? What sort of 
program are you going to prescribe for him, if he hasn't made 
up his mind?
    Mr. Fried. Senator, we are working within the Alliance on 
this issue. Secretary Rice discussed this at last week's NATO 
ministerial at length. The case we're making, that you already 
are aware of, is roughly as follows: MAP is not the same as 
membership; Ukraine and Georgia have a long way to go before 
they would qualify for membership; at the same time, no country 
outside the Alliance, should have a veto; these countries have 
to be considered for MAP according to their own merits and the 
interests of the Alliance; and, quite honestly, it's hard to 
say no to young democracies. A compelling case can be made for 
MAP for both of them. We're consulting with our allies, and 
discussing the best timing and the best way to move ahead.
    As you know, and as you pointed out, there is not yet a 
consensus. We're working within the Alliance to try to find 
one.
    Senator Lugar. Well, that's reassuring. And, you know, we 
obviously wish you success, because, otherwise, it's likely to 
be an, unfortunately, unsuccessful meeting, at least in my 
judgment.
    Now, let me just add this thought, to be provocative. Many 
people writing about Europe, as a whole, would say that the 
continent does not anticipate a war; does not anticipate 
aggression against its Member States. And, therefore, 
rationally, parliaments do not support spending additional 
money on defense that they might have, because they don't see 
the threat in light of other priorities--social programs, 
subsidies, safety nets, economic advancements. They believe the 
rational thing to do is spend money there, and they're doing 
so.
    Likewise, although we talk about Afghanistan, and we 
discuss various potential threats to Europe, as well as the 
United States, European capitals do not feel the urgency of the 
terrorist threats as we do here in the United States. European 
colleagues do not see this as a worldwide war. There are 
unfortunate incidents but those are perhaps better addressed by 
immigration policies, diplomacy, and developmental assistance.
    Now, under those circumstances, NATO has invited President 
Putin to the summit meeting at Bucharest, after the heads of 
state have met for a day or so. It would be a wonderful thing 
if President Putin came in as a European and suggested how we 
all might work together. But, most recently, President Putin 
held a press conference with President Yushchenko of Ukraine, 
in which Yushchenko went to Moscow to solve an energy crisis 
regarding debts that Russia alleges are owed to Gazprom. During 
the press conference, the President of Russia indicated that, 
because Yushchenko has written a letter to NATO, Russia may 
target nuclear-tipped missiles at Ukraine to ensure the defense 
of Russia. President Putin made similar threats to the Czech 
Republic and Poland, who have been discussing missile defense 
cooperation with the United States. This occurred even as 
Secretaries Gates and Rice are visiting Russia to meet with 
President Putin about how we all might work together in a more 
comprehensive missile defense situation, as opposed to threats 
to the Poles and the Czechs for having the temerity to discuss 
such a thing.
    And my point is, given the indecision, right now, of major 
European countries as to whether we should invite new members 
to join NATO, extend Membership Action Plans to two new 
governments, increase defense spending, or increase 
expeditionary forces, to invite President Putin into this 
situation is, I suspect, to give him a meeting in which he 
intimidates them further. Now, they will say, ``We're not 
intimidated,'' but, the fact is, on energy issues, they have 
been, and they are in a box because of it.
    If you were a European President, and you faced dire 
economic circumstances, granted you don't face an invasion, but 
you're in trouble. What would you do in such a situation? as a 
result, I question the strategy, at this particular moment. I'm 
certainly for one of visiting with President Putin at every 
opportunity, but, in this context, this seems to me to be very 
dubious.
    Now, what thought do you have about all that?
    Mr. Fried. Secretary Rice responded, I believe, in 
testimony, or to questions afterward, about President Putin's 
reference to targeting Ukraine with nuclear weapons, and she 
responded very strongly and rightly.
    President Putin's presence at the NATO summit is going to 
be, as I said, a challenge. And it will be a challenge for the 
allies to find the right balance of willingness to work with 
Russia on a common agenda, which is in our interests, and 
determination to conduct the Alliance's business without 
reference to threats from Russia, such as the threat to target 
Alliance members, such as Poland, with nuclear weapons. Finding 
that balance is easier to articulate than it is to do in 
practice, but I'm convinced the Alliance can do it. It means 
that the Alliance has to work hard on decisions like--for 
example, on missile defense or Georgia-Ukraine MAP--and to do 
so for the right reasons. I think the Alliance can handle this, 
and it will be one of the more interesting summits, I'm sure.
    Senator Lugar. Well, best of luck. You know, I hope that--
--
    [Laughter.]
    Senator Lugar [continuing]. You and the Secretary are well 
prepared, because at least this hearing will have had an early 
warning signal that there is a challenge.
    Mr. Fried. We are aware of that, and you outlined the 
challenge accurately.
    Senator Lugar. Thank you, sir.
    Senator Lugar [presiding]. Senator Menendez.
    Senator Menendez. Well, thank you, Senator Lugar.
    Thank you both for your testimony.
    Mr. Secretary, one of NATO's fundamental successes is its 
commitment of its membership to that core mission. That's how 
it was created, 60 years ago, it's what's made it successful. 
And, in that respect, I want to focus on one country's 
dedication, in particular, because it's at the core of whether 
this enlargement takes place, at least as it relates to one of 
the countries under consideration, and that is Greece. You 
know, whether it has been staffing NATO operations, 
contributing to NATO's defense efforts, or providing vital 
operational logistical support, Greece has been a vital member 
of NATO. And last year alone, it supplied nearly 2,000 
soldiers, between Kosovo and Afghanistan, in NATO and U.N.-led 
efforts. In terms of our own interests in a bilateral context, 
it has, in Operations Desert Storm, Desert Shield, Enduring 
Freedom, Iraqi Freedom, provided some critical aircraft 
refueling support and provided for military transiting and free 
passage. It has made one of the most significant investments in 
the Balkans, with nearly $20 billion, created over 200,000 
jobs, and contributes over $750 million in development aid to 
the region. So, it's been a very significant ally. And, as we 
speak, and you referenced it in your opening statement, these 
negotiations between Athens and Skopje are going on.
    And over the issue of the use of the name of the Former 
Yugoslav Republic of Macedonia, this administration announced 
that it would use the name of the Republic of Macedonia. NATO 
and the United Nations continue to refer to the country as the 
Former Yugoslav Republic of Macedonia. Some think that this is 
just semantics. Obviously, it's not, as it relates to this 
process. It's about history and territorial integrity. It's 
about a whole host of things. I'm sure the United States would 
be alarmed if, all of a sudden, our neighbor to the north or 
the south would call themselves the United States of America.
    So, my question is, Where are we in terms of the 
negotiations? What role are we playing, if any, in this regard, 
to move this to a successful conclusion?
    Mr. Fried. Senator, you're certainly right that the issue 
of Macedonia's name is not just a semantic issue; it resonates 
deeply with the people of Greece and the people of Macedonia. 
So, it's laden with emotion and complication.
    You're also right that Greece has been a good ally in NATO. 
We all recognize this, and we appreciate Greece's contribution 
to the Alliance.
    The United States has supported, and continues to support, 
the efforts by Matt Nimetz, who's the U.N. negotiator, on the 
issue of the name. In addition to that, we stand ready, because 
we have good relations with both governments, to facilitate 
progress that they may want to make.
    I should add that on Friday night I was in Skopje. I met 
with the leadership of Macedonia, the President and the Prime 
Minister. I encouraged them to work to try to resolve this 
issue in a fair way before Bucharest, and made clear that the 
United States was willing to do what it could to help.
    Senator Menendez. What's your sense of it, at this point in 
time? Do you think it's going to resolve before----
    Mr. Fried. I honestly don't know. I think that the 
Macedonians are thinking very hard about the prospect of a NATO 
membership invitation and how good this would be for their 
country, how this would help them. I think their point of view 
is one of frustration. The Greeks have a point of view, also, I 
suppose, of frustration. But, we have encouraged both 
governments to look to a future in which this is resolved, 
which will be better for everyone in the region.
    Senator Menendez. Well, clearly, we start off with those 
who are NATO members presently. And I doubt very much that 
Greece wants to use its veto, or its lack of invitation; but, 
at the same time, if it comes to such a high standing in their 
government that this is an issue, I would hope that we would be 
looking at how we are responding in this respect, outside of 
just simply saying, ``Well, we stand ready to be helpful.'' If 
we think that the inclusion of Skopje is that important, then I 
would hope that we are more than just a passive bystander----
    Mr. Fried. Well, that----
    Senator Menendez [continuing]. At the end of the day.
    Mr. Fried [continuing]. That's why I went down to Skopje on 
Friday night.
    Senator Menendez. Let me just shift gears for one moment 
and ask General Craddock, Why are some governments reluctant or 
unable to send combat forces to fight in southern and eastern 
Afghanistan? And what's been the response to Secretary Gates's 
letter appealing for another 7,000 troops for ISAF?
    General Craddock. Thank you, Senator. The second question 
first. I don't know the response, because those letters were 
sent on a bilateral basis, and, as a NATO commander, I just 
don't have the view of that.
    Senator Menendez. It hasn't been shared with you, a 
response?
    General Craddock. No; it has not.
    First, ``Why are nations reluctant to do that?''--I think 
there are a few reasons. I think there is, as stated earlier, 
some positions being held by nations, that they didn't fully 
appreciate what they were getting into. They thought it was 
peacekeeping, though it was never billed that.
    Second, I think that there are sensitive political 
coalitions that watch very carefully where the winds are 
blowing, and they do not want to commit to unfavorable 
positions that could topple a government, so they don't want to 
push out, even at the request of NATO to do so.
    And, last, I think that there is some hesitancy because 
their forces, while wanting to do all they can, lack some of 
the capabilities of their neighbors, because they're not yet 
fully transformed into these agile, capable formations. Too 
often, they are still heavy territorial forces, not like what's 
needed in Afghanistan. They don't go with the enablers. An 
infantry battalion shows up with no helicopters, no 
transportation, no international capability, and these are 
things, then, we have to add on. So, we have--we are building 
that; it's getting better, but it takes time, and it's 
expensive.
    The 26 nations, right now, NATO benchmarks 2 percent of GDP 
for their security forces, for their Ministries of Defense. Six 
of the twenty-six are meeting the benchmark. And, when you talk 
about the cost of deploying forces, it's very expensive, the 
cost of transformation is----
    Senator Menendez. General, one very quick question, 
because----
    General Craddock. Yes.
    Senator Menendez [continuing]. My time is up. I appreciate 
your answer. Isn't the first part of your answer a dangerous 
precedent? The political will and decisionmaking that you 
describe, which I accept, isn't that a dangerous precedent for 
NATO, in terms of when members of the Alliance decide they will 
or will not participate based upon those considerations?
    General Craddock. Indeed it is. I don't dispute that at 
all. I think, as I have said, that NATO's level of ambition has 
exceeded its--has exceeded its political will to support. I 
will say that in a blanket statement. Indeed.
    Senator Menendez. Thank you.
    Thank you, Mr. Chairman.
    Senator Lugar. Thank you, Senator.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Welcome, gentlemen.
    Secretary Fried, you noted, in your statement, the 
appointment of Kai Eide as the new Special Envoy, United 
Nations Special Envoy for Afghanistan. And my question is, Can 
you tell this committee what authorities he will have, what 
flexibilities he will have, within his portfolio as the Special 
Envoy for Afghanistan representing the United Nations? More 
coordination? What will he do? What will be his role?
    Mr. Fried. His role will be to pull together the 
international effort in--the international civilian effort in 
Afghanistan, and help link up the civil and military efforts by 
liaison with the ISAF commanders. He will formally report--he 
will formally have only a U.N. hat. He won't be triple-hatted. 
But, he will have--he will have an ability to coordinate the 
international effort.
    We have learned, and learned the hard way, that success in 
Afghanistan will come if, and as, we're able to observe and 
practice the theory of combined civil/military operations, 
which is a bit of a jargon-laden way of saying that you have to 
get the security right, and you have to get the development 
right, just about district by district in Afghanistan. And when 
you have the United Nations, the European Union, the United 
States, other bilateral donors, all playing, if there's going 
to be a successful effort, it has to be coherent, it has to be 
focused, and there has to be somebody--someone at the end of 
the telephone with whom you can work to bring to bear our 
resources in a focused way. That's really his job. And, of 
course, paramount is his ability to work with the Afghan 
Government. It's their country, their development strategy that 
he is supporting.
    Senator Hagel. Any additional authorities, would you say, 
as opposed to past U.N. Special Envoys, in situations like 
this?
    Mr. Fried. We have a lot of experience with Special 
Envoys--with similar cases. His position will not--he's--he is 
a--an actor in support of the Afghan Government and pulling 
together the international effort. He's not any kind of 
viceroy. It looks as--it looks, now, as if his powers are 
sufficient, but I'm saying that in advance of the launch of his 
mission. I think that the relationships he creates on the 
ground are going to be more important than the pieces of paper 
that give him various authorities.
    Senator Hagel. Let me ask you this, Mr. Secretary, because 
I want to get to a couple of other questions. One last question 
on this. Would his authorities, his presence, be the same as 
would have been the situation with Paddy Ashdown?
    Mr. Fried. No; because Paddy Ashdown was, in a sense, had a 
kind of overseer role. And in Afghanistan, you have a 
government which is in charge, so he doesn't have the Paddy 
Ashdown role. I understand the question. It is a little 
different than that. He will--he's supposed to bring to bear 
the international community, focus it, work with the Afghan 
Government, and then make this work, help us make it work on 
the ground, where it's needed.
    Senator Hagel. Thank you.
    Also, in your testimony, you singled out allies that 
deserve special praise--in your words, ``for taking on the 
hardest missions in the south, particularly the Canadians, the 
British, Dutch, Danes, Australians, Romanians, Estonians.'' 
What can you tell us about where the Canadians are in--with 
their force in the south, especially in regard to comments they 
have made over the last few weeks? If they don't get some help 
and replacements in the south, then they may well--my 
understanding is--replace those troops, or bring those troops 
out.
    Mr. Fried. I should also add to that list the Poles, who 
have stepped up with some very significant contributions of 
combat forces, without caveats, plus combat helicopters. So, 
they have--they have really stepped in--since we've talked 
about NATO enlargement, they're really pulling their weight and 
more.
    With respect to the Canadians, they have made it clear that 
they want more Alliance help, about a battalion strength, down 
in Kandahar. They've said that they need that politically, but 
also militarily. And I'll defer to General Craddock, but we've 
been working diplomatically to see what can be done. They have 
done a terrific job, suffered casualties, and, frankly, we 
think they deserve the help.
    Senator Hagel. But, so far, unless General Craddock has 
anything to add, nothing new, as far as any replacements for 
the Canadians or anyone stepping up to take on some of that 
role?
    General Craddock. Senator, I do not have any hard, positive 
answers, at this point. There's a lot of give-and-take 
machinations, ``What if,'' ``Could you then''--but we don't 
have a solid commitment, at this point.
    Senator Hagel. Thank you.
    Let me ask another manpower issue of you, Mr. Secretary. 
You also note, on the same page of your testimony, that the new 
President of France has pledged that France will stay engaged 
in Afghanistan for as long as necessary, so on. What does that 
mean? Are they adding troops, or have they committed new 
troops?
    Mr. Fried. Obviously, I don't want to speak for a foreign 
government, but it is clear that the French are thinking 
through their contributions in Afghanistan. President Sarkozy 
is looking at his options, and we're working with the French.
    Senator Hagel. General, you want to add anything to that?
    General Craddock. We have been engaged with the French for 
the last 15 months that I've been the SACEUR. Obviously, 
they've added a few helicopters. We think there's a possibility 
for some movement of forces in-country, and we're always 
prodding and poking to try to get additional forces. We, again, 
don't have anything firm, at this time.
    Senator Hagel. So, nothing in addition to what the 
President said, that he'll stay engaged.
    General Craddock. Yes, sir.
    Senator Hagel. OK.
    One last manpower issue. This is for both of you. It was 
noted here in your testimony, as well, Mr. Secretary, that the 
3,200 marines that will be soon moving into Afghanistan. Your 
testimony notes that about 2,000 will be added to the ISAF 
combat missions in the south. When Senators Biden and Kerry and 
I were there a couple of weeks ago, the same time General 
Craddock was there--in Afghanistan--a senior general told us 
that he believed that it would require another two combat 
brigades in the south, in addition to the 3,200 marines going 
in--2,000 to the south is what he felt he really needed. I'm 
going to ask each of you to comment on that, because I doubt if 
he's going to find two more combat brigades, at least from the 
American Army or Marines. And if he doesn't get this, which is 
probably unlikely, but I would like for each of you to respond 
to that, then what might be the consequences?
    General, let's start with you.
    General Craddock. Thank you, Senator.
    We periodically review the CJSOR. I've asked COMISAF to 
assess his requirements and forward whatever revisions are 
required. That is in process now; I should have it by the end 
of this week. We'll review it. It may well show two combat 
brigades for the south. The likelihood? As you said, probably 
unlikely. What's the impact? It will take longer. It will cost 
more, in terms of fiscal resources. It will cost more in terms 
of national treasure, in terms of sons and daughters who will 
get banged up in the fight. Eventually, we will prevail, but I 
think it will take much longer and at greater cost.
    Senator Hagel. May I add--Mr. Chairman, I know I'm a little 
over on--but, I--for me, this is an important point, because if 
I understand what the General is saying, that means more 
American casualties.
    General Craddock. That is correct.
    Senator Hagel. If we don't find the kind of force structure 
required to do the job that this senior general thinks that we 
can do, but it--what would be required by additional manpower.
    General Craddock. More American, more British, more 
Canadian, all in the regional command south.
    Senator Hagel. Thank you.
    Mr. Secretary.
    Mr. Fried. You're rightly focused on the job that has yet 
to be done, but I want to point out that, since we started 
pushing for additional forces in late 2006, non-U.S. NATO and 
other contributions have accounted for about 6,500 troops in 
Afghanistan since late 2006. So, it's right to focus on what's 
undone, but we should keep in mind that those 6,500 troops are 
6,500 troops that would otherwise not be there, or be filled by 
Americans. So, that's important. The U.K.'s put in an extra 
1,800; Italy, an extra 1,000; Poland, an extra 1,000, with 
another 400 on the way; Canada, 800--you get the----
    Senator Hagel. Mr. Secretary, my time's up. Let me ask you 
just this very simple question. How many American forces are in 
Iraq?
    Mr. Fried. Now? 165,000.
    Senator Hagel. And how many American forces in Afghanistan?
    Mr. Fried. 25.
    General Craddock. About 29, 30. I've got 19----
    Mr. Fried. OK.
    General Craddock [continuing]. In ISAF--19,000.
    Mr. Fried. All right. Forgot the Marines. Sorry.
    Senator Hagel. Thank you.
    The Chairman [presiding]. Can I--a point of clarification. 
The additional 6,500 troops you referred to from various 
nations, do they have national caveats in their participation, 
those troops you referenced, Mr. Secretary?
    Mr. Fried. Some do, some don't. The British--the largest 
contributions--the U.K., 1,800--do not. The Poles do not. The 
Canadians and Australians are in the south, where the fighting 
is. Others do. I think the Italians do, in the west. But, 
someone has to be in the west, someone has to be in the north. 
There are over 3,000 German troops in the north. And, while we 
would obviously like the caveats to be gone, they are doing a 
good job. And if they weren't doing it, somebody else would 
have to be.
    The Chairman. Well--thank you.
    Senator Dodd is prepared to yield, Senator Casey.
    Senator Casey. Mr. Chairman, thank you.
    The Chairman. He said, ``Let's not make this a habit, Mr. 
Chairman.'' [Laughter.]
    Senator Casey. Thank you, Senator Dodd. Thank you, again, 
Senator Dodd. [Laughter.]
    He's also a chairman, the Banking Committee. [Laughter.]
    Which I'm on.
    But, first of all, General and Mr. Assistant Secretary, we 
appreciate your presence here, your testimony, and your 
service.
    This weekend, I'm going to be chairing the United States 
Congressional Delegation visit to the Brussels forum. And, 
among other things that I want to say, if our budget gets 
through and we can actually make opening remarks, is to remind 
all of us there, especially our European friends, about the 
importance of Afghanistan. A topic that we've already spoken 
of, today, and, really the central nature of that battle 
against the terrorists, not just there, but around the world. 
And I think--you know the history--both of you know the history 
better than I do, of NATO--it's been successful over all these 
generations because of the unity of purpose. And, in this case, 
if there was ever an example of that--of what we have to do--
it's the unity of purpose with regard to Afghanistan.
    And there will be some there who are friends of ours who 
will say, ``Well, look, you're part of the American Government, 
and all we hear from the American Government, in terms of 
rhetoric in this administration, is that the President often 
refers to Iraq as the leading front against the terrorists, the 
leading front on the war against the terrorists.'' The Chairman 
of the Joint Chiefs of Staff recently said, ``In Afghanistan, 
we do what we can; in Iraq, we do what we must.'' So, it's the 
impression conveyed, intended or not, is the downgrading of the 
importance of Afghanistan, and, frankly, classifying as ranking 
of second; at least that's the impression that's conveyed to 
too many people around the world, too many nations.
    So, I would ask you, not just in the context of what I 
might hear this weekend, but in the more important context of 
what we tell the world, the message we're sending to the world, 
especially our allies, when they interpret some of the rhetoric 
by the administration, as I just outlined. What do we tell 
them? What's the response from the administration when that 
charge is made?
    Mr. Fried. We respond that the mission in Afghanistan was 
an immediate response to the attack on the United States on 
September 11, that it is, as the chairman quite rightly pointed 
out, a war and a fight of necessity, not of choice; it is a 
struggle we have to win; and that it is a struggle whose 
outcome will affect the security, not just of the United 
States, but of Europe. And that--and I believe it important to 
make that case to the Europeans. And, in that context, I wish 
you all luck and godspeed at the Brussels forum, a very good 
place to make that case.
    Secretary Gates certainly made clear that--in his Munich 
speech last month--that Afghanistan is not a secondary or 
forgotten theater, it is much on his mind. It is a struggle 
we've got to--that we are getting better at, and have to get 
right. And it is something that the Alliance, as a whole, has 
to learn to get right. It is, as I said, where the Alliance's 
new challenges are being met directly, and where the Alliance 
is learning, and has to learn, new skills and adopt new 
capabilities.
    Senator Casey. Mr. Secretary, would you agree with what the 
Chairman of the Joint Chiefs said, when he said that, ``In 
Afghanistan, we do what we can; in Iraq, we do what we must''?
    Mr. Fried. I wouldn't want to differ with my colleague. I 
would put it this way. Both Iraq and Afghanistan are separate 
fights, but we must succeed in both of them. The solution in 
both of them will be found through the right combination of 
political efforts, security and military efforts, and 
development. The challenges are different, but it is in our 
national interest to prevail in both cases. And we have to.
    Senator Casey. And I would argue--and I want to move to 
another question, but I would argue that--in your testimony, 
when you say that--and we all know we need more help there. 
When you list the countries that have helped most recently--
but, as you and the General just pointed out, our contribution 
far exceeds even the recent help in--when some countries are 
adding 1,000 or a couple of hundred, we're still at current 
force--American forces total is what?
    General Craddock. Assigned against NATO, 19,000, out of 
about 47,000. We'll be at 44 percent of the force when the 
Marines get there, of the NATO----
    Senator Casey. Forty-four percent.
    But, in light of that--and then, Mr. Secretary, you say, on 
page 8, ``Do we need more allies fighting?'' You say, ``Yes.'' 
And you both assert that. But, I think it would be helpful for 
the administration, and especially for the President, when he's 
talking about the battle for the ages, not the battle for 
2008--in this administration or the next--the battle for the 
ages is against the terrorists. And I think it would be helpful 
to improve our relations with our European friends and other 
allies specifically in terms of seeking their help in 
Afghanistan, to include Afghanistan in rhetoric about what's 
most important, or what's the central front against the 
terrorists. So, I would urge you to reiterate that--iterate or 
reiterate that to those in the administration, because 
rhetoric, I think--as you know better than I--rhetoric, in the 
international context, has consequences, especially when it 
comes to the grave question of war and the fight that we're in.
    I'm almost out of time--but, General, I wanted to ask you 
for a brief assessment of where you think we are--and a good 
bit of this is in your testimony--nonetheless a brief 
assessment of where we are on the ground in Afghanistan, 
militarily.
    General Craddock. I think we're making progress in the 
security area, but not near fast enough. We've localized, 
essentially, the fight to the insurgents, the Taliban in the 
south, some of the other groups--Agakhani in the east. I think 
if one now looks at that, you find that the rest of the country 
is pretty secure. The desire would be for the rest of the 
countries' NATO forces, then, to pile on, south and east--has 
yet to happen. We'll work it. But, I think, also, if you 
overlay the poppy cultivation areas, you'll find--where we 
still have the hard fight is where those areas are. That's the 
next focal point.
    Senator Casey. Thank you very much.
    The Chairman. Governor.
    Senator Voinovich. Mr. Chairman, as you know, I've been a 
very, very strong advocate of NATO expansion. One of the great 
days of my life was during the Prague summit of November 2002, 
when I was in the room with Secretary Fried and others, and 
then-Secretary General of NATO Lord Robertson announced that 
Slovenia, Slovakia, Bulgaria, Romania, Estonia, Latvia, and 
Lithuania were going to join NATO. I think some people have 
forgotten that in 2001 the President made it clear, in a very 
important speech in Poland, that he was not going to negotiate 
NATO expansion on the altar of working out his differences on 
the Anti-Ballistic Missile Treaty. And I'm pleased that, more 
recently, he has said he supports granting full NATO membership 
to Albania, Macedonia, and Croatia, and offering Membership 
Action Plan status to Ukraine and Georgia.
    I agree with Senator Lugar that securing President Putin's 
cooperation in extending MAP status to Ukraine and Georgia is 
going to be a bit difficult. It also seems that some of the 
preliminarily work for the 2002 Prague summit was handled more 
aggressively than preparations for the Bucharest summit next 
month, specifically in terms of the countries that are going to 
be invited.
    I'd like to know where Georgia and the Ukraine stand today 
in relationship to where Romania, Bulgaria, Slovakia, and 
Albania stood when those countries received their MAP status in 
1999. How do they compare, from an objective point of view?
    Mr. Fried. In terms of their military, political, economic 
accomplishments, a bottom-line judgment would have to be that 
they're in roughly the zone of Macedonia and Albania--when they 
received their MAP invitations. They are obviously very 
different countries, so it's hard to compare. Georgia has 
progressed in its reforms extraordinarily fast since the Rose 
Revolution. Its political consolidation and the strengthening 
of democratic institutions has a way to go. We saw that, last 
November. Its economy is moving ahead. Its military is 
reforming. So, it's on a good trajectory. It isn't nearly ready 
for NATO membership.
    Ukraine is a far more developed country. It's had free and 
fair elections. Within Ukrainian society, there is not yet a 
strong consensus for NATO membership. However, we've learned 
from experience that the prospect of NATO membership--that a 
Membership Action Plan can help crystalize a pro-Western 
consensus.
    And, as I said earlier, the Alliance is debating and 
working through the issues of when is the best time to offer a 
Membership Action Plan to these countries? And that debate, I 
think, as you all know, is going on. These are legitimately 
tough issues.
    Senator Voinovich. Where do you think our allies are on 
this?
    Mr. Fried. I think----
    Senator Voinovich. The other members of NATO.
    Mr. Fried [continuing]. Different countries have different 
views. Some are more forward-leaning, some are not. And the 
discussion within the Alliance is continuing, which is where 
the bulk of our efforts now are. We're working with our allies, 
and consulting rather closely with them, about all of these 
issues.
    And, as I said, the criteria ought to be with respect to 
Georgia and Ukraine and the interests of the Alliance, not 
having to do with an outside veto.
    Senator Voinovich. General, prior to NATO granting MAP 
status, we usually discuss niche capabilities with the 
respective countries. While I was able to visit MAP candidates 
several years ago, I have not had a chance to visit Georgia or 
the Ukraine this time around. Where are Georgia and the Ukraine 
in terms of their niche capabilities, as potential members of 
NATO?
    General Craddock. With regard to the aspirants, I don't 
think that there is a developed niche capability, like, for 
example, the Czech Republic, with the chemical capability that 
they have. They have focused--the aspirants, by and large--on 
providing support to designated operations, because this is a 
new area. In the past, we were not focused on operations, to 
the extent that we are today, in Afghanistan. We had some in 
Kosovo, but of a different nature. The aspirants are providing 
quite a bit of support, based upon the size of their 
militaries. And we are satisfied with what we see their 
capacity and capability in Afghanistan.
    With regard to the MAP countries, we've had several 
exercises--PFP exercises--I think, six to eight for each 
country over the last year, and about the same number in this 
coming year. Ukraine, for the first time, is in Active 
Endeavor, a maritime operation in the Med. They've joined that. 
Very proud to have them there with us. So, Georgia is preparing 
to send Special Ops to ISAF. It's in training now. And, you 
know, they've got an enormous contribution in other coalition 
operations.
    Senator Voinovich. Switching subjects, Kai Eide, the former 
Norwegian Permanent Representative to NATO, is heading to 
Afghanistan as U.N. Special Representative. I'm familiar with 
his work. In fact, he laid out the blueprint for the issue of 
the status of Kosovo, and as the Secretary knows, I've been 
underscoring how important the suggestions in his reports are 
to the future of stability in Kosovo. Hopefully we will find 
out whether the EU and others can implement them. Will one of 
Ambassador Eide's new responsibilities be to try to talk NATO 
International Security Assistance Force members into taking a 
more active role and getting rid of national caveats, so that 
NATO is a more effective force there in Afghanistan?
    Mr. Fried. He won't be working directly on the military and 
NATO side. He will have, let us say, his hands full pulling 
together the international civilian efforts, getting the 
different international actors in the civilian side to pull 
together, and working with the Afghan Government to advance 
their development plans. So, he's more on the civilian side and 
the coordination side, working the politics of the caveat 
issue, but he will have a very busy portfolio.
    Senator Voinovich. My point is that if NATO operations are 
enhanced with more work on the civilian side, then maybe NATO 
allies will understand how important Afghanistan is to the 
Alliance and international community, particularly to the NATO 
forces that need reinforcements. Not fully appreciating 
Afghanistan's importance is a big problem. Secretary Gates made 
a real pitch for our NATO allies to become more involved. And I 
think that unless a very aggressive effort is undertaken toward 
that end, I will be really concerned about the future of our 
NATO relationship.
    Mr. Fried. I agree with that. And one of our objectives in 
the Bucharest summit is to pull the alliance together behind a 
strategy of success in Afghanistan, to make sure that if there 
is any lingering impression that it is not a front-burner 
international priority, that is dispelled, because it is a 
front-burner priority.
    Senator Voinovich. Thank you.
    The Chairman. Senator Dodd.
    Senator Dodd. Well, thank you, Mr. Chairman.
    And thank our witnesses, as well. And, I, like other 
members, will be in Brussels on Monday, as well, and looking 
forward to some meetings there. And let me join in thanking you 
for your service, as well, and those who are with you here.
    Let me pick up on the question that Senator Voinovich has 
asked. And it occurs to me, this question of who's going to 
lead in setting policy. Is it going to be the European Union or 
NATO? And what plans do we have to try and ease the tensions 
that exist between the European members of NATO and the 
European Union? It seems to me that--the European Union looks 
at U.S. foreign policy in terms of one word: Iraq. And it seems 
like their political reactions are based on their views of our 
policy in Iraq. At least, it strikes me as that. I don't want 
to oversimplify this, but the difficulty, politically, in 
getting the European Union to be more supportive of a NATO 
presence in Afghanistan is contingent upon the ability to see 
beyond just the Iraq issue.
    And I think the question that Bob Casey raised, and that 
Senator Voinovich was talking about--this question of the war 
in Iraq--is a question of what we must do, and, in Afghanistan, 
of what we can do. Again, I don't want to hang a lot on one 
phrase or two, but whether or not that is a political reality 
in Europe, and that's how they see it. And, second, whether or 
not some of the language we use and the sense that we're 
questioning the European community's willingness to be tough 
enough, to stand up and willing to be go into harm's way. And I 
wonder if that language, in some ways--or at least that 
impression--is contributing to some of the political reaction 
that is affecting the European membership in NATO's reaction to 
all of this. Does that make any sense?
    Mr. Fried. There are several--I have to answer it in a 
couple of ways, because you've raised some separate and 
interesting issues.
    First, you mentioned the relationship between NATO and the 
European Union. We all--that is, we, Americans----
    Senator Dodd. I should have asked you, Do you accept that 
there's a tension there?
    Mr. Fried. No; I accept that there has been, historically, 
a sense that a strong NATO means a weak EU, a strong EU must 
mean a weak NATO. And that's not good for either organization.
    Senator Dodd. I agree.
    Mr. Fried. It's not good for the United States. We need to 
get past this. And we and the Europeans need to think of NATO 
and the European Union being able to work together seamlessly, 
because future challenges are not going to be purely military, 
they're not going to be purely civilian. NATO and the EU need 
to work to develop a spectrum of capabilities. We talk about 
civil/military. That's an easy phrase to throw around. What it 
means is that the European Union and NATO and other 
organizations need to work together on the ground. It means 
that we, Americans, have to be ready to work with the European 
Union as an organization, and the European Union needs not to 
be defensive about NATO. If we can get past this, we can 
strengthen the transatlantic capability of working together.
    We've come a long way, actually. We have more to do. But, 
the theory of what you're talking about is now more accepted 
and far better understood than it was 10 years ago. So, that's 
good.
    The issue of, you know, ``war of necessity, war of choice, 
do what we can, do what we must,'' I think, is--I think, as you 
suggest, is a bit of a distraction. We have to succeed in 
Afghanistan, we have to succeed in Iraq. There is a whole 
political history of both of these issues, which is--I really 
can't get into, or pointless to get into--but, we need to 
succeed in Afghanistan. We are doing better in Iraq.
    And the language we use has to be forward-looking. That's 
easy to say and hard to do. President Bush spoke about 
Afghanistan, I think, today, and, I think, spoke to--spoke in a 
way which reflects the common view that this is a critical 
fight, not a second-order one. So, I think we are getting 
there.
    Senator Dodd. General, do you have any comments on this?
    General Craddock. Well, ``what we can'' and ``what we 
must,'' I think, resonates in a way that's not helpful. 
However, I think the fact of the matter is that what we can do 
ought to be matched by our allies, and it is not. What we can 
do is put billions of dollars to build an Afghan National Army, 
and the European Union is putting 250 police trainers in, we're 
putting thousands in--2,500-3,000. What we can do is put all 
these forces in, to include 3,200 more marines in the south. 
Let's see if we can get our allies to at least match what we 
can do, and see if they can do that.
    Senator Dodd. Yes. Well, I agree with that. And I'm not 
disagreeing with your conclusion. The question is, What plans 
do we have to try and exactly get to the point that the 
Secretary talked about, recognizing this tension, and, to the 
extent that because of our language, there is some problem 
here. Because the question of how we approach the political 
problem within the European Union to gather the support that 
you accurately describe here in NATO, is serious and I wonder 
if we're creating more obstacles to that because of the 
language we're using and how the European Union is reacting?
    General Craddock. If I could, Senator--I can't speak--and 
I'll let my colleague speak to the political aspect of it--but, 
I think there is, as he stated, a bit of an awakening, a 
renaissance, a realization that NATO and the European Union 
must find areas for cooperation, not continue areas of 
competition.
    Senator Dodd. I agree with that.
    General Craddock. And we are--we are--NATO--a military--big 
military, little civil organization. They are a big civil, 
little military.
    Senator Dodd. Right.
    General Craddock. We've got to find the space and the Venn 
diagram to take the challenge and leverage it.
    Senator Dodd. Yes. Well, that's the heart of the question.
    Let me ask a couple of specific questions that, in some 
ways, relate to this very issue. And it has to do with--in 
fact, there are two questions; I'll ask them as one question 
and give you a chance to respond.
    There appears to be an almost inevitable political battle 
emerging--I'll address this to you, Mr. Secretary, first--
between Musharraf and the Pakistani Parliament. It seems almost 
inevitable. And I wonder if you can speak about the impact that 
these elections and this conflict, and what impact it's going 
to have on our operations in Afghanistan.
    And, second, I was intrigued, recently, to see where the 
Russian Ambassador to NATO, Dmitri Rogozin, I think is how you 
pronounce the name----
    Mr. Fried. Rogozin.
    Senator Dodd [continuing]. Rogozin--has indicated that the 
Russians would be willing to open its borders to nonmilitary 
materials bound for NATO operations in Afghanistan. I wonder 
how that will impact the ISAF's ability to operate in 
Afghanistan. And how is the State Department planning to build 
upon this seeming thaw in the Russian-NATO relations? And maybe 
I'm overstating the case in a ``thaw,'' but I found it 
intriguing--that offer--in light of some of the hostility that 
we've heard in years past about NATO expansion.
    I wonder if you could respond to both those questions.
    And, General, I'd invite you to respond, as well, if you'd 
care to.
    Mr. Fried. We would welcome greater cooperation between 
NATO and Russia, including on Afghanistan. They have a role--
they could play a role, particularly in transit, as you 
suggested.
    I'll take a look at Ambassador Rogozin's comments, and if 
this is an offer of cooperation with NATO, we will welcome it 
and look into it.
    Senator Dodd. Are you familiar with him?
    Mr. Fried. I'm familiar with him. I wasn't familiar with 
the details of this particular offer. And so, I need to look at 
this, and I thank you for raising it.
    With respect to Pakistan, there are others more qualified 
than I to get it--to deal with the complexities and discuss the 
complexities there, but let me say that there was an election 
in Pakistan, it was a credible election. We now in a--we're 
watching a political process, affirming a new government. We 
hope that however this comes out, there is a political 
leadership in Pakistan with credibility, legitimacy through an 
election, and an effective leadership with which we can work. 
Clearly, Afghanistan isn't an island. We have--success there 
will require also success in working with Pakistan. So, we're 
following that situation very closely.
    Senator Dodd. Yes.
    General, any comments on that?
    General Craddock. Just very quickly, Senator.
    Diversification of enroute infrastructure to move personnel 
and goods is always important. Right now, NATO moves, 
basically, by the southern route, through Pakistan. We need to 
look at this. This may provide alternatives that are very 
helpful.
    Second, with regard to Pakistan, the commander in 
Afghanistan, COMISAF, tells me he expects to have a stiffer, 
tougher fight this year in the east because of the lack of 
control yet established, maybe lessening control, in the border 
area.
    Senator Dodd. So, you're anticipating an increase in 
problems in the border area.
    General Craddock. His indication is, right now, we'll see 
more foreign fighters.
    Senator Dodd. Yes.
    General Craddock. Yes.
    Senator Dodd. Thank you, Mr. Chairman.
    The Chairman. General, that's exactly what he told us last 
week in--it's interesting--it's interesting what the ISI's take 
on it was, when we met them.
    But--then, let me go back to one thing before--and I'll ask 
my colleague----
    Dick, do you have any additional questions?
    Senator Lugar. No, Mr. Chairman.
    The Chairman. When Senator Dodd was going into some detail 
about, quote, ``the tension between the EU and NATO''--and it's 
real, it's been around since the EU emerged--but, it seems to 
me that the, really, basic, basic problem we have here--and I'm 
wondering if you would each be willing to tell me how your 
civilian and your military comrades in NATO talk about what I'm 
about to raise--and that is, the lack of political will among 
the European population to actually support their militaries. I 
mean, when we cut through it all, my observation, of all the 
years of working with NATO, has been that you probably have 
less pushback from your military colleagues. I don't know many 
German military officers who don't want to fight if they're put 
in a position where there's a fight. I don't know many of our 
NATO allies who, when they sit around the table with you, 
aren't prepared to shed the caveats. Maybe I'm wrong. Maybe I'm 
missing something. But, when we go and have the meetings with 
the civilian representatives--as you all know, obviously, the 
ambassadors represent the civilian side of NATO and their 
governments--they're not getting that signal from their 
Parliaments, they're not getting the signal from their Prime 
Ministers or their Presidents, because they're not getting it 
from their publics. And I get the sense, when I'm there, that 
there is no distinction made between America's war in Iraq and 
America's war in Afghanistan. You know, it's all about terror, 
and ``Americans aren't fighting terror the right way.'' I mean, 
when you sit in the coffee shops, or you walk the streets, you 
talk to people, this is what you hear. Am I missing something? 
Isn't all this, you know, much ado about nothing? Until there's 
the political will to actually pull the economic--pull the 
budget trigger, you know, in each of these Parliaments to say, 
``We're actually going to support the military.'' I mean, isn't 
that the lack of resources from our allies the bottom-line 
problem?
    Mr. Fried. There is, as you rightly point out, an issue in 
Europe of support for militaries, in general, and military 
operations, specifically. Europeans have lived in--for two 
generations in a Europe of general peace, the longest period of 
general peace in Europe since Roman times. And it's thanks to 
NATO, in large part. It's a great irony. Thanks to a military 
alliance, and, under the alliance umbrella, the European Union 
formed. That's known, and that's part of the reality.
    So, you're not missing something. But, it is true that, 
nevertheless, even given those politics, there are thousands of 
non-U.S. NATO troops in Afghanistan. Over half the forces are 
European. They are there in the south.
    The Chairman. Mr. Secretary, if I could interrupt you, 
because I think the point you're making is valid, but, let me 
ask you, Do you get a sense, when you talk to your colleagues, 
your civilian counterparts or your--I don't get a sense that 
there are many citizens walking the streets of, you know, any 
capital in Europe who think they're threatened by what's going 
on in Afghanistan. I don't get a sense any average people think 
that their well-being will be affected by success or failure in 
Afghanistan. I don't get that.
    I don't want to belabor the point, but it seems to me, 
until they get to the point where there's strong enough 
political leadership to connect that this affects their well-
being, until that happens, it's kind of hard to get a lot of 
this done which raises the question: Has NATO become a 
political organization, primarily? Or, was it always just a 
political organization? I mean, the expansion of NATO--when I 
speak to people in those countries--they want to join NATO 
because it's, sort of, the ticket to membership to the West. 
It's not about, ``By the way, we're going to join NATO, and I'm 
going to send my son to Afghanistan.''
    Mr. Fried. The countries that joined NATO after 1989 wanted 
to be in NATO for hard security reasons, and for good ones. And 
those countries have contributed their forces, their soldiers 
to missions far afield.
    You're obviously right that there are--that European 
publics are much more ambivalent about military missions than 
the American public, on average. But, given that, it's 
interesting that Parliaments in Europe regularly reauthorize 
their contingents in Afghanistan--not as much as we'd like; 
we've talked about the caveats, which we think should be 
eliminated; they're not as capable, they're not as numerous, 
but they are, nevertheless, there. The Dutch are in Uruzgan. 
The Canadians are in Kandahar. So, there are European NATO 
members in the hot fights. That doesn't mean the problem 
doesn't exist; it means that, even given that--some of the 
political challenges we face, NATO is in action. After all, 
during the cold war, that we all look back on and say it was 
the Golden Age of NATO, NATO actually didn't ever fire a shot 
in anger. Now it's engaged in operations all over the world.
    The Chairman. Well, I thank you--I thank you both. I 
personally think there's a need for a change in the political 
climate there that generates greater confidence there. I'm not 
referring to the military, General, per se.
    Well, look, we could talk about this for a long while, and 
I--we have a very talented panel that comes up behind you 
fellows. And I want to thank you both very, very much for being 
here, and we look forward to continuing to work with you both. 
And hopefully this expansion can be rational and effective.
    I thank you both very much.
    Mr. Fried. Thank you, Mr. Chairman.
    General Craddock. Thank you, Mr. Chairman.
    The Chairman. Our next panel is a very distinguished panel, 
every one of whom we are accustomed to having before us, and 
we've listened to with great interest: Ron Asmus, Bruce 
Jackson, Phil Gordon, and Jim Townsend. Would you all, when you 
get a shot, come to the witness table?
    [Pause.]
    The Chairman. Gentlemen, thank you for being here. You're 
all very familiar with the committee; we're familiar with you, 
and happy you're here.
    I will submit, for the record, a little bit about each one 
of you, but there's been many, many times you've been here.
    Let's start in the order that you were called up--start 
with you, Ron, if you would. Welcome, and thank you for being 
here.

STATEMENT OF RONALD D. ASMUS, EXECUTIVE DIRECTOR, TRANSATLANTIC 
        CENTER, GERMAN MARSHALL FUND, BRUSSELS, BELGIUM

    Dr. Asmus. Thank you, Mr. Chairman, Senator Lugar, Senator 
Dodd.
    I've submitted my longer statement for the record. I want 
to associate myself with many of the comments each of you has 
made about the overall health of the Alliance in Afghanistan. I 
share those. But, I think you've invited me here largely to 
focus on NATO enlargement; and, in my very brief comments, I'll 
focus on that.
    I'm in the unusual position of having--of being one of the 
long-time supporters of NATO enlargement who, in a sense, is 
the skeptic up here today on this panel. My skepticism is not 
about NATO enlargement, which I think has been a great success, 
and I want to be clear that I want these countries we're 
talking about today to succeed and be in the Alliance.
    I have three concerns that I'd like to briefly touch upon 
today.
    My first concern is the integrity of the process of NATO 
enlargement. A decade ago, we wrestled with this question of, 
How do we ensure that as NATO gets bigger, it doesn't become 
weaker?--one of the questions we've been talking about. And we 
came to the compromise that, as we enlarge, we had to be tough 
on performance and set standards that we would stick to, in an 
attempt to incentivize these countries to do their homework as 
they came in, recognizing full well that these were often poor, 
weaker countries who had a long ways to go.
    And if we ask ourselves, ``Why was performance so 
important?'' it was both to keep NATO strong, but also because 
we understood that reform in these countries was a contribution 
to stability, that it would resolve nationalism, the residual 
historical conflicts, et cetera, et cetera. And I think what 
we're seeing is that, if I can call them the Class of 1997, the 
Class of 2002, and what will be the Class of 2008; each class 
is a bit weaker, each of the classes we've seen thus far has 
some success stories, but, if we're honest, has some nonsuccess 
stories. And we're wrestling with this dilemma, is--are we 
gradually lowering the bar, or are we keeping it high? And I 
want to raise my hand and say we need to focus on that 
question, because I'm not convinced that the countries we're 
talking about today, the Adriatic three--Albania, Croatia, 
Macedonia--who I want to see succeed, have all received the 
same level of scrutiny and are being asked to meet the same 
standards as in the past. If they are, I'm in favor of them. 
I'm not convinced, as of today, that they have met those 
standards.
    My second concern--and I'm going to recall a conversation 
we had, Senator Biden--is----
    The Chairman. That's unfair. [Laughter.]
    Dr. Asmus [continuing]. It's a good conversation, though--
and it's this issue of--because of Kosovo, we have to do this 
now, because we now need to stabilize this region; otherwise, 
it will fall apart. And you may remember, in 1997 you made a 
visit to one of the countries that was trying to get in then, 
that we considered to be unqualified. You spoke to the 
President of that country, and he, in my words now, not his, 
more or less said to you, ``If you don't bring us in at Madrid, 
we're going to commit political suicide. We will fail. It'll be 
the end of reform, and you will be to blame, you Americans.'' 
And my recollection is that you said to him, ``That's the worst 
argument I ever heard for NATO enlargement, and please don't 
make it ever again, because that is not why we want to bring 
countries into NATO. We want strong, confident, successful 
countries be coming to NATO, not countries that think they're 
on the edge of failure.''
    And there's a little bit of that in this debate today, if 
we're honest, that just gives me pause. I, too, want to 
stabilize the Balkans after Kosovo, but I want to make sure we 
do it right.
    And my third concern, very briefly, is Ukraine and Georgia, 
because, I believe, if there are any countries out there that 
are truly vulnerable today, it's much more Georgia and Ukraine 
than the three Adriatic countries in the Balkans. And I think 
success in Bucharest is both doing the right thing in the 
Balkans and doing the right thing for these countries. And my 
concern has always been that we will have underperforming weak 
rounds of enlargement in the Balkans and get nothing on Ukraine 
and Georgia. And if you ask me today, that is the most likely 
outcome of the summit, unless we see a very serious, high-
level, Presidential effort to turn this around, and I don't 
believe that would be a definition of success as any of us 
would understand it.
    I'm also--you know, so my idea was that we should wait and 
do a bigger round of enlargement later, but I'm also a realist, 
and I realize this administration--and living in Brussels, I 
can say, except for the Greek-Macedonia issue, there is a 
consensus to do A3--A2 or A3, depending on this issue--so, I 
think it is going to happen--raises the question of, How do we 
ensure that this round is successful, that these countries do 
perform, and that we keep the door open? And I just want to 
mention three things, very briefly, that I think we should be 
thinking about.
    The first one--Senator Biden, you mentioned it--I'm very 
glad you recalled that resolution of ratification and the 
reports that the administration was required to write, having 
written a number of those reports. They are a good test of 
forcing the administration to put down in writing, on paper, 
where these countries qualify, and don't. So, let's get an 
objective benchmark.
    I happen to disagree with a couple of things that my friend 
Dan Fried said in his assessment of some of these countries, 
that we can go back to; but maybe he's right, and maybe I'm 
wrong; maybe I'm right. We don't have a baseline that we all 
agree on, at the moment, where these countries truly are.
    Second, if I look at the calendar, when are we going to 
vote on these countries? I think--I defer to your judgment on 
this--it may not happen in this administration, it may be 
something that slips over into the next President's term. So, 
we're going to have 18 months. I think our leverage over these 
countries is at its highest when they think they're going to 
get in, but they're not quite sure. So, we should use these 18 
months to identify their weaknesses, incentive them to as much 
homework as possible, and maybe take another hard look at where 
they are before you actually vote in the U.S. Senate on 
accession, and let's try to get as much additional homework 
done before we come to that vote.
    Last and finally, I think we need to consider, if we 
understand that the countries coming in are--have further to 
go, because--not their own fault, but they're coming from a 
different place. Georgia was a failed state. Georgia has made 
huge progress, but Georgia is nowhere near where the countries 
that received MAP in 1999 were. Georgia needs help. Maybe it 
should get MAP. But, you know, they have such a long way to go, 
they more guidance. But, let's understand that, when we bring 
them in, 70 percent of their homework still needs to be done. 
And we, sort of, bring them in, check the box, and think that 
everything's going to work smoothly.
    And, again, I think you can see two classes of new members: 
Those who have succeeded and are working hard to be first-tier 
allies, and those that aren't. So, I think we--we need to think 
through whether we come up--I suggest an amendment, in my 
testimony. There may be other ways to do this. We need clear 
benchmarks to guide these countries, even after they accede to 
the Alliance, and to incentive them and put a little bit more 
scrutiny and publicity on some of the shortcomings that are 
there, to help them stay on track. And I will tell you that I 
truly believe, from talking to their ambassadors and to 
reformers in these countries, they want you to pay attention to 
them, because that attention helps the people, who truly want 
to reform in these countries, succeed, and they will welcome 
the attention of the U.S. Senate and of the U.S. Government to 
how these reforms are doing, the people who truly want to 
change these countries.
    I'll limit my opening remarks to that.
    [The prepared statement of Dr. Asmus follows:]

    Prepared Statement of Dr. Ronald D. Asmus, Executive Director, 
     Transatlantic Center, German Marshall Fund, Brussels, Belgium

    Mr. Chairman, it is an honor to testify today before the Senate 
Foreign Relations Committee on the state of the NATO alliance in the 
run up to the Bucharest summit April 2-4, 2008. It has been a privilege 
to working closely with you as well as Senator Lugar and the committee 
more generally on NATO enlargement issues since the early 1990s. Your 
leadership on these issues has been essential. Bucharest looks like it 
could become an exciting and potentially controversial summit. The 
agenda is full and includes difficult issues such as Afghanistan, 
Kosovo, NATO enlargement, missile defense and relations with Russia. 
While I will focus my comments today on NATO enlargement, I would first 
like to touch briefly on two other critical issues--the overall health 
of the alliance and Afghanistan.

                         NATO'S OVERALL HEALTH

    The first is the overall health of this alliance and the trans-
Atlantic relationship more generally. To be honest, it is not good. 
NATO today is weaker and less central and relevant than it was a decade 
ago. That is disturbing because I believe the need for trans-Atlantic 
cooperation is actually going up, not down. As I look out at the world 
we face, I see more challenges and problems where the U.S. and Europe 
need to find a common approach. They don't all involve NATO but many 
do, at least in part. That is why I am worried about the very real 
dramatic decline in public support for the alliance and the United 
States more generally, especially in countries that have historically 
been among our closest allies. As an American currently living in 
Brussels, NATO's relative marginalization and decline are striking. I 
know full well that I am not the first person to testify before this 
committee that NATO is in crisis. But reversing the decline in support 
for the United States and the alliance will be a key challenge facing 
the next President. I am glad you are holding this hearing so we can 
start to shed some light on what is wrong and what needs to be done.

                              AFGHANISTAN

    The second issue is Afghanistan. Mr. Chairman, I know you recently 
returned from a trip to Afghanistan and Pakistan. I have had the chance 
to read your thoughts on that trip. I, too, had the chance to visit 
Afghanistan for a week last fall with NATO. I came away with three 
impressions I would like to share as well, in part to reinforce the 
message that a number of Senators on this committee have been trying to 
send.
    The first one is that this is indeed a make or break issue for this 
alliance and for the Western world more generally. This conflict was 
not a war of choice, but of necessity. It has every conceivable form of 
international and multilateral legitimacy. My impression is that the 
vast majority of the Afghan population wants the international 
community, including NATO, to be there helping them end this conflict 
and rebuild their country. In short, many of the prerequisites that 
were or perhaps still are not in place in Iraq do exist in Afghanistan. 
Yet, one cannot help but come away from a visit there feeling that we 
are fighting this war with one hand tied behind our back, without 
sufficient attention, priority or resources. If we were to fail in 
Afghanistan--especially if such a letdown were to follow on the heels 
of failure in Iraq--the consequences for Western security would be 
devastating. So the stakes are extremely high.
    Second, the fate of Afghanistan and Pakistan are linked. They are 
two sides of the same conflict. That means we need a much more 
integrated strategy--and not just for the border region but more 
generally. We are currently not set up to do that well. NATO is deeply 
involved in Afghanistan, for example, but it has little knowledge of, 
and no role in, Pakistan--even though events there play a key role in 
determining the alliance's success or failure. Our own policies vis-a-
vis both countries need to be better integrated and then coordinated 
with our closest allies.
    Third, NATO can do everything right as a military alliance but we 
can still lose this war. As important as military and security forces 
are, NATO and the Afghan Army cannot by themselves prevail in this 
conflict for the simple reason that the equation determining success is 
not just, or even primarily, a military one. The key challenge is 
providing better governance. That is how we will eventually defeat the 
Taliban. Visiting Afghanistan, I think we are all struck by the vast 
discrepancy between our ability as Western governments to marshal and 
deploy military power on the one hand, and our limited ability to do 
the same when it comes to the task of reconstruction and helping to 
provide better governance. Yet the latter are essential to winning the 
peace in Afghanistan. Our armed services are doing a terrific job but 
where we are falling down is in our ability to organize and deploy 
experts to help in areas like development, agriculture, narcotics, etc.
    Mr. Chairman, I know that you and others have proposed legislation 
to strengthen our national capacity to do so and I strongly support 
such steps.
    Last, but not least, I want to offer a thought on why it has been 
so hard to get our allies to increase their commitment to Afghanistan. 
Clearly we missed the chance to forge a new coalition and common 
strategy after September 11 when NATO declared article 5. While we 
eventually realized we had made a mistake, we have been playing catchup 
ever since. Allies have come on board in a piecemeal fashion with 
different understandings of their mission they were signing up for. 
Making the shift from peacekeeping to a counterinsurgency mission is a 
political difficult step for many allies.
    But I think the fundamental problem we face is that our allies do 
not really believe the United States has a strategy to win this 
conflict--and thus are reluctant to take the political risks involved 
in doing more. If they were convinced the U.S. was serious and had a 
credible comprehensive strategy to prevail, and if the President of the 
United States was directly involved in personally selling this to his 
counterparts, then I believe we would be having a different and more 
productive conversation. With all due respect to Secretary of Defense 
Bob Gates, who has been working hard to increase allied contributions 
in Europe, in Europe this issue requires Presidential engagement with 
his counterparts. But I suspect that task will unfortunately fall to 
the next administration.

                     GETTING NATO ENLARGEMENT RIGHT

    This brings me to the focus of my testimony today which is NATO 
enlargement and effectiveness. I have been a strong supporter of NATO 
enlargement dating back to the early 1990s. It has been one of our 
great success stories of the last decade. After the Iron Curtain 
lifted, Western leaders seized a historic opportunity to open the doors 
of NATO and the European Union (EU) to Central and Eastern Europe. By 
consolidating democracy and ensuring stability from the Baltics to the 
Black Sea, we redrew the map of Europe for the better. As a result, the 
continent today is more peaceful, democratic, and free. All one need do 
is imagine what Europe today would look like today if NATO had not 
enlarged. I suspect there would be instability in Central and Eastern 
Europe and more tension with Russia. The continent would be even more 
self-absorbed with its own problems and we would thus have even fewer 
allies willing and able to work with us to address crises around the 
world.
    That success came about because a lot of people worked hard to make 
sure we got NATO enlargement right. That brings us to the question we 
are here to discuss today--what does it mean to get NATO enlargement 
right at the upcoming summit in Bucharest? In my mind, there are two 
central questions we need to answer. The first is whether this is the 
right time to extend invitations to the so-called Adriatic 3--Albania, 
Croatia, and Macedonia--to join NATO. That requires us to assess 
whether these countries are qualified and meet the minimal standards we 
set for new members a decade ago in NATO and in close consultations 
with the U.S. Senate, as well as to decide whether such a move now 
would enhance the stability of the Western Balkans and serve NATO's 
interest in further consolidating stability in Europe.
    The second key question we need to address at Bucharest is the 
future of our vision of enlargement. Do we, as an alliance have a 
consensus to go beyond the original vision of the 1990s--an expanded 
NATO from the Baltic in the north to the western edge of the Black Sea 
in the south--and take real and meaningful steps to extend the alliance 
deeper into Eurasia to Ukraine and across the Black Sea to the southern 
Caucasus by reaching out to Georgia? Bucharest can either be the last 
enlargement summit which addresses the Western Balkans and completes 
the vision of the 1990s, or the summit where NATO takes the first real 
step in sketching out a new and bigger vision of enlargement for the 
next decade. We need to be clear that taking such a step, which I 
support, will have far-reaching political and strategic ramifications 
for NATO, Europe, and our relations with Russia. It is not just ``more 
of the same'' but a bold new strategic move that would again redraw the 
map of Europe. In my view, the potential strategic benefits of such a 
step would be considerable. But we should have no illusions. It will be 
difficult and require a new strategic narrative, sustained U.S. 
political attention and diplomatic heavy lifting by this country with 
close allies and with Moscow if it is to succeed.

                        WHY PERFORMANCE MATTERS

    Mr. Chairman, in an op-ed in the Washington Post last month 
entitled ``A Better Way to Grow NATO,'' I expressed my skepticism about 
the administration's current approach on enlargement for Bucharest. 
That skepticism was and still is rooted in three factors. The first is 
performance. As a veteran of these NATO enlargement debates, I am 
worried about how performance has become less and less of a factor in 
our deliberations. I am not yet convinced the Adriatic 3--Albania, 
Croatia, and Macedonia--are qualified for membership. While I do not 
claim to be the world's leading expert on these countries, I am 
skeptical whether they really meet the minimal standards we set a 
decade ago. I have spoken to experts in and outside the alliance who 
share that skepticism. If we are honest, these countries are probably 
weaker and have received less scrutiny than any of the new members we 
have brought into the alliance since the end of the cold war. I 
therefore commend the committee for holding this hearing and insisting 
that the administration report on these countries' qualifications 
before the President makes a final decision on enlargement
    I am often asked why I am so focused on performance. Can't or 
shouldn't we just bring these countries in ``as is'' and fix their 
problems later? Isn't that the job of the State Department, OSD, and 
JCS--to fix those problems? Unfortunately, the real world is a bit more 
complicated. A decade ago we debated how high or low we should set the 
bar for new members. We consciously set the performance bar higher than 
it had been during the cold war. We adopted this ``tough love'' 
approach because we felt that their internal reform was an essential 
building block of European security and because there was no immediate 
external threat to these countries. Nowhere is this more true than in 
the Western Balkans today where the real risks to instability are 
largely internal and due to the lack of reform. That is why I believe 
strongly that it would be a mistake to lower NATO's bar for these 
countries. We should ask no more but also no less of them than we did 
for previous countries like Poland, the Baltic States, or Romania.

                            BALKAN STABILITY

    This brings me my second concern with the administration's approach 
to Bucharest. It seems to me that the crux of the administration's 
argument is that we need to do this round of enlargement now to shore 
up Western Balkan stability in the wake of Kosova independence. I agree 
with the administration on the need for Balkan stability. If anything, 
I fault this administration for not paying enough attention to the 
Western Balkans earlier. I feel the administration is trying to 
compensate for its past inattention by now accelerating the enlargement 
debate. But I am not convinced by the argument that we should lower our 
performance standards because of the potential instability generated by 
Kosova.
    Mr. Chairman, I also want these countries to join NATO and the 
European Union. But I want them to do it in the right way when they are 
truly ready. Enlarging NATO entails logrolling. There are pressures to 
include more countries to keep all allies happy. The temptation to bend 
criteria is real. But what is good politically can be bad 
strategically. I get a bit nervous when I hear the argument that if we 
don't bring this or that country in now, it or the region may be 
destabilized. I remember a conversation we had in the spring of 1997 in 
the runup to the Madrid summit. You had just met with the President of 
a country that was pushing hard for an invite but which we did not 
consider fully qualified. That country's President had told you that if 
it did not receive an invitation to join NATO, its government would 
fall and reform would fail.
    In short, the argument was that if we did not invite them to join 
NATO, they would essentially commit political suicide. You told him--
correctly in my view--that this was the worst argument you had ever 
heard for enlargement and that if the reform project in his country was 
that fragile you would oppose his country's candidacy. What happened? 
We stuck to our guns on the performance issue. That country survived 
not getting an invitation, it actually accelerated its reform efforts 
and when it joined NATO a few years later, it did so without 
controversy because it was a stronger candidate and with fewer doubts 
about its qualifications.
    I also think we need to keep our eyes on the key strategic issue in 
the region which is the future of Serbia. As important as they are, it 
is not Albania, Croatia, or Macedonia which hold the key to future 
Balkan stability. That key lies in Belgrade. There is a real danger at 
the moment that Serbia is moving in an anti-Western direction. That is 
what we need to change but this enlargement move now could actually 
reinforce the wrong trend in Serbia. I worry that the administration's 
proposal is strategically shortsighted. Coming after a messy 
declaration of independence by Kosova, the admittance of weak, not-yet-
qualified candidates could actually bring regional instability into 
NATO rather than the other way around. It ignores the real prize--
getting Serbia to embrace a westward course.

                          UKRAINE AND GEORGIA

    Mr. Chairman, my third concern about the administration's approach 
at Bucharest has to do with Ukraine and Georgia. I am worried that the 
administration's approach does not connect the Western Balkans and the 
wider Black Sea region and countries like Ukraine and Georgia. I 
believe that how NATO addresses the aspirations of these countries is 
every bit as important as what it does in the Western Balkans. If we 
are honest, Ukraine and Georgia are more vulnerable strategically than 
the Adriatic 3 today. They are vulnerable not only because of their 
internal problems and the lack of reform but also because they are 
subject to external pressure from Moscow. They face repeated Russian 
efforts to interfere in their internal affairs and prevent them from 
anchoring themselves to the West.
    As I mentioned earlier, the alliance is at a critical turning point 
in terms of our future vision of enlargement. The challenge of the past 
decade was to secure democracy in Europe's eastern half, from the 
Baltics in the north to the western edge of the Black Sea in the south. 
The challenge today is to extend security further east--into Ukraine 
and across the wider Black Sea to the southern Caucasus which is caught 
between an unstable Middle East and an increasingly assertive Russia. 
Bucharest can either be the last summit in completing the original 
vision of the 1990s or the first summit where the alliance embraces a 
bigger and more ambitious vision. In the current issue of foreign 
affairs, I have argued that NATO must make this second strategic leap. 
But I also underscore just how challenging it will be and what it will 
take.
    My concern is that Bucharest will produce a round of enlargement to 
underqualified candidates in the Western Balkans along with little or 
nothing for Ukraine and Georgia.
    Mr. Chairman, I know and applaud the fact this committee has sent 
an important signal to allies by passing Senate Resolution 342, which 
supports MAP for both Ukraine and Georgia. But I also think we need to 
be realistic. Many of our allies do not believe the enlargement process 
should be continued, or even if these countries are truly part of 
Europe. Many doubt the solidity of the democratic and Western 
orientation of Ukraine and the commitment of the leadership of that 
country to NATO. Others doubt the solidity of Georgia's democratic 
experiment or how we are going to resolve the so-called ``frozen 
conflicts'' on Georgian soil. Many have concerns about the reaction of 
Russia and whether we have a strategy to manage a more assertive Russia 
that is likely to be more determined in its opposition to further 
enlargement.
    These are really issues and concerns that we need to address. The 
odds of sorting them out by Bucharest are low. Extending NATO to 
Ukraine and Georgia is not just more of the same process of enlargement 
as we have known it over the last decade. It would be a new and 
fundamental strategic move with potentially far-reaching consequences. 
Giving these countries MAO would not necessarily mean a commitment to 
full NATO membership but it certainly is an important step in that 
direction. We also have a complicated doctrinal debate within NATO as 
to what MAP actually means. Initially, MAP was indeed intended for 
countries that were only a few years away from an invitation and was 
designed to help them in essence complete their final round of 
preparations. Neither Ukraine or Georgia are at that point today. But I 
think we can and should redefine MAP to loosen this linkage for 
countries like Ukraine and Georgia which still have a longer way to go 
but which clearly need a closer alliance embrace.
    I believe that would such a result--enlargement to a weak set of 
Adriatic countries plus little or nothing for Ukraine and Georgia--
would not be a policy success. I have argued that a better approach 
would be wait or to do a small round of enlargement, perhaps limited to 
Croatia, to give the other candidates more time to bolster their 
credentials, for the West to sort out regional security in the Balkans 
after Kosova, and to work toward a second big bang round of enlargement 
down the road that would stretch from the Western Balkans and embrace 
Ukraine or Georgia.
    I would point to the historical parallel with the Baltic States in 
the 1990s. The United States fought a dramatic political battle at the 
Madrid in 1997 summit to limit that initial round of enlargement, in 
part because we did not think that Romania and Slovenia were qualified 
but also to protect the Baltic States. We knew that some of our allies 
wanted to make this first round the last and to exclude the Baltic 
States. We wanted to keep the door open. The result: Romania and 
Slovenia, while disappointed, redoubled their reform efforts; the 
Baltic States grabbed their chance to catch up and qualify and did so; 
and we laid the foundation for a later but ultimately successful 
enlargement that redrew the map of Europe in 2002. Being firm on 
criteria and thinking strategically about the long term paid off.

                               CONCLUSION

    Mr. Chairman, nothing has happened since I wrote my op-ed in the 
Washington Post a month ago to alleviate the concerns I expressed then. 
I remain concerned that we are going to invite countries from the 
Western Balkans that are not yet qualified, that such a step will not 
necessarily stabilize the region and that Bucharest will do too little 
to support Ukraine and Georgia or make the shift to this bigger vision 
of NATO that I am calling for. To be honest, I hope I am wrong. I hope 
that in the weeks and months ahead the administration can show that 
these candidates are better qualified than I think they are, and that 
allies will come together in Bucharest and in the end achieve a 
positive result on Ukraine and Georgia.
    I am also a realist. This administration has made up its mind to go 
forward with invitations to the so-called Adriatic 3 countries at the 
Bucharest NATO summit in spite of the concerns people like me have 
raised. I am occasionally asked whether I will then oppose the 
accession of these countries. I have concluded that I will not for the 
simple reason that I do not want NATO or these countries to fail. For 
the U.S. Senate to vote down a candidate country that the 
administration has invited would, in my opinion, do grave damage to our 
standing in the alliance and potentially kill the enlargement process. 
But we do need to guard against the risks I have pointed to. Our 
Constitution envisions a key role for the U.S. Senate in this 
ratification process. I believe this committee should assume a 
leadership role to reduce those risks I have pointed to today by 
considering several steps.
    First, we should actively use the period between possible 
invitations at the Bucharest summit and and an eventual Senate 
accession vote to scrutinize these countries' performances and to 
maximize their incentives for making additional progress. These 
candidates have thus far received less scrutiny than any previous 
candidates since the 1990s, even though they are weaker and potentially 
less stable. We should ask no more, but also no less, of them than 
their predecessors. As in the past, the administration should be asked 
to testify and report--in open and classified hearings--on how well 
they are performing and whether they fulfill the requirements laid down 
for membership. I am glad that the administration has now been asked to 
report on these qualifications before a final decision on extending 
invitations is made, in accordance with previous Senate resolutions on 
ratification.
    That final Senate vote should not be scheduled until this committee 
is confident they fulfill those requirements. If I look at the 
legislative calendar, it seems unlikely a Senate vote on enlargement 
will happen before the end of this administration. Thus, this vote is 
likely to take place under the next President. Given the time required 
for the next President to assemble his or her team, one could imagine 
it taking place in the summer or fall of 2009. We should use this delay 
to our advantage. It provides us with another 18 months to engage these 
countries, identify their weaknesses and maximize the incentives for 
them to address those weaknesses. In my view, the committee should ask 
for another progress report on these countries early on in the next 
administration before a final vote. Using this period in this manner 
can focus the attention of these countries and help ensure they will be 
effective allies. I would hope they would view this as an opportunity 
to strengthen their candidacies and erase any doubts about their 
qualifications. If they have done their homework and meet those 
standards, they have nothing to fear from such scrutiny.
    Second, we should also consider establishing clearer benchmarks for 
new members to continue to meet after they joined the alliance. We need 
to understand that these countries joining NATO does not actually mean 
they are ready to be full members. We are asking them to meet a set of 
very minimal standards--with the expectation that the lion's share of 
reform and work will still take place after they join. It is 
increasingly clear that many of these countries continue to need 
guidance and support--as well as political scrutiny--after they have 
become members. While the NATO system seeks to provide that guidance, 
it doesn't work as well as it should. I am sometimes asked whether 
there are new members I regret seeing join the alliance. I do not. But 
I do also regret not having pushed some countries harder. And I am 
disappointed at how reform has dissipated in some new members. I know 
from talking to ambassadors and senior officials in these countries 
fighting for reform that they, too, have often wished we had at times 
been tougher with them--precisely because the voice from Washington can 
be so critical.
    We should recognize this larger problem of the performance before 
it gets any worse. In part, it is the challenge of bringing in 
successive waves of new members who are weaker than their predecessors. 
But it is amplified by the disappointing performance of some new 
members from previous classes of enlargement. With the addition of 
these three new members in the Western Balkans, NATO will now have 30 
members, nearly half of whom have been members for a decade or less. 
All of these countries are still going through difficult reform 
processes. There is clearly one group of countries who aspire to be 
premier allies and who have become real contributors in a very short 
period of time. But there is a second group of allies who are not where 
we want them to be and who seem content to do as little as possible. 
This of course undermines the credibility of the whole enlargement 
process.
    Therefore, I would like to recommend that the committee call for a 
thorough assessment, of the political and military performance of the 
two enlargement classes of 1997 and 2002. Such an assessment should 
review the promises made by these countries as well as the testimony 
and estimates of our own Department of Defense--both the Office of the 
Secretary of Defense as well as the Joint Chiefs of Staff. We should 
compare those pledges and estimates with actual military capacities and 
performance. This would give us a clear baseline to determine the size 
of the gap between past pledges and actual subsequent contributions--
and how well or poorly these members are doing. It will also help us 
determine realistic benchmarks for these countries as well as potential 
new members going forward.
    The lessons from such an exercise should be incorporated into an 
amendment to this round of enlargement. Such an amendment could set 
clear benchmarks for these countries to fulfill after they join NATO. 
These benchmarks would augment the NATO system. Our goal would be to 
use the influence and expertise the United States enjoys to help ensure 
their reforms stay on track. We could set a time limit of, for example, 
5 years, with an option for a further extension. I believe such an 
amendment will help those leaders in the region who are serious about 
reform. We also need to consider what we do about the poor performance 
of some of our poor performers from the enlargement classes of 1997 and 
2002, as well as so-called older or traditional allies whose 
performance is also lacking.
    Mr. Chairman, I would be happy to work with the committee to 
develop such an amendment to ensure that enlargement can continue to be 
a success story. Taking such steps now can help ensure that down the 
road we have more effective allies who can perform in places like 
Afghanistan and whose forces can fight without national caveats. I 
would also urge the committee to stay fully engaged in and providing 
leadership on the issues of Ukraine and Georgia. If the Bucharest 
summit produces a weak outcome on these issues, it will be of critical 
importance that we find other ways for the U.S. and NATO to step up our 
engagement with them to provide the kind of political and strategic 
reassurance that can reduce their vulnerability and send the signal 
that we are serious about our efforts to anchor them to the West over 
time.

    The Chairman. Very good testimony.
    Doctor.

   STATEMENT OF DR. PHILIP H. GORDON, SENIOR FELLOW FOR U.S. 
     FOREIGN POLICY, BROOKINGS INSTITUTION, WASHINGTON, DC

    Dr. Gordon. Thank you, Mr. Chairman. It's an honor to be 
back here, and nice to see you all.
    I never thought I'd be at a hearing on NATO enlargement at 
which I was more forward-leaning than my friend Ron Asmus, but 
that's the position in which I find myself, and I'd like to 
suggest why, and then also share a few comments about 
Afghanistan.
    On enlargement, I think, anytime we talk about enlargement 
the discussion has to begin with the overall strategic argument 
that the process of enlargement, that began in the early 
nineties and that you all supported so strongly, has 
contributed to security and prosperity in Europe. The incentive 
has led these countries to reform their economies and their 
military structures and resolve territorial disputes and 
improve human rights. And, once in, they've contributed to 
missions in places like the Balkans, Afghanistan, and Iraq. 
And, in turn, I think, NATO membership has reassured many of 
their populations of the political and military solidarity of 
the United States and the European Union, and that enables them 
to focus on the well-being of their people. All of that is a 
good thing, and it's in that context that I think that NATO 
should extend invitations, at this summit, to Albania, Croatia, 
and the Republic of Macedonia.
    There is a debate, a legitimate debate, about how ready 
they are. I think at a certain point one has to decide that a 
line is crossed. You could--perhaps, in an ideal world--you 
would always have countries on the verge of getting into NATO, 
always with an incentive to do better. At some point, I think 
you have to say, 6, 8 years into a process, with significant 
progress made, that this is a credible process, and it actually 
does have an end point. I think it's time to do that with those 
three countries.
    On the question of MAP for Georgia and Ukraine, which I 
think is even more controversial, for reasons that have been 
spelled out: There's Russian opposition, there's even more 
questions about their readiness. Despite those concerns, I also 
think that NATO should respond positively to their requests to 
join the MAP, and I'll tell you why. We can get into it in more 
detail. But, for me, the bottom line is that those requests 
have come from democratically elected, reform-minded 
governments that have pledged, in this context, to seek 
consensus within their countries--which is not yet there--and 
to continue the reforms to meet NATO standards. And I don't see 
how we can or why we should say no to that. I think that 
tendency should be encouraged rather than discouraged.
    Again, we can elaborate on the reasons. But let me just 
address two of the main objections to the position that I have 
advocated here on MAP to Georgia and Ukraine.
    The first is that it's premature because it would be a 
signal of imminent membership, for which they're not ready. I 
think Ron has suggested this concern; it's a legitimate one. We 
should be honest, we shouldn't kid ourselves. If we give them a 
Membership Action Plan, they're going to see it as a ticket to 
membership, and the Russians will see it that way, and their 
people will see it that way. It's a legitimate concern.
    But, I think, as long as we are clear at the summit--and I 
would encourage summit leaders to be clear--that participation 
in this program, which is meant to facilitate their efforts to 
get ready for NATO, is not a guarantee of future membership. 
NATO, I think, is quite clear about that. And it is also clear 
that you only actually cross that final bar of membership when 
you've met all of the important standards on territorial 
disputes, human rights, and so on.
    So, I think that that very high bar should be in between 
the Membership Action Plan and actual membership, not in what I 
would consider to be an artificial place between an intensified 
dialogue for NATO and the MAP. That doesn't really make sense 
to me.
    The second objection that one hears in the context of MAP 
to Georgia and Ukraine is about Russian opposition. I think 
Russian concerns should obviously be taken into account in any 
discussion of European security, but I also think that Moscow 
can't have a veto over the choices of neighboring democratic 
governments. NATO enlargement is not, and has never been, a 
threat to Russia, which should understand, actually, that it 
can benefit from security and prosperity in these countries.
    Senator Lugar, you referenced President Putin's threat to 
target nuclear missiles at Ukraine, in the context of a NATO 
enlargement. I think that's simply unacceptable as part of 
European diplomacy in the 21st century, and perhaps more of a 
reason to extend NATO's links with Ukraine, rather than reject 
its hopes to get them.
    The last point on this is in terms of timing. Because this 
is such a controversial issue, there may be something to be 
said for getting it off the table now, at this summit, before 
there's a new Russian President, and at the end of our own 
President's tenure, and then, hopefully, the new administration 
can start to develop positive relations with Russia, which I 
think are critically important.
    Let me very briefly share just three points on Afghanistan, 
which, I think, is equally important and deserving of our 
attention. In my written testimony, I have provided detailed 
analysis of what the challenge is and what we should do about 
it, but here let me just underline three big themes.
    The first is that, despite all of the challenges and 
deficiencies and failures we've heard about, some here today, 
some which have been outlined in some recent reports that I 
know have been briefed to you--rising violence, weakening 
resolve, opium, divisions among allies--despite all of those, I 
think we shouldn't forget, in a NATO context, how extraordinary 
this mission is when you put it in perspective.
    Ten years ago, the idea that NATO would be running a major 
military operation halfway around the world was preposterous. 
Even 5 years ago, we all remember conversations with European 
allies about how this was beyond what NATO should even 
consider. And yet, today that theoretical debate is over. 
NATO's there. Every single member of the Alliance has forces 
there and is committed--42,000 troops, 28,000 of which are non-
Americans. We shouldn't lose sight of that. And, even in the 
context of questions about Europeans losing faith in the 
mission--which are legitimate; I share those concerns--it is, 
nonetheless, the case that there are 5,000 more non-American 
troops in Afghanistan this year than there were last year. So, 
as we focus on the problems, I think we shouldn't lose sight of 
that.
    Second, and related to that point, I do think NATO can 
succeed in Afghanistan, despite all of these problems. I reject 
the conclusion that Afghanistan is lost. It's not lost in the 
United States, where more than 65 percent of Americans believe 
that overthrowing the Taliban was the right thing to do, and 
believe that we should stay, and that has bipartisan support. 
It's not lost in Europe, where, despite public apprehensions, 
every single NATO government still supports the mission. And, 
more importantly, it's not lost in Afghanistan, where more than 
75 percent of Afghans say the overthrow of the Taliban was a 
good thing, and a majority still says they're grateful for the 
presence of foreign soldiers.
    Everyone on this committee knows how important succeeding 
in Afghanistan is. I think one of our most important challenges 
is making sure that the American public, and, even more 
importantly, European publics, understand what is at stake.
    And my final point--and, again, we can get into all sorts 
of details about troops, aid, strategies, drugs, Pakistan, and 
so on--
I think, in all of that, we need to remember the most important 
thing is the sustainability of this mission. Our wish list for 
Bucharest will, frankly, not be entirely fulfilled on all of 
these scores. It's easy to hope for a quick fix, it's easy to 
dream that the Europeans will lift all their caveats and send 
10,000 more troops. They won't. The author and British diplomat 
Rory Stewart, who now lives in Kabul, likes to say that if 
everything goes perfectly well in Afghanistan for the next 20 
years, it will attain a level of development around that of 
Pakistan. It's a mountainous, landlocked, arid, and very poor 
and divided country, and we shouldn't expect to transform it 
overnight, but we also shouldn't lose faith when our efforts 
run into inevitable setbacks, and we shouldn't conclude that 
they're too difficult or costly. We've already seen the costs 
of abandoning Afghanistan, and I think those costs vastly 
exceed those we are experiencing in what we're trying to do 
today.
    Thank you very much.
    [The prepared statement of Dr. Gordon follows:]

  Prepared Statement of Dr. Philip H. Gordon, Senior Fellow for U.S. 
       Foreign Policy, the Brookings Institution, Washington, DC

    Mr. Chairman and members of the committee, thank you for this 
opportunity to testify today on the critical issues facing NATO on the 
eve of the Bucharest summit in April. This will be the final NATO 
summit of the Bush administration. It comes at a time when there are 
serious questions about NATO's vital mission in Afghanistan, and 
serious internal debates within the alliance about what to do about 
enlargement. Leaders in Bucharest will also have to address a number of 
other important issues, including Europe-based missile defense, the 
NATO Response Force, Kosovo, European Defense, and the NATO budget. But 
here I want to focus on the two that I believe are most essential to 
U.S. national security interests and the future of the alliance: 
Afghanistan and enlargement.
    Mr. Chairman, I commend you, Senator Lugar, and the other members 
of the committee for the leadership you have shown on both of these 
critical issues and hope my comments can contribute to your ongoing 
work.

                     NATO'S MISSION IN AFGHANISTAN

    Several prominent reports on Afghanistan have been published in 
recent weeks. All underscored the serious and growing challenges to the 
NATO mission posed by rising violence, weakening international resolve, 
expanding opium production, divisions among allies, and daunting 
regional challenges. I will address these serious challenges, but 
before focusing on them and what NATO needs to do to meet them, I think 
it is worth putting NATO's Afghanistan mission into some perspective.
    Ten years ago, the idea that NATO would be running a major military 
operation half way around the world would have seemed preposterous. 
Even 5 years ago, just after the U.S.-led ouster of the Taliban, I can 
still remember officials in many allied countries questioning whether 
the alliance should take on such a challenging task so far beyond its 
original mission. Today that theoretical debate about missions is 
over--every one of NATO's 26 members not only supports but has forces 
in Afghanistan. NATO has 42,000 troops in-country, 28,000 of which are 
from countries other than the United States. NATO's mission began in 
2003 with the provision of a single headquarters in Kabul alone, when 
no single country was willing to take on that task and it has gradually 
expanded to the north, west, south, and east so that it now covers all 
of Afghanistan. Despite the perception that European allies are losing 
faith in the mission--indeed a serious concern--it is none the less the 
case that there are 5,000 more non-U.S. troops in Afghanistan this year 
than there were last year, and there are decent prospects that more 
European (likely French and British) troops will be pledged at the 
Bucharest summit and deployed later this spring.
    These facts in no way diminish the reality of the challenges NATO 
faces in Afghanistan today or the deficiencies in the alliance's 
efforts to meet them. But they do remind us that the slow and difficult 
process of transforming NATO from a Europe-only defense alliance into 
an effective peacekeeping and global counterterrorism alliance is not 
destined to fail. As we focus on the challenges and even failures of 
the NATO mission in Afghanistan we should not forget how much worse the 
situation would be were NATO not involved there at all and if the 
United States had to bear all the burdens there alone.
    That said, no one can deny that NATO is at a crossroads in 
Afghanistan. The challenges it faces in 2008--as serious as at any time 
since the mission was launched--include all the following:
    Rising Suicide and IED Attacks. Prior to the overthrow of the 
Taliban, and despite the horrific violence that country experienced for 
decades, suicide bombings were virtually unheard of in Afghanistan. 
Even after the NATO mission began, the practice did not begin until 
2005, when 17 suicide bombings took place. Since then, however, there 
have been 123 suicide bombings in 2006, 140 in 2007, and the number is 
rising further in 2008--a sign that the Taliban and al-Qaeda realize 
they cannot defeat NATO with conventional means and instead hope to 
undercut support for the mission in ways similar to those that were 
effective in Iraq. The use of improvised explosive devices (IEDs) has 
also proliferated over the past several years. In January 2008, the 
Taliban in Afghanistan crossed a new line with a suicide attack on the 
Serena hotel in Kabul, a luxury hotel frequented by Western diplomats 
and journalists, which killed eight people. Many fear that the Taliban 
have been regrouping and will continue to expand their attacks on 
Western forces and civilians as the weather improves this spring.
    Weakening Allied Resolve, and Growing Internal Divisions. Another 
threat to the NATO mission is the growing resentment over the vastly 
diverging military missions of different national forces. While all 
NATO members have soldiers in the country, national ``caveats'' place 
strict geographical or functional limitations on what those forces can 
do and where they can do it. Thus, whereas United States, British, 
Dutch, and Canadian forces often find themselves fighting and taking 
casualties in the more dangerous southern and eastern provinces, 
German, French, Italian, Spanish, and other troops are limited to 
relatively less dangerous duty in the north and west. Defense Secretary 
Gates provoked controversy in Europe recently when he made this point 
and appealed to allies to lift some of their caveats, but his central 
point cannot be denied: Allied forces are not bearing equal risks or 
burdens in Afghanistan. The inequality is exacerbated by NATO's 
budgetary rules according to which the costs of any deployment are 
borne by the deploying country. The result is that a Member State that 
agrees to deploy additional troops or airplanes not only bears 
disproportionate risk but also has to pay for the new deployment--a 
further disincentive to new and badly needed force contributions.
    It is important to understand why most NATO allies are so reluctant 
to send more forces to Afghanistan and so determined to limit the 
mandates of those that are there. For 50 years, with the exception of 
Britain and France, NATO militaries focused almost exclusively on a 
territorial defense role, leaving global missions to the United States 
and others. Their publics are not accustomed to coping with the 
challenges and costs of global security missions--causing and taking 
casualties. Some key European leaders are in fragile government 
coalitions, which constrains their ability to take controversial 
actions abroad. In addition, the unpopularity of the Bush 
administration and the psychological link in many European minds 
between the war in Afghanistan and the war in Iraq makes it difficult 
for European leaders to stand up in Parliament and make the case for 
supporting what is all too often (and wrongly) seen as an ``American'' 
war.
    Growing Opium Production. Opium production, a major source of 
funding for the Taliban and a cause of much of the corruption of the 
Afghan Government, has also risen in each of the past several years. 
Today some 193,000 hectares are devoted to poppy cultivation (up from 
165,000 in 2006), and Afghanistan is providing 90 percent of the 
illicit global opium trade. NATO officials on the ground in Afghanistan 
insist that counternarcotics is the responsibility of the Afghan 
Government and not Western soldiers. Regardless of whose formal 
responsibility it is, however, the reality is that Afghanistan will 
never have a stable, functioning government, and the Taliban will never 
be defeated, unless the profits stemming from drug production are 
significantly curbed.
    A Struggling Afghan Government. President Hamid Karzai, long seen 
as a model of the moderate, pro-Western yet authentic and legitimate 
leader needed in a place like Afghanistan, is increasingly unpopular 
after struggling to bring peace and prosperity to the country after 6 
years in power. Seeking to position himself in advance of likely 
Presidential elections in 2009, he has alienated some key ethnic 
constituencies by trying to consolidate his Pushtun base. The Afghan 
police forces are riddled with corruption and despite real gains in 
well-being since the Taliban were overthrown (in areas like health care 
and education), many Afghans are becoming disenchanted with the lack of 
security and pace of social progress. NATO officials have challenged 
Director of National Intelligence Mike McConnell's recent estimate that 
the Afghan Government only controls 30 percent of the country's 
territory, but what is certainly true is that Afghanistan's tribal, 
ethnic, and regional divisions make it difficult for the central 
government to extend its writ outside of Kabul. This makes Afghanistan 
even more susceptible to regional leaders willing and able to cut 
separate deals with warlords, drug barons, or the Taliban.
    Instability in Pakistan. NATO of course has no role in Pakistan, 
but those responsible for the NATO mission must understand that no 
strategy for Afghanistan can succeed without a Pakistan strategy to 
accompany it. Pakistan, after all, is where Osama bin Laden, Ayman al-
Zawahiri, and other al-Qaeda leaders are likely hiding, where the 
Taliban and other insurgents receive financing, training, and 
sanctuary, and where the majority of Pushtuns--the ethnic group from 
which the Taliban draws its recruits--live. Frankly, even if 
Afghanistan could somehow magically be ``solved'' (which of course it 
cannot), the United States and its allies would still face a major 
terrorism challenge from the extremists based on the eastern side of 
the border. And Afghanistan certainly cannot be solved so long as 
Taliban and other insurgents can operate with impunity in the 
ungoverned Pakistani tribal areas, sadly the case today.
    Despite these challenges and problems, and contrary to the 
impression given by much recent press reporting, Afghanistan is not 
``lost,'' and the NATO mission there has not ``failed.'' It is not lost 
in the United States, where more than 65 percent of Americans believe 
that overthrowing the Taliban was the right thing to do, more than 60 
percent believe we should keep our forces there, and leaders from 
across the political spectrum still see the mission as legitimate and 
necessary. It is not lost in Europe, where despite public apprehensions 
every single NATO government still supports the mission and is still 
contributing forces to it. And most importantly it is not lost in 
Afghanistan, where more than 75 percent of Afghans still say that the 
overthrow of the Taliban was a good thing and a majority says they are 
grateful for the presence of foreign soldiers--even if they are 
increasingly critical of the lack of a coherent international strategy 
for the country. Even amidst rising violence, the Afghan economy is 
growing and many Afghans remain hopeful. Succeeding in Afghanistan is 
not only essential to prevent it from again becoming the sort of failed 
state in which al-Qaeda could thrive, but it is possible if the United 
States and its allies accept what is at stake and step up to the 
challenge. I believe NATO needs to do all of following to increase the 
prospects for success of the NATO mission:
    Deploy Additional Troops. NATO needs at least 5,000-10,000 
additional troops in Afghanistan, to provide adequate security for the 
population and to avoid relying so extensively on airpower, which 
causes the civilian casualties that put the entire mission at stake. If 
NATO had as many troops per capita in Afghanistan today as it did in 
Bosnia in 1995, it would have some 400,000 (instead of 42,000). Even 
the current NATO mission in Kosovo today (17,000) would be over 270,000 
if scaled to the size of Afghanistan. The point is not that such troop 
levels are realistic for Afghanistan or even necessary, but simply to 
put in perspective the relative commitment we have made to Afghanistan 
given the importance of the mission. The new U.S. contribution of 3,200 
marines should give the United States the legitimacy to call on its 
European allies to make at least an equivalent new contribution and 
President Bush should challenge them to do so at the Bucharest summit. 
Collectively, the European NATO allies have several hundred thousand 
troops in their standing armed forces only a small percentage of which 
are deployed abroad, and they should be reminded not only that 
deploying them in Afghanistan is a common interest but that the 
American public's support for NATO is in many ways a function of 
European allies' willingness to bear a fair share of that burden.
    Provide Increased and More Sustained Development Assistance. 
Improving the security and daily lives of the Afghan people is critical 
to defeating the Taliban--as former U.S. Commander General Karl 
Eikenberry used to say, ``The Taliban begin where the roads end.'' Yet 
we have not been building enough roads. Again to make the Balkan 
comparison, U.S. and European financial assistance to Afghanistan has 
over the past 6 years been less than one-tenth the level of funding 
provided to Bosnia and Kosovo. Ensuring stability in the Balkans is 
clearly in the United States and European national interest, but 
meeting the same goals in Afghanistan is arguably just as important. 
President Bush's February 2007 request for $11.8bn over 2 years was a 
belated but welcome step in right direction. It must be funded and 
sustained by Congress and matched by NATO allies.
    Focus on Training and Resources for the Afghan National Army and 
Police. For many poor Afghans, the choice between supporting the Afghan 
Government and joining the Taliban has nothing to do with ideology, but 
is simply a matter of who will better help make ends meet. None the 
less, many Afghan soldiers are still paid only around $100 per month, 
while admittedly imprecise reporting suggests that the Taliban pays 
many of its fighters around $300 per month. (This can be compared with 
costs for each NATO soldier in Afghanistan of around $4,000 per month.) 
At these rates, the monthly pay for all 57,000 members of the ANA could 
be doubled for $5.7 million--roughly the cost of six of the Tomahawk 
cruise missiles we used to overthrow the Taliban in 2001. Tripling 
their pay would come to some $137 million per year, a fraction of the 
$1.5 billion annual NATO budget for Afghan operations or the more than 
$15 billion in financial assistance we have provided since 2002. 
Strengthening the ANA is essential not only to build its capacity to 
fight alongside NATO, but to help NATO put an Afghan face on military 
operations, which is critical to their success.
    Improving the effectiveness of the Afghan police forces will 
require more than just resources; it will also require a significant 
mentoring and monitoring effort. The Afghan police has reportedly 
reached 90 percent of its projected end strength of 82,000, but it is 
riddled with corruption and not trusted by the Afghan population. 
Police reform will have to be accompanied by greater efforts to 
establish the rule of law, including through greater training for 
Afghan judges and lawyers.
    Crack Down on Drug Labs and Corrupt Officials. There is no easy 
solution to Afghanistan's drug problem, but NATO cannot ignore it 
either. Large-scale spraying and eradication efforts are 
counterproductive, because they tend to turn poor poppy farmers--who 
polls suggest would prefer to grow licit crops but simply cannot afford 
to--against NATO and the United States. Rather, NATO should focus its 
efforts on helping the Afghan Government identify and punish corrupt 
officials who facilitate and benefit from the drug trade. This will 
require greater coordination between the international community's 
counterinsurgency efforts and its counternarcotics efforts, which at 
present are disjointed. And while avoiding attacks on farmers, NATO 
forces should not hesitate to conduct operations against the labs that 
turn poppies into opium and the trade routes that carry opium to 
foreign markets, all of which generate profits that are used by the 
Taliban.
    Adapt Our Strategy in Pakistan. The outcome of the recent election 
in Pakistan--where both President Musharraf's party and the religious 
parties suffered major setbacks--provides an opportunity to develop a 
new relationship with Pakistan that will serve our mutual interest. I 
applaud Senator Biden's proposals to triple our nonmilitary assistance 
to Pakistan and to sustain it for a decade and to provide a $1 billion 
``democracy dividend'' to the new Pakistani Government if it is formed 
and governs democratically. I spent a week in Pakistan last May and am 
going back there next week. My sense is that the Pakistani public is 
getting fed up with the growing al-Qaeda attacks against them and they 
will support efforts to fight
al-Qaeda if we can demonstrate that we are prepared to help them do so. 
Pakistanis have long tended to view Americans as ``fair weather 
friends'' and have resented seeing too much of our assistance end up in 
the hands of the Pakistani military (who use it to buy high-tech 
weaponry) rather than be put to use for schools and hospitals and jobs. 
Standing with the Pakistani people will make our counterterrorism 
cooperation more palatable to the public and the government, and in the 
long run providing jobs and economic development in the tribal areas 
will make it easier to isolate and root out al-Qaeda.
    A Public Relations Campaign in Europe. The weakening of European 
resolve in Afghanistan stems less from a lack of official good will 
than from the fact that European publics doubt that NATO's mission can 
succeed and fail to see the mission's direct relevance to them. To 
combat this perception, the United States and its NATO allies should 
sponsor a public relations campaign to draw attention to the good NATO 
is doing in the country and the consequences of abandoning Afghanistan 
to its fate. Europeans need to be reminded that our adversaries in 
Afghanistan are the same ones not only who attacked the United States 
in 2001 but who killed 193 people on Spanish trains in Madrid in April 
2004 and 54 London commuters in July 2005. U.S. and NATO governments 
should sponsor nonofficial speakers--from the United States, Europe, 
and Afghanistan--to talk to publics and the media about the situation 
in Afghanistan and the stakes. Europeans are often quick to dismiss the 
Afghan mission as an unnecessary part of President Bush's ``war on 
terror,'' but I believe they can be persuaded that the mission is 
actually in Europe's own strategic and humanitarian interest.
    Better International Coordination. As in many international nation-
building efforts, our efforts to stabilize Afghanistan suffer from the 
lack of coordination among various international agencies. 
Unfortunately, the recent proposal to send Lord Ashdown as a strong 
U.N. Special Representative tasked with eliminating redundancies and 
maximizing international assistance was vetoed by the Karzai 
government. The new U.N. Special Representative, Norwegian diplomat Kai 
Eide, will need strong backing from the United States and other NATO 
members if he is to succeed in his mission to better coordinate what is 
a currently disparate and disjointed international effort.
    I realize that even with the best of intentions, not all of these 
recommendations can or will be implemented immediately. The United 
States and other NATO Member States have many competing priorities, and 
resources--both military and financial--are tight. The key to success, 
I believe, is to understand what is at stake and to do a better job of 
explaining those stakes to our own public and our NATO partners. While 
it would be nice to achieve all of these goals in the short term, what 
is truly essential is to commit to Afghanistan for the long-term, and 
to put our mission on a sustainable basis. The author and former 
British diplomat Rory Stewart--who now lives in Kabul--likes to say 
that if everything goes almost perfectly well in Afghanistan for the 
next 20 years, it will attain a level of development no higher than 
that of Pakistan. Afghanistan is a poor, arid, mountainous, and 
ethnically divided country that is emerging from 30 years of civil war 
and mismanagement. We should not expect to transform it overnight or 
lose faith when our efforts to help it run into inevitable setbacks. 
Nor, however, must we conclude that those efforts are simply too 
difficult or costly. We have already experienced the costs of 
abandoning Afghanistan, which exceed those required to satisfy its 
basic interests and keeping it from threatening ours.

                              ENLARGEMENT

    NATO's second major challenge at the summit is enlargement. At 
Bucharest, leaders must address two enlargement-related issues, a 
decision on current candidates (Albania, Croatia, and the Republic of 
Macedonia) and responses to requests to join the Membership Action Plan 
(MAP) by Georgia and Ukraine.
    I believe that the process of NATO enlargement, begun in the early 
1990s, has contributed to security and prosperity in Europe. The 
incentive of NATO membership has led aspiring countries to reform their 
political systems, liberalize their economies, root out corruption, 
resolve territorial disputes with neighbors, rationalize their military 
establishments, and improve minority rights. Once in the alliance new 
members have contributed troops for vital NATO missions in the Balkans 
and in Afghanistan and many sent forces to join the U.S.-led coalition 
in Iraq. In turn, NATO membership has reassured their populations of 
political and military solidarity with the United States and members of 
the European Union, enabling them to focus on improving the well-being 
of their citizens rather than worrying about the types of military 
threats they had lived with for centuries.
    In this context, I support the entry into NATO of the current 
candidates, Albania, Croatia, and the Republic of Macedonia. Each has 
been part of NATO's MAP process for 6 or more years and has made 
significant progress in reforming their political systems, economies, 
and military establishments. All have contributed troops to the NATO 
mission in Afghanistan and made progress toward other goals like 
civilian control of the military and respect for minority rights. None 
is yet a model democracy--but all are moving in the right direction and 
have made at least as much progress as those that have preceded them in 
the accession process. In the wake of the turbulence surrounding 
Kosovo's declaration of independence, I believe that the extension of 
NATO membership to these neighboring countries will contribute to 
security in the Balkans and underscore NATO's commitment to it. Their 
accession after years of preparation will also demonstrate the 
sincerity of NATO's pledge that membership genuinely is open to those 
European democracies that meet its stringent criteria.
    The question of MAP accession for Georgia and Ukraine is perhaps 
even more controversial. Russia is strongly opposed to their 
participation in the program, and both countries have in recent years 
experienced the sort of political instability that suggests more 
progress must be made before membership should be considered. Despite 
these concerns, I believe NATO should respond positively to their 
requests to join the MAP. Those requests came to NATO from 
democratically elected governments which have pledged to seek to build 
consensus about NATO within their countries and to continue to work to 
meet NATO's rigorous standards. So long as NATO makes clear that a MAP 
is not a guarantee of future membership, which can only be granted when 
an aspirant meets all of NATO's criteria and a consensus exists among 
NATO members, there is no basis for rejecting their requests to 
participate in this program. The MAP is a logical extension of the 
Intensified Dialogues in which they already take part. Their reformist 
governments' desire to come closer to the West should be encouraged, 
not discouraged.
    Despite its recent political problems, including the Saakashvili 
government's excessive use of force in response to street protests in 
November 2007, Georgia has made significant political progress since 
the ``Rose Revolution'' of November 2003. The elections that followed 
the November 2007 turbulence were seen to be free and fair, and were 
won easily by Saakashvili, who got 53 percent of the vote compared to 
26 percent for his rival. In a referendum accompanying the Presidential 
vote, 73 percent of Georgians came out in support of eventual NATO 
membership. The World Bank has recently given Georgia good marks on 
economic reform and anticorruption efforts, even if the November 2007 
protests were a warning shot that much of the population remains 
dissatisfied with perceived authoritarianism. A positive signal about 
the prospect of eventual NATO membership sent by MAP participation will 
help encourage positive political trends. It will also encourage 
Georgia to seek to resolve the ``frozen conflicts'' in Abkhazia and 
South Ossetia that continue to plague its efforts to achieve national 
unity--a Georgia with realistic aspirations to join NATO is more likely 
to work energetically to resolve these conflicts than a Georgia with no 
hope of joining the alliance. Georgia has a long way to go--both in 
meeting NATO's democratic standards and in terms of resolving its 
internal conflicts--before it can seriously be seen as a near-term 
candidate for NATO membership. The question now is how best to keep it 
moving in the right direction.
    Ukraine has also made significant political progress since its 2004 
``Orange Revolution.'' Its parliamentary elections in March 2006 were 
judged to meet international standards and took place after free debate 
and without incident. While even eventual NATO membership is far from a 
matter of consensus among Ukrainians--indeed most are currently opposed 
to it--President Yushchenko and Prime Minister Tymoshenko have 
encouragingly pledged to work to foster national unity and to consult 
the Ukrainian people in a referendum prior to any move toward 
membership. The Ukrainian opposition itself once favored NATO 
membership and even sought to participate in the MAP but it now opposes 
NATO for apparent partisan political reasons. I believe that agreeing 
to allow Ukraine to participate in the MAP program at the Bucharest 
summit would encourage it to continue to move in the direction of 
democratic and peaceful reform.
    Some would argue that giving a MAP to Georgia and Ukraine is 
premature because it would be a signal of imminent membership, for 
which they are not ready. But NATO's own literature on the MAP states 
that ``participation in the MAP does not guarantee future membership . 
. . Decisions to invite aspirants to start accession talks will be 
taken within NATO by consensus and on a case-by-case basis.'' NATO also 
emphasizes that ``aspirant countries are expected to achieve certain 
goals . . . [including] settling any international, ethnic or external 
territorial disputes by peaceful means; demonstrating a commitment to 
the rule of law and human rights; establishing democratic control of 
their armed forces; and promoting stability and well-being through 
economic liberty, social justice and environmental responsibility.'' 
These statements make clear that the real bar to NATO membership is and 
should be between the MAP and membership, not between the Intensified 
Dialogue and the MAP. NATO leaders should reiterate this point at the 
summit.
    Others will argue that MAP for Georgia should be opposed because it 
is opposed by Russia. However, while Russian concerns should obviously 
be taken into account in any discussions of European security, Moscow 
cannot have a veto on the choices of neighboring democratic 
governments. NATO enlargement is not and has never been a threat to 
Russia, which should understand that it can benefit from democracy, 
stability, and prosperity in Eastern Europe and the Caucasus. President 
Putin's threat to target Ukraine with nuclear missiles if it seeks to 
join NATO has no place in 21st century diplomatic relations and should 
be taken more as a reason to increase Ukraine's ties to NATO than to 
cut them off. Russia's opposition, then, is perhaps a further reason to 
act on MAP for Georgia and Ukraine at Bucharest rather than waiting. 
With a new Russian President taking office in May and a new U.S. 
administration to take office in January 2009, it makes sense to get 
this controversial issue off the table now rather than to have to 
confront another MAP decision at NATO's planned 60th anniversary summit 
in spring 2009. That way the new U.S. administration could seek to make 
a fresh start in rebuilding relations with Russia, which should be one 
of its early priorities.
    Mr. Chairman, I believe the Bucharest summit provides an important 
opportunity to advance U.S. interests by bolstering NATO's mission in 
Afghanistan and moving forward on enlargement. I commend your own 
leadership in both of these areas and thank the committee for inviting 
me to testify before you.

    The Chairman. That would be a staggering transformation, to 
get to Pakistan.
    Mr. Jackson.

STATEMENT OF BRUCE JACKSON, PRESIDENT, PROJECT ON TRANSITIONAL 
                  DEMOCRACIES, WASHINGTON, DC

    Mr. Jackson. Thank you, Mr. Chairman. Let me try to be 
equally succinct.
    With regard to enlargement, let me put this in historical 
perspective. This is not the third enlargement. There have 
actually been five enlargements, up to this point. Your 
committee will be considering the sixth. Certainly, the three 
countries that may be in the sixth enlargement are more 
qualified than Greece and Turkey were, originally; have larger 
armies than Germany did in the fifties; and had more social 
work done on their behalf than Spain did after Franco. So, 
these countries are in a very strong position. I can discuss 
their qualities.
    It's also important to remember that this is the smallest 
expansion this committee has ever been asked to consider. The 
total populations of these three countries are less than the 
Czech Republic, and they have been in a Membership Action Plan 
for 9 years. Instead of--in 1997, in the Visegrad expansion, 
the State Department looked at the credentials. One single 
country out of 26--at that time, 16--looked at these countries 
for a couple of years. Instead, now all 26 countries looked at 
them for 9 consecutive years--all 26 of them--and with much 
smaller countries. So, the scrutiny has been microscopic. And I 
think this committee really should get the annual reports on 
these countries, going back over the 9 years.
    Just to put this in proportion, Macedonia is only 16 years 
old. It has spent 60 percent of its entire nation's history 
trying to be qualified for a Membership Action Plan. This is 
extraordinary, what they've done.
    If we look at, basically, objective criteria--let's take, 
say, markets, because the--they say all of the information is 
the price. The real estate values around Dubrovnik went from 
$20,000 per an apartment, to over $2 million, in this last 10 
years. The market is trying to tell us something. These 
countries are now, in development terms, on par with Slovenia, 
which is already in. And we're seeing this kind of convergence. 
Already, they're delivering security goods. There is no longer 
traffic in cigarettes running out of Albania across the 
Adriatic; as it was, earlier on. The sexual trafficking 
throughout has been arrested. And, frankly, they have done so 
well that Albanian troops, on one occasion, were basically 
protecting the perimeter of our forces in Baghdad. They had the 
outside mission. So, they're contributing. And that was years 
ago that they were doing it. On a per-capita basis, these 
countries are, as you just heard, contributing to a larger 
extent than some of our allies.
    So, in terms of qualifications--and if we look at 
Macedonia, this country, which is barely an infant, in European 
terms, has implemented the Ohrid Framework Agreements, has 
basically--is reconciling its remaining bilateral issue, and 
has built a multiethnic society. This is nothing short of 
extraordinary. It seems to me that, in the objective criteria, 
these countries--as, I think the chairman and Senator Lugar 
have said--have performed the objective criteria.
    I do think there's a danger, in my good friend Ron's 
remarks, that this process becomes essentially a social-work 
process, and we begin to regard NATO as, sort of, an engineer 
of European souls. I think that's a mistake. I think, you said 
in your opening statement, sir, that, basically, the Americans 
played a supporting role. The transformation of Europe is 
really a European responsibility. NATO can only support them.
    As we turn to Ukraine and Georgia, it seems to me the 
greater danger of the Membership Action Plan is that they're 
overqualified. They've been left so long in the waiting room of 
Europe that they've completed the IPAP, they completed an 
intensified dialogue, and most military experts will tell you 
they've done most of the military reform and the 
interoperability reforms normally required of the countries 
which came through in the last round. Georgia, just to name 
one, has a rotating battalion system that goes into Iraq, and 
they're moving from three battalions to four battalions; and 
basically, they always have a battalion rotating into Iraq. 
That looks like interoperability to me. Also, when you look at 
airlift and the stuff the Ukrainians can contribute, they do 
contribute. We stack it up, hour for hour, we'll find that they 
contribute more than half of our European allies. So, they are 
delivering.
    It seems to me what is being asked of us is, At what point 
do we have a dialogue with a country like that, where we're 
trying to discovery its way? I don't think it's correct to say 
that Ukraine has basically asked for NATO membership. In fact, 
they've said that they need to have a referendum--a future 
referendum about it. They've asked for a dialogue.
    And I'm sorry Senator Dodd has left, because I thought his 
question about EU and NATO was really kind of profound in this 
context. It's precisely--if you look back, the first piece, 
after 1949, was built largely by the wartime alliance. The 
second piece, after 1989, was built as Americans and members in 
this committee supporting the heroes at Lech Walesa, Vaclav 
Havel. It was a cooperative piece with democracy in central and 
eastern Europe.
    The third piece that you're now considering is basically a 
partnership that was forged in the Balkans, between the EU and 
NATO, that they had certain commitments. At the Thessaloniki 
summit, the EU said that they would have membership for all the 
Balkan countries. In those terms, it looks like NATO has fallen 
behind. Croatia is now on the cusp of a membership decision, 
and we're still making a membership decision. Commissioner Rehn 
is opening SAAs, perhaps with Serbia, with Macedonia, but NATO 
still doesn't know their membership status. It seems to me NATO 
needs to keep up with our European allies as they take over for 
us in Kosovo and they take security cognizance for southeast 
Europe.
    Already, the European Union is ahead of us in eastern 
Europe, they have opened action plans with Ukraine and Georgia 
under the neighborhood policy. We have not. And we're starting 
to lose the complementarity with our partners on the other side 
of the Atlantic. If we want to solve Senator Dodd's question, 
we have to make decisions at Bucharest to keep the parallelism 
between these two great organizations, the security 
organization that this country has a defining role in, and the 
European political experiment that is actually beginning to 
build things in Brussels.
    Finally, I would just express some reservations about the 
suggestion that the Senate would ever consider conditions, 
beyond, obviously, the powers that this company already has not 
to send things to the floor until they're ready, and to require 
the information to make an informed decision. But, having 
pressured the Europeans not to impose national caveats or any 
limitations on the soul of the Washington Treaty, it would be 
impossible if we did the same kind of thing, and avoid any 
suggestion that, ``If you have a bad election, we may not honor 
our commitments.'' We did suffer through a period with Greece, 
in the sixties; with Portugal, in the seventies; occasionally, 
dare I say, with Turkey, on human rights, even today. These 
are--these may be handled by European courts, by foreign 
policy. We can handle those ruptures in our relations. But, we 
cannot place limitations which weaken the foundation that sits 
under the Transatlantic Alliance.
    So, why don't I just stop there.
    [The prepared statement of Mr. Jackson follows:]

  Prepared Statement of Bruce Pitcairn Jackson, President, Project on 
                Transitional Democracies, Washington, DC

    Mr. Chairman, members of the committee, thank you for the 
opportunity to testify before you on ``NATO: Enlargement and 
Effectiveness'' as we approach the NATO Summit in Bucharest, which is 
now less than 3 weeks away. The NATO allies face a range of decisions 
at Bucharest including missile defense and operations in Afghanistan, 
as well as the very important question of NATO expansion and the 
preparation for membership of potential candidates. I would like to 
offer some context for this complex expansion question confronting NATO 
heads of state, which, if it goes forward, requires the advice of this 
committee and consent of the entire Senate. I believe that the choices 
for the United States appear in sharper relief once we understand the 
role NATO expansion has played in the development of modern Europe so 
far.
    For centuries, the Balkans and Europe's East have deserved their 
reputations for igniting wider European wars and have given to European 
history the place-names of genocide and mass starvation. In 1949, the 
creation of NATO secured the post-World-War-II peace in Western Europe. 
Since the end of the cold war, the alliance has played a 
transformational role in building a second peace--this time in Central 
and Eastern Europe.
    Now NATO has an opportunity to lay the foundation for a third 
European peace--this time in the Balkans--and to open a dialogue that 
could lead to a fourth: A more constructive relationship between Europe 
and Russia.
    The transatlantic allies will face two critical questions when they 
gather for their summit in Bucharest in April. The first is whether to 
invite Albania, Croatia, and Macedonia to join NATO, a decision that is 
the culmination of a 15-year effort to end the wars that followed the 
breakup of Yugoslavia. The second is what relationship Ukraine and 
Georgia will have with NATO in the turbulent early years of their 
development: Will they be set on a course that could lead to eventual 
NATO membership, or will they be excluded?
    Regarding the Balkans, critics say that Albania, Croatia, and 
Macedonia are not ready for NATO membership. Farther east, they worry 
about the fragility of democratic institutions in Georgia and Ukraine, 
and they have concerns about the effect that NATO's engagement with 
those countries would have on relations with Russia and on European 
publics skittish about further enlargement of the European Union.
    These larger questions give rise to a series of interrelated 
questions which will shape the decisions of the 26 NATO leaders at the 
Bucharest summit on April 2-4, 2008.
          (1) How have the two recent expansions of the alliance--in 
        1999 to include Poland, the Czech Republic, and Hungary, and in 
        2004 to include Lithuania, Latvia, Estonia, Slovakia, Slovenia, 
        Romania, and Bulgaria--affected U.S. and European security and 
        the integrity and capability of NATO? What does this experience 
        tell us about the prospect of further enlargement?
          (2) What are the qualifications of Albania, Croatia, and 
        Macedonia, as measured against NATO standards and relative to 
        previous candidates at the point of entering the alliance?
          (3) Actually, what criteria does NATO use in making these 
        important decisions? Are we moving the bar upward or downward?
          (4) What is the status of the Western Balkans as a whole and 
        how will the entry of three new NATO members affect the 
        stability of Southeast Europe and the security of Europe more 
        generally?
          (5) Assuming that the alliance takes a major step forward in 
        the Western Balkans, what is being done for the democracies of 
        Europe's East, such as Ukraine and Georgia, which will not be 
        considered for membership at Bucharest? Are they being left 
        behind?
          (6) What about Russia? How will the third expansion of NATO 
        since 1989 and our engagement with Ukraine and Georgia affect 
        Russia's perceptions of the West and its relations with our 
        European allies?
          (7) Finally, what are the implications of the Bucharest 
        summit for the foundation of the Atlantic alliance, for how the 
        United States and Europe share burdens, and for our 
        effectiveness working together in global politics?
    Although these questions are demanding, we have accumulated a great 
deal of experience since the fall of the Berlin Wall in the development 
and integration of newly freed European states. There is extensive 
empirical evidence informing us of how NATO expansion has helped build 
the Europe we see today on which we can base an assessment of the role 
further expansion will play in Europe's future.

                      BACKGROUND ON NATO EXPANSION

    The post-cold-war expansions of NATO to the Visegrad countries 
(named for a 1991 summit in Visegrad, Hungary) of Poland, the Czech 
Republic, and Hungary and then to the larger and more diverse Vilnius 
Group (named for a 2000 summit in Vilnius, Lithuania) were actually 
very different in terms of the process as it unfolded and its 
significance for Europe. In terms of process, particularly in the 
United States, an organized examination of the democratic credentials 
and institutions of the Visegrad countries took a back seat to issues 
the Senate (and this committee in particular) might focus on in the 
course of a ratification debate. The substantive debate turned on how 
expansion would affect relations with Russia and whether the United 
States needed to remain in Europe at all. Especially telling was the 
moral import of the struggle for freedom in the Visegrad states: The 
Hungarian uprising of 1956, the 1968 Prague spring, the birth of 
Solidarity in 1980--and the brutal Communist suppression of each.
    Poland, the Czech Republic, and Hungary were invited to join NATO 
in the first post-cold-war expansion because of the historical and 
moral claim they had to return to the community of European states from 
which they had been separated by 20th century totalitarianism. In 
addition to the moral claim, the Visegrad accession was the last step 
in ending the danger of war on the historically bloody north German 
plain, which stretches from Moscow through Poland and Germany into 
northern France. More than 10 years after this decision was taken in 
July 1997 at the Madrid summit, the NATO allies have every reason to be 
proud of their decision.
    The second phase of expansion began at NATO's 50th anniversary 
Washington summit in April 1999, when the so-called Membership Action 
Plan (MAP) process was established for new aspirants in Central and 
Eastern Europe and the Balkans. The list of such aspirants soon grew to 
include Latvia, Estonia, Lithuania, Slovakia, Slovenia, Romania, 
Bulgaria, Albania, Croatia, and Macedonia. The MAP process was a 
response to unwillingness of the NATO allies to go forward with 
invitations to Slovenia and Romania at the Madrid summit in July 1997. 
While many observers thought these rejections were unfair, NATO leaders 
believed that inadequate reform and weak democratic institutions, 
particularly in Romania, made the prospect of NATO accession premature 
for these countries. They reasoned that the next generation of NATO 
candidates would need a self-improvement course before invitations 
could be extended.
    With this decision, NATO formally entered the business of democracy 
support. There were several immediate consequences of the creation of a 
class of candidate countries in the process of trying to qualify for 
membership. The class of countries granted a potential avenue toward 
membership through MAP but no specific date for invitation could be 
quite large. The process made it possible to sever the question of 
whether one was legitimately an aspirant for membership from the 
question of whether a country would actually be invited to join. Ten 
candidates came in virtually overnight, some with very weak credentials 
and a limited history as democracies. In addition, through MAP, the 
class of candidates could be diverse both historically and 
geographically, since the Vilnius Group was not claiming a single, 
overarching strategic rationale.
    In essence, the Vilnius Group claimed to represent a social and 
political restoration of democracy in Central and Eastern Europe that 
would render ``whole'' a Europe divided in the 20th century. The 
unifying character of the second expansion can be seen in the frequent 
references to the concept of ``a Europe that is whole, free, and at 
peace,'' as President George W. Bush put it in his speech at Warsaw 
University in 2001, in which he maintained that Europe must extend 
``from the Baltic to the Black Sea'' to achieve this objective. The 
Vilnius Group did precisely that, and seven countries from the group, a 
self-help political club formed during a conference in Lithuania in May 
2000, were invited to join NATO at the Prague summit in June 2002. 
Although both the process of qualification and the significance for 
Europe were different from the Visegrad round, the result has clearly 
strengthened the NATO alliance and Europe itself.

           QUALIFICATIONS OF ALBANIA, CROATIA, AND MACEDONIA

    In terms of enlargement, the first question facing the NATO allies 
as they gear up for the Bucharest summit is whether 9 years into the 
Membership Action Plan, Albania, Croatia, and Macedonia are qualified 
to enter NATO. Critics say that they are not. But the fact is that 
Albania, Croatia, and Macedonia have spent 6 more years in rigorous 
preparation for NATO membership than the seven other original members 
of the Vilnius Group, and it shows.
    Today, Croatia has the most impressive all round economic 
performance of any country in southern Europe. In recent years, Albania 
has contributed more soldiers to missions in Iraq, Afghanistan, and 
international peacekeeping than most NATO allies. And, since the end of 
the Balkan wars in 1999, Macedonia has arguably covered more ground in 
building an integrated, multiethnic society in a short time than any 
other European nation. We now have a chance to bring Catholic Croatia, 
secular-Islamic Albania, and multiethnic Orthodox Macedonia into the 
Euro-Atlantic community of democracies. If it remains the case that 
qualification for NATO is predominantly determined by the ``social 
criteria'' of democratic reform as well as military contributions to 
international peacekeeping, then the three so-called ``Adriatic 
Charter'' countries in the Western Balkans are fully qualified.
    But since NATO has changed or adjusted its criteria for membership 
and its rationale for expansion in the recent past, perhaps a third 
expansion might be driven by different criteria and have unique 
characteristics.
    In addition to democratic criteria, the NATO allies seem to view 
Albania, Croatia, and Macedonia strategically in terms of Southeast 
Europe, politically in terms of European integration, and 
geopolitically in terms of the partnership in the Balkans between the 
European Union and NATO.
    Strategically, invitations to Albania, Croatia, and Macedonia bring 
the NATO security architecture inside the Western Balkans, which 
remains the last unstable region in Central and Eastern Europe. The 
Balkan candidates claim to be instituting a system of shared security 
that will contribute to reducing the political instability of the 
Western Balkans and thereby strengthening Southeast Europe, in both 
political and economic terms.
    The strategic claim is closely linked with the political 
understanding of the question. NATO's early extension of a membership 
perspective to Albania, Croatia, and Macedonia and its tenacity in 
preparing the Adriatic Charter candidates for membership clearly 
reflects a political understanding of what the European Union decided 
at the EU summit in Thessaloniki. In the communique from Thessaloniki, 
the European Union ``guaranteed'' all the countries of the Western 
Balkans eventual membership in all of Europe's institutions. If it is 
the intention of the European Union to bring the Western Balkans into 
the political and market institutions of Europe, then it is only common 
sense for NATO to help strengthen these candidates where it can and to 
ensure that a security structure will be in place so that EU 
integration goes forward when its leaders see fit. Since Croatia is 
already closing in on the final chapters of EU candidacy, NATO 
invitations are, if anything, somewhat behind schedule.
    The complementarity of European Union and NATO objectives is even 
more pronounced if we look at the qualifications of the candidates in 
geopolitical terms. Since 1994, the Western Balkans, more than any 
other place in the world, has taught NATO and the European Union as 
well as the United States and Europe how to work effectively together 
across the entire spectrum of human rights, intervention, peacekeeping, 
reconstruction, capacity-building, and integration missions--to name 
but a few of the tasks that have been undertaken in this defining 
collaboration to rescue and rebuild the former Yugoslavia.
    What NATO and the European Union achieve or fail to achieve in the 
Western Balkans may well define what we will undertake, or fail to 
address, in the future throughout the Euro-Atlantic. In this analysis, 
the NATO allies face an obligation to take any and all steps to ensure 
that the Western Balkans has the highest probability of success. The 
issuing of invitations to three qualified candidates is one of those 
steps, but the alliance should not stop there. Bosnia, Montenegro, and 
Serbia need the so-called ``Intensified Dialogue'' with NATO on 
membership issues. This is the preliminary dialogue anticipating formal 
adoption of a Membership Action Plan setting forth a path to membership 
invitation.
    Viewed from the perspective of objective democratic, strategic, 
political, and geopolitical criteria--and viewed comparatively in 
relation to accessions in the two previous rounds of expansion--the 
candidates for invitation at the Bucharest summit have an overwhelming 
case in their favor. Moreover, a failure to decide exposes the alliance 
to significant risks and negative effects. Any further delay on the 
candidacies of Albania, Croatia, and Macedonia would diminish regional 
stability just as Kosovo begins its extended period of supervised 
independence. Delay would also confuse and undercut the European Union 
as it takes over chief security responsibilities from the United States 
and NATO throughout the region. Finally, inability to close the book in 
the Balkans would also dangerously slow our engagement with Europe's 
East, to which I now turn.

                THE REMAINING QUESTION OF EUROPE'S EAST

    Assuming that the Balkan accession goes forward at the Bucharest 
summit, there remains the question of Europe's East--which might 
someday become the territory on which a fourth expansion will take 
place. Both Ukraine and Georgia have sent letters to the NATO Secretary 
General formally requesting entry into the Membership Action Plan 
process.
    Both countries have long since completed the Individual Partnership 
Program, and they have breezed through the Intensified Dialogue on 
membership. Their senior officials argue, and Western military analysts 
broadly agree, that Ukraine and Georgia have been in NATO's waiting 
room for so long that they have completed the majority of the technical 
military reform tasks usually delineated in the MAP process and are 
already interoperable with NATO forces. For Ukraine, the Bucharest 
summit is the second try for the Membership Action Plan. During the 
Istanbul summit in 2004, President Kuchma requested MAP, but the 
alliance refused on the grounds that Ukraine had sold radars to Iraq. 
Although that charge turned out to be false--we did not find Ukrainian 
radars in Iraq--the NATO allies undoubtedly made the right decision.
    As we have seen from Poland to the Adriatic Charter countries, the 
processes of NATO accession and its purposes evolve over time. Looking 
at the requests of Ukraine and Georgia, we already know that military 
criteria play very little role in how we define our interest in the 
success of the two countries. In fact, these countries are not now 
asking for NATO membership, although they would be delighted if we 
treated them as prospective members. They are asking for the tools with 
which to complete their reforms and ultimately to qualify for 
membership consideration. In effect, the Membership Action Plan has 
become a preschool for countries seeking to improve their credentials 
for an EU perspective, or more extensive engagement with the European 
Union. In this respect, the MAP process runs parallel to (while 
remaining distinct from) the EU's Neighborhood Policy.
    What NATO must decide is how NATO should engage with Ukraine and 
Georgia in the course of an extended process of strengthening 
democratic institutions, resolving so-called ``frozen conflicts,'' and 
establishing their political orientation toward the West. To the degree 
that political and democratic criteria will determine the speed and 
extent of their integration into the EU and NATO, Ukraine and Georgia 
closely resemble Albania, Croatia, and Macedonia at the time the three 
entered the Membership Action Plan
    Many NATO allies note that despite the astounding pace of reform 
since the Rose Revolution in 2003, Georgia stumbled in November 2007 
when it cracked down on an opposition demonstration. Likewise, despite 
the vibrant political pluralism of Ukraine and its repeated free and 
fair elections, it seems that the country cannot maintain a governing 
coalition or reach a political decision without a fistfight in 
Parliament and a collapse of the government. But these are the familiar 
juvenile delinquencies of young democracies finding their way in the 
post-Soviet world. Helping them past this early fragility is an 
important reason for them to be offered a collaborative relationship 
with NATO.
    As important as it is to understand that NATO's criteria on 
expansion are constantly changing, it is also important to understand 
what NATO's engagement and preaccession programs are not. A Membership 
Action Plan offers no guarantee of future membership in NATO, let alone 
in the European Union. To be precise, MAP would initiate an open-ended 
process that anticipates that Georgia and Ukraine will spend many years 
resolving critical national questions of stability, territorial 
integrity, institutional capacity, and the resolution of frozen 
conflicts before either NATO or the candidate country can make an 
informed political decision on NATO membership. In this sense, the 
first phase of engagement in Europe's East will be a process of 
discovery wherein Europe learns more about the character, capability 
and political intentions of Ukraine and Georgia--and these countries 
understand the evolving requirements of both NATO and the European 
Union.

  THE IMPLICATIONS OF THE BUCHAREST SUMMIT FOR THE RELATIONSHIP WITH 
                                 RUSSIA

    Critics of NATO often cite past expansions as a decisive factor in 
the deterioration of Russia's relationship with NATO, the United States 
and Europe. Although NATO has an influence on the security, 
integration, and engagement of Europe in the East and, therefore, an 
influence on Europe's relationship with Russia, it can be argued that 
NATO has exerted a positive influence on Russia over the longer term.
    To the extent that NATO and the European Union succeed in the 
stabilization and integration of the Western Balkans, Serbian 
insecurities and historical anxieties may cease to be a neuralgic issue 
in Russia's relations with the international community. Similarly, 
closer relations with Ukraine and Georgia will remove the security 
concerns that make addressing ``frozen conflicts'' extremely difficult 
and will serve to further demilitarize the unstable regions of what 
Russia once regarded as its ``Near Abroad.''
    Over time, Ukraine and Georgia will become more stable and 
undoubtedly more prosperous. Invariably, countries in the process of 
building closer relations with NATO find they can safely demilitarize 
and devote more of their energies to multilateral resolution of 
conflicts with neighbors. Ultimately, closer relations between Europe 
and Ukraine and Georgia would bring Russia closer to Europe and would 
make the needed dialogues with Russia on democracy and energy that much 
easier.
    As a historical rule, the persistence of political vacuums between 
Europe and Russia and the isolation of the fearful, fragile states 
trapped within this belt of political instability are a danger to and a 
barrier to cooperation between Europe and Russia. Since the mid-1990s, 
NATO has done more than any institution to remove the physical 
insecurity and end the isolation of Europe's East and Russia. As a 
result of NATO's success in these areas, it is now possible to envision 
new kinds of relationships with Russia, of which the Russia-NATO 
Founding Act and the Russia-NATO Council are distant, cave-dwelling 
ancestors.
    If the Bucharest summit succeeds, both in the completion of a 
Southeast European security system in the Balkans and a decisive, long-
term engagement with Ukraine and Georgia, it is not too early to 
speculate about a new Russian relationship.
    In the short term, the military dimension of the relationship 
between Russia and the West is likely to continue to decline. We are 
unlikely to find ourselves embarking on interminable negotiations on 
the levels of nuclear and conventional forces reminiscent of the late 
1970s and 1980s. These issues are no longer central. The pretense of 
the last few years that Russia and the United States had found common 
cause in areas such as North Korea, Iran, and counterproliferation 
generally has generally proven false. Not only is the Russian 
Government reluctant to help Europe and the United States on problems 
of the potential development of an Iranian nuclear program, Russia 
seems to have even less influence with North Korea than does the United 
States. As a result, the Russia-NATO Council remains little more than a 
vehicle to allow the Russian President to appear at NATO summits.
    By the same token, it is clear that Russia and the rest of the 
Euro-Atlantic community are not going to reach a common understanding 
on the nature of democracy, the standards of human rights, the 
protection of the press, the limitations on state power, and many other 
political values that are the foundation of NATO and EU Member States.
    However, the decisions at the Bucharest summit may set the stage 
for recognition that Russia and Europe have common economic interests 
and should begin to discuss the terms of trade. Already, the European 
Union is about to open free trade discussions with Ukraine, and NATO 
has put Europe's energy security on its agenda. While it is more likely 
that the European Union will take the leading role in whatever 
relationship develops on energy supply and related issues in trade and 
development, it may fairly be said that NATO created the conditions 
that made closer relations between Russia and Europe on economic 
matters possible--primarily by means of three expansions and a new 
engagement in Europe's East

                THE IMPLICATIONS OF THE SUMMIT FOR NATO

    When the NATO allies met at Riga, Latvia, in November 2006, they 
described their next meeting in Bucharest as ``an expansion summit.'' 
Since then, equally consequential issues concerning the success of NATO 
operations in Afghanistan and how missile defenses will work in the 
overall security architecture of Europe have been added to the agenda. 
Success or failure on any of these questions will affect the strength 
and integrity of NATO for years to come.
    Still, it was the question of NATO membership that first signaled 
that the Bucharest summit is likely to be an historic event in the NATO 
alliance and in the development of modern Europe more generally. If the 
Bucharest summit does invite Albania, Croatia, and Macedonia to join 
NATO, if the alliance formally invites Bosnia, Montenegro, and Serbia 
to start on the path to NATO and European integration, and if NATO 
invites Georgia and Ukraine to enter the Membership Action Plan, thus 
beginning a serious and sustained relationship with Europe's East, what 
affect will NATO have had on modern Europe?
    Mr. Chairman, in my view:

  <bullet> NATO membership for Albania, Croatia, and Macedonia would be 
        a major step toward the complete integration of Southeast 
        Europe into Euro-Atlantic institutions and would provide the 
        security foundations for an enduring peace in the Western 
        Balkans.
  <bullet> Invitations to Bosnia, Montenegro, and Serbia to begin a 
        dialogue on NATO would formally parallel the policies of the 
        European Union toward the countries of the Central Balkans. 
        This would be an important signal that NATO and Europe's 
        Security and Defense Policy are equal partners in future 
        challenges.
  <bullet> Invitations to Georgia and Ukraine to enter NATO's 
        Membership Action Plan would signal a breakthrough engagement 
        with Europe's East which would strengthen the democratic and 
        economic development of both countries and may, ultimately, set 
        the stage for closer relations with Russia.
  <bullet> Finally, the decisions at the Bucharest summit, taken as a 
        whole, would announce that there is a new balance in burden-
        sharing between the European Union and NATO. In each 
        affirmative decision at Bucharest, NATO will be either 
        anticipating an EU decision (for Croatia, NATO membership would 
        precede EU membership) or following appropriately on the lead 
        of EU policy (Ukraine's MAP would follow the EU's Neighborhood 
        Policy by 2 years).

    In conclusion, NATO's adaptability to the changing needs and 
various objectives of Visegrad, Vilnius, the Adriatic Charter, the 
Western Balkan, and now the post-Soviet democracies in Europe's East is 
nothing short of extraordinary. The NATO allies seem quite agile in 
changing their mission from ending insecurity in the north German 
plain, to completing Central and Eastern Europe, to stabilizing and 
helping to integrate the Western Balkans, to strengthening democratic 
institutions where it can, and in providing the relationships with 
Ukraine and Georgia that may bring them to a political decision on NATO 
membership and an EU perspective. NATO's Open Door policy has clearly 
played a critical role in the development of modern Europe after 1989 
and stands as one of the most clearheaded decisions made by the 
alliance since the Marshall Plan. Looking back on the history of NATO's 
initial engagements and expansions, there is no positive decision which 
the allies have had cause to subsequently regret. Each NATO dialogue, 
membership action plan, and NATO invitation has made the trans-Atlantic 
alliance more effective and has served to unite and strengthen the 
political order of modern Europe.

    The Chairman. Thank you.
    Mr. Townsend.

 STATEMENT OF JAMES J. TOWNSEND, JR., DIRECTOR, INTERNATIONAL 
       SECURITY PROGRAM, ATLANTIC COUNCIL, WASHINGTON, DC

    Mr. Townsend. Good afternoon, Mr. Chairman. And it's a 
great honor and privilege for me to appear before Senator Biden 
and Senator Lugar to talk about these very important issues.
    I've also submitted a written testimony for the record, and 
that I'd like to have submitted there. Thank you very much.
    The candidacies of Albania, Croatia, and Macedonia to join 
NATO bring with them both the strings that come with new 
members, as well as the complex issues reflecting their history 
and their geography. Drawing on the core of what is known as 
the ``Perry Principles,'' after what Secretary of Defense Bill 
Perry identified as the standards for new members, these 
principles--civilian control of the military, civil societies 
based on democracy, rule of law, a market economy, and good 
relations with neighbors--still provide important guidelines 
for candidates to know what the Alliance is looking for, in 
terms of an ally, and it can also guide our own decisionmaking.
    All three countries have reform efforts underway for years, 
shaped by the NATO Membership Action Plan and by EU criteria, 
as well. Strong majorities favor membership. Defense spending 
levels are close to or over 2 percent of GDP.
    On the military side, NATO planners I have spoken with 
affirm that all three nations have enthusiastically met and 
implemented most of the military reform suggestions made to 
them through the MAP, and are in better shape militarily than 
most of the newest members were when they first entered the 
Alliance.
    But, metrics alone do not provide the justification for why 
we may want these nations in NATO. To do that, we must consider 
their membership in the context of why we bring in new members 
and what our experience has been since 1999.
    Since the end of the cold war, the Article 10 standards for 
new allies took on a new interpretation based on Alliance 
security considerations of a new time. Security was defined in 
a more broadly political/strategic way as assuring 
transatlantic security through the creation of a Europe whole, 
free, and at peace. Bringing former adversaries into NATO and 
the EU became an important part of creating this more stable 
and integrated Europe. This led to NATO's largest period of 
enlargement, when 10 former adversaries entered the Alliance, 
beginning in 1999.
    Now Albania, Croatia, and Macedonia are following in the 
train of those first 10. We have to consider their candidacy in 
the same context we used to consider the latest 10 new members. 
Will their membership help create a Europe whole, free, and at 
peace? The answer to that question is that NATO membership for 
these three is just as logical, just as consistent with past 
decisions, and just as important for Alliance security as was 
membership for the 10 newest allies, if not more so, given 
Alliance security concerns in their region, especially with 
Kosovo's declaration of independence.
    Membership in such institutions as the EU and NATO brings 
peer pressure on members to act responsibly. Nations, if left 
on their own, are freer to exploit regional problems to their 
advantage. The pressure by peers and by the institutions will 
make it very difficult for members to engage in acts that 
contribute to regional instability.
    This newest round of enlargement would also build upon the 
reasoning behind Slovenia's NATO and EU membership as the first 
nation from the former Yugoslavia to join these institutions, 
which was partially based on the importance of enhancing 
regional stability.
    NATO membership for Albania, Croatia, and Macedonia will 
bring to bear that role of NATO as agent for regional 
stability, as described above. Membership will give these three 
nations a focus on regional stability and on the responsibility 
for security that comes with NATO membership, which will make 
these three nations regional activists.
    Like with Slovenia, admission of these three nations to 
NATO will send an important signal to other nations in the 
region that the door to membership is open to those nations 
that accept the values and the institutions shared by the 
allies.
    However, I am also concerned about the amount of work that 
remains to be done and the usefulness of a carrot of NATO 
membership in helping governments make decisions about reform. 
Therefore, I would like to recommend to the committee that, at 
the NATO summit in Bucharest, invitations for membership be 
extended to Albania, Croatia, and Macedonia, but it should be 
recognized explicitly that each nation still must meet, or make 
credible progress toward meeting, an achievable, but essential, 
capability, goal, or goals in civil or military areas. If 
nations do not meet these goals, or if NATO planners cannot 
certify that significant progress is being made toward meeting 
them, then accession to NATO membership is postponed until such 
time as progress can be certified. I have no doubt that this 
committee and the full Senate will want to be assured of that 
progress.
    As far as Georgia and Ukraine MAP are concerned, arguments 
are similarly strong for offering participation in NATO's 
Membership Action Plan to Georgia and Ukraine at the Bucharest 
summit. But, I also share my colleagues' views that it must be 
understood that being given MAP participation does not mean 
membership in NATO is assured.
    And in the case of Georgia, the Georgian people and 
government have made clear they would like to join the 
Alliance, and Georgia has made great strides in military and 
civil reform efforts, illustrated by Georgian forces deployed 
in Iraq and in Afghanistan, and especially by improvements in 
the Georgian economy.
    The issue of MAP for Georgia should be an easy one. MAP 
should be extended to Georgia at the Bucharest summit. If, 
however, the events during last November's crackdown on 
political opposition has weakened allied consensus to extend 
MAP at Bucharest, I would like to offer a suggestion made by 
former Ambassador to Ukraine, Steven Pifer, that NATO Ministers 
or Ambassadors decide the question of MAP after the spring 
parliamentary elections.
    However, in the minds of some observers, the questions 
surrounding MAP for Georgia is whether the offer of MAP is 
worth it if were to provoke a harsh reaction by Russia to what 
it sees as a hostile NATO penetrating into an area that some 
Russians consider a part of its sphere of influence. At its 
root, the issue is not MAP, but what MAP represents: The 
ability of a sovereign Georgia to decide for itself whether it 
wants to join a transatlantic institution that Russia sees, at 
least here, as encroaching upon its own interests in a way it 
regards as unacceptable.
    Russia has legitimate interest in the security policies of 
its neighbors, but has no legitimate reason for concern if 
those neighbors wish to join NATO.
    For Ukraine, participation in MAP is a logical next step, 
and MAP should be extended to Ukraine at the Bucharest summit. 
Unlike Georgia, however, support for NATO membership by the 
Government of Ukraine has been inconsistent, and support for 
membership by the Ukrainian people is weak, reflecting the 
internal divisions in that country over the nature of its 
relationship with Russia and its Western neighbors. However, 
after years of indecision, in January of this year Ukraine's 
President, Prime Minister, and Speaker of the Parliament signed 
a letter to NATO Secretary General Jaap de Hoop Scheffer asking 
to participate in the MAP process. Low support by the public 
for NATO membership has not kept MAP from being extended to 
other aspirants in a similar situation. Those nations have used 
the MAP, and that time in the MAP process, to help build 
support in their country for NATO membership. Despite this weak 
support for NATO membership--and membership is not the issue 
here--MAP should be extended so that reforms can become sharper 
and more focused, while the Ukrainians sort out their future 
relationship with NATO.
    But, there is a similarity with the Georgia case for MAP, 
and that is Russia. Ukraine represents both an emotional and 
strategic center of gravity for Russians, and Ukrainian 
membership in NATO raises, for Russians, not just misplaced 
fears of NATO encroachment on its borders, but a shrinking of 
what Russian strategists see as their sphere of influence. But, 
Russian pressure should have no control over the decisions that 
a sovereign nation like Ukraine should make about what 
institutions it wants to affiliate with.
    Good relations with Russia are important for Georgia and 
for Ukraine and for NATO. One of the great disappointments of 
the past 10 years is the deterioration in the relations between 
Russia and many nations and institutions in the transatlantic 
community, even as democracy itself has deteriorated in Russia. 
Since Russia joined PFP, the NATO/Russia relationship has been 
based on practical cooperation, with NATO/Russia joint 
operations in the Balkans and in Operation Active Endeavor in 
the Mediterranean. A Russian flag officer is even posted at 
SHAPE, and NATO-Russia Council II meets regularly. But, 
recently there has not been much movement on joint NATO/Russian 
initiatives. Just as the history of cooperation should 
demonstrate that Russian perceptions of NATO as a threat are 
misplaced, and there is a foundation of cooperation that can be 
built upon to help dispel this perception, one of the many 
challenges of the period ahead will be to renew and strengthen 
the NATO/Russia relationship. This will take hard work on both 
sides. Russia and the nations of NATO will have to want to make 
the relationship work, which we all have an interest in, given 
our--given that our security is bound up with each other.
    The new President of Russia would be pushing on an open 
door at NATO if he chooses to pursue mutual trust and a new 
strategic partnership.
    Thank you very much for your attention.
    [The prepared statement of Mr. Townsend follows:]

 Prepared Statement of James J. Townsend, Jr., Director, International 
           Security Program, Atlantic Council, Washington, DC

    Mr. Chairman, it is a great honor and privilege for me to be 
invited to testify before you and this committee on NATO enlargement 
and other security issues impacting the broader Euro-Atlantic 
relationship, recognizing the fact that one cannot talk about NATO 
enlargement in isolation from other security issues which will also 
shape NATO's future direction.
    The Chairman of the Atlantic Council, GEN James Jones, has brought 
together from the U.S. and Europe a group of well-regarded experts and 
former senior level government officials well-versed in transatlantic 
security that he calls his ``Strategic Advisors Group.'' This group 
frequently comes together to work through these issues and to offer 
policy recommendations to NATO and allied governments. Many of the 
ideas in my testimony grow out of the work of this group. That said, 
the opinions expressed here are my own.
NATO Enlargement: Should Albania, Croatia, and Macedonia be invited to 
        join NATO?
    When the alliance began to enlarge again at the end of the cold 
war, we all knew the day would come when enlargement would present us 
with candidates whose histories, geography, and struggles with building 
democracies and establishing relations with neighbors would bring more 
complex issues into the debate than we had to address in the first 
rounds. The candidacies of Albania, Croatia, and Macedonia to join NATO 
bring with them both the strengths that come with new members as well 
as the complex issues reflecting their history and geography.
    Many of the questions and issues about their candidacy are 
familiar:

  <bullet> Have these nations successfully used the Membership Action 
        Plan (MAP) to structure their armed forces to be able to work 
        with allied forces and be ``producers of security, not just 
        consumers'' and is there civilian control of those armed 
        forces?
  <bullet> Are the civil societies of these candidate nations based on 
        democracy, rule of law, and do they have a market economy and 
        civil institutions which foster these values--and is there 
        broad support in their societies for NATO membership?
  <bullet> Will all NATO nations be prepared to commit to come to these 
        countries' aid if they are attacked militarily?
  <bullet> Do the candidates have and can they maintain good relations 
        with their neighbors?

    Drawing on the core of what is known as the ``Perry principles,'' 
after what Secretary of Defense Bill Perry identified as the standards 
for new members, these principles still provide important guidelines 
for candidates to know what the alliance is looking for in an ally and 
for allies to consider as they decide on accession. They also remind 
allies what those values are that we share and that make the 
transatlantic community more than just a treaty construct, but a real 
community strong enough to stand the tests of time and tensions, which 
we have seen in abundance over the past few years.
    As we consider whether to invite Albania, Croatia, and Macedonia to 
join us as allies, how well these nations are doing in meeting these 
principles can guide our decisionmaking. All three countries have had 
reform efforts underway for years in both their civil and military 
sectors, shaped by their participation in NATO's Membership Action 
Plan, their efforts to meet EU Stabilization and Association Agreements 
as well as EU membership criteria, and by their work with the U.S. and 
other allied nations.
    An important indicator of the readiness of these nations to join 
NATO is whether their people support membership: Strong majorities in 
all three countries favor membership, majorities that should withstand 
any changing political winds. Levels of defense spending are another 
indicator, with levels close to or over 2 percent of GDP being 
consistently maintained, which hits the NATO 2-percent target and is 
above the level of defense spending for most allies.
    On the military side, NATO planners I have spoken with affirm that 
all three nations have enthusiastically met and implemented most of the 
military reform suggestions made to them through MAP and are in better 
shape militarily than most of the newest members were when they entered 
the alliance. Their armed forces have been downsized and 
professionalized, obsolete equipment and facilities removed, and 
brigades reorganized. Croatia has particularly made great strides in 
building a deployable and interoperable force. Its Strategic Defense 
Review has set a goal of developing ``usable forces'' with 40 percent 
of its forces deployable, and 4 percent deployed at any one time. It 
even hosted a NATO Response Force exercise last year. All three nations 
have forces abroad as part of U.N., NATO, or EU missions, including 
ISAF operations in Afghanistan and operations with coalition forces in 
Iraq (Albania and Macedonia).
    While such metrics show progress and a clearly positive reform 
trajectory, there remains work to do by all three nations, especially 
on the civil side. But metrics alone do not provide the justification 
for why we may want these nations in NATO. To do that, we must consider 
their membership in the context of why we bring in new members and what 
our experience has been with enlargement since 1999.
    Article 10 of the North Atlantic Treaty says that the parties may 
invite any other European states in a position to further the 
principles of the treaty and to contribute to the security of the North 
Atlantic area (emphasis added). I find the treaty drafters did a good 
job of using just a few words to describe what we want a new ally to be 
able to do, while leaving enough latitude for future decisionmakers to 
take into account the security requirements of their day as they 
consider new members.
    Under article 10, NATO has steadily increased its ranks with 
nations' allies concluded would further the principles of the North 
Atlantic Treaty and contribute to the security of the alliance. Each 
decision was made on the merits of the candidate nation, both their 
current capability and their future potential. Most importantly, each 
decision was shaped by how the decisionmakers of the day interpreted 
the security needs of the alliance and how that candidate could 
contribute.
    In 1949, as the alliance was going through its first effort to 
bring in members, the priority for an allies' contribution to the 
security of the alliance was primarily a military one, given the 
military threat the West was under from the Soviet Union and the Warsaw 
Pact. But even during the cold war, an allies' contribution to the 
security of NATO did not require that each ally provide military 
forces, given that one of the first allies, Iceland, did not even have 
a military force. But despite this fact, Iceland was welcomed into the 
alliance because it contributed to alliance security in ways other than 
by providing military forces (such as political solidarity with the 
West and strategic geography).
    Since the end of the cold war, the article 10 standards for new 
allies to be in a position to further the principles of the treaty and 
to contribute to the security of the alliance took on a new 
interpretation based on alliance security considerations of a new time. 
No longer was the security of the North Atlantic area seen in the 
context of facing off against the military threat from the Soviet 
Union; instead, security was defined in less immediate military/
strategic terms but in a more broadly political/strategic way as 
assuring stability through the effort to create a Europe ``whole, free, 
and at peace.''
    Bringing former adversaries into NATO (and the EU) became an 
important part of creating this Europe ``whole, free, and at peace'' 
and thereby ensuring North Atlantic security. NATO membership provided 
assurance of security and hence provided the psychological 
underpinnings for countries to get on with the business of 
democratization and developing liberal, Western economies.
    The new allies were given NATO membership not because of their 
military prowess (though all were expected to modernize their military 
forces and did so in fits and starts), but because their membership 
helped repair the divisions of Europe left by the cold war. And NATO 
membership would help these nations develop the potential we knew they 
had for developing over time the Western military and civil 
institutions important to the alliance.
    So the alliance grew over the past 10 years: First in 1999 came 
Poland, Hungary, and the Czech Republic, followed in 2004 by Bulgaria, 
Estonia, Latvia, Lithuania, Romania, Slovakia and Slovenia. The 
alliance consensus was that all 10 candidates met the article 10 
standard that they were in a position to further the principles of the 
treaty and would contribute to the security of the alliance. They also 
met the Perry principles. However, all of these new allies were given 
membership despite still having work to do to meet NATO military 
requirements and complete civil reform efforts at home.
    Now, Albania, Croatia, and Macedonia are following in the train of 
those first 10 new members and are being considered for membership 
after working closely with NATO for years through membership in the 
Partnership for Peace and participating in the Membership Action Plan. 
But unlike the 10 nations that preceded them just a few years ago, 
there is debate about their readiness for membership.
    But we have to consider their candidacy in the same context we used 
to consider the latest 10 new members--will their membership contribute 
to alliance security by creating a Europe ``whole, free, and at 
peace''? Like the 10 nations that preceded them as candidates, do 
Albania, Croatia, and Macedonia meet the article 10 requirements, as we 
interpret them today, that they be in a position to further the 
principles of the treaty and to contribute to the security of the 
alliance? Will today's NATO allies be willing to honor their article 5 
commitments if any of these countries were subject to aggression?
    The answer to those questions is that NATO membership for these 
three is just as logical, just as consistent with past decisions, and 
just as important for alliance security as was membership for the 10 
newest allies--if not more so, given alliance security concerns in 
their region, especially with Kosovo's declaration of independence last 
month.
    Bringing in new members to NATO as a way to address European 
regional security concerns has been an important role for NATO, dating 
back to the inclusion of Germany as a member in 1955 as part of an 
agreement to allow Germany to rearm. At the end of the cold war, as the 
West began to deal with simmering ethnic tensions, NATO's role as an 
agent for regional stability became even more useful, especially in the 
Balkans.
    This newest round of enlargement would also build upon the 
reasoning behind Slovenia's NATO (and EU) membership as the first 
nation from the former Yugoslavia to join these institutions, which was 
partially based on the importance of enhancing regional stability by 
increasing Slovenia's clout as a leader in organizing and promoting 
regional confidence-building initiatives. NATO and EU membership for 
Slovenia also sent a signal to nations in the region, many with ethnic 
problems and civil dysfunction like corruption, that reforming domestic 
laws and institutions to conform to European standards can lead to 
integration into European institutions.
    Membership in such institutions as the EU and NATO brings peer 
pressure on members to act responsibly; nations if left on their own 
are freer to exploit regional problems to their advantage. The pressure 
by peers and by the institutions will make it very difficult for 
members to engage in acts that contribute to regional instability. The 
personal relationships that develop between leaders, and the peer 
pressure and institutional help that come from NATO membership, is one 
reason why Turkey and Greece have not engulfed the Eastern 
Mediterranean in war over the past 60 years.
    NATO membership for Albania, Croatia, and Macedonia will bring to 
bear that historic role of NATO as agent for regional stability as 
described above. Membership will give these three nations a focus on 
regional stability, and the responsibility for security that comes with 
NATO membership will make these three nations regional activists for 
stability. All three have already demonstrated such efforts through 
their work in the Southeast European Defense Ministerial initiatives, 
participation in its regional peacekeeping force (SEEBRIG) and 
leadership hosting PFP exercises and programs. Finally, like with 
Slovenia, admission of Albania, Croatia, and Macedonia to NATO will 
send an important signal to other nations in the region, like Serbia, 
Bosnia, Kosovo, and Montenegro, that the door to membership is open to 
those nations that accept the values and institutions shared by the 
allies.
    But most importantly, the peer pressure both from fellow allies and 
from NATO as an institution will ensure that as the Balkans continue to 
move beyond its painful and violent transition to a stable and 
democratic region, these three nations will themselves ratify their 
roles as part of the solution to regional issues, and not be part of 
the problem. These three nations have shown by their actions that they 
understand the responsibilities which come with NATO membership, and 
are already acting as agents of stability and security in the Balkans.
    Europe truly cannot be said to be ``whole, free, and at peace'' 
without the Balkan nations being part of those institutions, NATO and 
the EU, that produce and guarantee that state. It is illogical to leave 
these three outside of an integrating Europe at a time when Balkan 
tensions can be lessened by adding the presence of three NATO allies in 
the region.
    However, I am also concerned about the amount of work that remains 
to be done and the usefulness of the ``carrot'' of NATO membership in 
helping governments make difficult decisions about reform. My 
experience with NATO enlargement from its earliest days is that reform 
efforts can lose momentum after a nation enters the alliance, as 
political imperatives go elsewhere. Increases in military spending and 
painful civil reform decisions become harder to make when NATO 
membership no longer tops the Prime Minister's priority list.
    Therefore, I would like to recommend to the committee that at the 
NATO summit in Bucharest, invitations for membership be extended to 
Albania, Croatia, and Macedonia. But it should be recognized explicitly 
that each nation still must meet or make credible progress toward 
meeting an achievable but essential capability goal or goals in civil 
or military areas. A summit deadline to accelerate civil reform efforts 
was used with good effect during the first round of enlargement, when 
allies felt aspirant progess in key areas was too slow. If nations do 
not meet these goals or if NATO planners cannot certify that 
significant progress is being made toward meeting them, then accession 
to NATO membership is postponed until such time as progress can be 
certified.
    Timing is key. Invitations extended at Bucharest must then be 
ratified by each of the 26 NATO allies, some pro forma and some, like 
the approval of the U.S. Senate, both rigorous and systematic. While 
time is short for this ratification period, which ideally should be 
completed before NATO's 60th anniversary summit in 2009 where it is 
intended that new allies will be welcomed into the alliance, there 
should be enough time to begin an intensive effort to make significant 
progress in important civil areas. I have no doubt that this committee 
and the full Senate will want to be assured of that progress.
    While I leave the specific capability goals to be determined by 
NATO planners and experts, the three nations could use the next year to 
intensify efforts to make civil reforms, such as fighting corruption or 
organized crime, or military reforms to improve the deployability, 
sustainability, or interoperability of their forces. The requirement to 
meet civil-military capability goals for NATO accession should provide 
ministries political clout in capitals to meet important goals before 
the NATO accession process is completed, rather than afterward, when 
NATO is no longer the priority.
    Therefore, Mr. Chairman, Albania, Croatia, and Macedonia should be 
offered invitations to join the alliance at the Bucharest summit, 
invitations that will continue the construction of a Europe whole, 
free, and at peace. But let us use the time between invitation and 
accession to initiate an intensive effort to make further progress 
toward meeting important objectives in their civil-military reform 
efforts.
Should NATO offer to Ukraine and Georgia participation in the 
        Membership Action Plan (MAP)?
    Arguments are similarly strong for offering participation in NATO's 
Membership Action Plan to Georgia and Ukraine at the Bucharest summit. 
While MAP, in and of itself, is not assurance of membership, it is a 
powerful tool when used by planners in MAP countries to accelerate 
reform efforts, many of which are shaped by the MAP
            Georgia
    Since the end of the cold war, NATO has developed a number of ways 
for nations to establish a relationship with the alliance short of 
membership. For example, membership in NATO's Partnership for Peace 
(PFP) offers many nations a way to tailor their relationship with NATO 
so that it suits their nation's ambition and abilities and has always 
been a necessary way station to NATO membership for those who want it. 
The Membership Action Plan, by contrast, is a step beyond PFP and is 
offered as a further and deeper relationship with NATO for countries 
that want to become members. Work with NATO through MAP helps aspiring 
members make those additional civil and military reforms necessary to 
be considered a viable candidate for membership. But participation in 
MAP is no guarantee of membership in NATO, it merely offers a path in 
that direction . . . the decision is up to the allies. However, NATO 
should not offer--and has never in the past offered--MAP to an aspirant 
whom allies collectively do not think has the potential for eventual 
membership, or to a nation where the people do not want NATO 
membership.
    Georgia has been in PFP since 1994 and took another step toward 
membership by beginning an Intensified Dialogue with NATO in 2006. The 
Georgian people and government have made clear they would like to join 
the alliance and Georgia has made great strides in military and civil 
reform efforts, illustrated by Georgian forces deployed in Iraq and in 
Afghanistan and especially by improvements in the Georgian economy. 
Participation in MAP will help Georgia continue to make progress in its 
march toward membership, especially in judicial reform, where NATO has 
stressed the need for a more independent Georgian judiciary. The frozen 
conflicts in the regions of Abkhazia and South Ossetia complicate 
Georgia's relationship with NATO and make some allies squeamish about 
extending MAP. Progress must be made in finding a solution to these 
problems, and U.S. leadership in helping Georgia to find a way forward 
is critical. But as the process toward membership continues, Georgia 
should not be penalized if it works to resolve these problems and 
others do not.
    Georgian aspirations were dealt a blow last November when, in 
response to opposition protests, a state of emergency was declared and 
there was violence in the streets. Efforts at political outreach by the 
Saakashvili government and upcoming parliamentary elections this spring 
may help restore faith that Georgian democracy is back on track.
    The issue of MAP for Georgia should be an easy one: MAP should be 
extended to Georgia at the Bucharest summit. If, however, there is not 
consensus to do so, I would like to offer a suggestion made by former 
Ambassador to Ukraine, Steven Pifer, for NATO at ministerial or 
ambassadorial level to decide the question of MAP after the spring 
parliamentary elections, if allies need reassurance that democratic 
reform is working again in Georgia. At a minimum, the alliance could 
offer a program of intensive military reform assistance to Georgia 
similar to that between NATO planners and Ukraine to give Georgian 
reform efforts a boost until there is consensus at NATO to offer 
Georgia participation in MAP.
    However, in the minds of some observers, the question surrounding 
MAP for Georgia is not just whether it (and NATO) are ready to move to 
a closer relationship. The question is whether the offer of MAP is 
worth it if it were to provoke a harsh reaction by Russia to what it 
sees as a hostile NATO penetrating into an area that some Russians 
still cannot accept as no longer a part of its sphere of influence. At 
its root, the issue is not MAP, but what MAP represents--the ability of 
a sovereign Georgia to decide for itself whether it wants to join a 
transatlantic institution that Russia sees, at least here, as 
encroaching upon its own interests in a way it regards as unacceptable. 
Russia has legitimate interests in the security policies of its 
neighbors, but has no legitimate reason for concern if those neighbors 
wish to join NATO. At the end of the day, the long-term NATO-Russia 
relationship cannot be built on the basis of a cordon sanitare between 
Russia and its NATO neighbors.
    The issue is not new. When the three Baltic Republics expressed a 
desire to join NATO, there was Russian concern about that as well. But 
the Baltic nations and NATO pressed ahead with developing a 
relationship based on the simple but important truth that the decisions 
of sovereign nations were theirs alone to make and not the province of 
third parties. Georgia as a sovereign nation has the right to seek NATO 
membership, and the alliance should make that decision based on its 
needs and its criteria.
            Ukraine
    NATO has a special relationship with Ukraine and even a special 
committee devoted to developing NATO-Ukraine initiatives--the NATO-
Ukraine Commission. NATO has worked closely with Ukraine for years, and 
has established an office there, to develop and implement initiatives 
that help Ukraine with reform efforts, especially on the military side.
    Participation in MAP is a logical next step for Ukraine, and MAP 
should be extended to Ukraine at the Bucharest summit. This will take 
Ukraine one step closer to NATO membership. Progress in economic reform 
in Ukraine since independence in 1991 is impressive, with a growing 
market economy, foreign investment, and consistently some of the 
highest growth rates in Europe.
    Its military reforms, lacking adequate funding and not keeping pace 
with reforms on the more successful civil side, have created smaller, 
more deployable units that have deployed abroad, taking part in NATO 
operations in the Balkans and in coalition operations in Iraq. Ukraine 
is also one of the few European nations with strategic lift. All 
indicators show extending MAP to Ukraine at the Bucharest summit as a 
logical next step in the NATO-Ukraine relationship.
    However, unlike Georgia, support for NATO membership by the 
Government of Ukraine has been inconsistent and support for membership 
by the Ukrainian people is weak, reflecting the internal divisions in 
that country over the nature of its relationship with Russia and its 
Western neighbors. While this lukewarm support for NATO membership 
should not be an obstacle to extending MAP to Ukraine, it makes allies 
doubt Ukraine's commitment and ultimate direction toward membership. 
However, after years of indecision, in January of this year Ukraine's 
President, Prime Minister, and Speaker of the Parliament signed a 
letter to NATO Secretary General Jaap de Hoop Scheffer asking to 
participate in the MAP process.
    Low public support for NATO membership has not kept MAP from being 
extended to other aspirants in a similar situation, who have used the 
MAP to help build support in their country for NATO membership. But 
clearly, successful MAP participation will require on Ukraine's side 
not only a clear and unambiguous desire and commitment to undertake the 
work that comes with MAP participation, but also real confidence that 
that commitment is backed by a broad consensus of the Ukrainian people. 
The outreach effort in Ukraine will be hard, especially given the 
difficulty in solidifying support for NATO in the government. Despite 
this weak support for NATO membership--which is not the issue here--MAP 
should be extended so that reforms can become sharper and more focused, 
while the Ukrainians sort out their future relationship with NATO.
    But there is a similarity with the Georgian case for MAP, and that 
is Russia. Ukraine represents both an emotional and strategic center of 
gravity for Russians, and Ukrainian membership in NATO raises for 
Russians not just misplaced fears of NATO encroachment on its borders, 
but a shrinking of what Russian strategists see as their ``sphere on 
influence.'' Like with Georgia, some Russians still have a hard time 
adjusting to a sovereign Ukraine. But, Russian pressure should have no 
control over the decisions that a sovereign nation like Ukraine should 
make about what institutions it wants to affiliate with. Russia should 
have no veto in Kyiv, Tbilisi, or in Brussels.
            Russia
    Good relations with Russia are important for Georgia and Ukraine 
and for NATO. One of the great disappointments of the past 10 years is 
the deterioration in the relations between Russia and many nations and 
institutions in the transatlantic community, even as democracy itself 
has deteriorated in Russia.
    Since Russia joined PFP, the NATO-Russia relationship has been 
based on practical cooperation, with NATO-Russia joint operations in 
the Balkans and in Operation Active Endeavor (OAE) in the 
Mediterranian. A Russian flag officer is even posted at SHAPE. The 
NATO-Russia Council, too, meets regularly, but recently there has not 
been much movement on joint NATO-Russia initiatives. Just this history 
of cooperation should demonstrate that Russian perceptions of NATO as a 
threat are misplaced and that there is a foundation of cooperation that 
can be built upon to help dispel this perception. But the mistrust that 
has grown recently between Russia and the West has caused us to lose a 
historic opportunity to work together at NATO to ensure transatlantic 
security--security just as important to Russia as it is for the other 
nations of the transatlantic community.
    One of the many challenges of the period ahead will be to renew and 
strengthen the NATO-Russia relationship. This will take hard work on 
both sides; Russia and the nations of NATO will have to want to make 
the relationship work, which we all have an interest in given that our 
security is bound up with each other. This will call for creative ideas 
and determined leadership within NATO and in Moscow to figure out how 
we can get the relationship moving forward again in a practical 
direction.
    The new Russian President would be pushing on an open door at NATO 
if he chooses to pursue mutual trust and a new strategic partnership. 
He could begin to demonstrate such leadership by supporting joint NATO, 
U.S., and Russian work in missile defense for Europe.
            Afghanistan
    In my judgment, a vibrant NATO depends on enlargement to bring in 
new allies with energy, new ideas, and capabilities to keep NATO 
relevant and robust. The NATO of the future that new allies will join 
will be shaped by many things, chief among them the outcome of the 
international effort to help Afghanistan stand on its own feet as a 
sovereign nation and not become a failed or failing state. NATO plays a 
critical role in that effort by providing a safe and secure environment 
for the international community to assist the Afghans in rebuilding 
their country, as well as assisting the Afghan Government in security-
related development, including mentoring Afghan security forces.
    The Atlantic Council released an issue brief last month here in the 
Senate Foreign Relations Committee room that expressed great concern 
with the state of this recovery effort in Afghanistan by both the 
international community (including NATO) and the Kharzai government. 
This study was concerned about NATO efforts because allies were not 
providing the capabilities requested by military commanders and lacked 
a sense of commitment to see the job through.
    Mr. Chairman, I will let our study speak for itself, but among the 
recommendations we made, I would like to highlight the need for a 
comprehensive strategy that coordinates the civil and military security 
and reconstruction effort by the international community in 
Afghanistan. We recommended that NATO host with the Afghan Government a 
conference that pulls together the parties in the international 
community (such as the World Bank, the EU, the major NGOs) who are the 
primary contributors to Afghan civil reconstruction. Together with 
NATO, the international institutions represented at the conference 
could develop such a strategy. Once completed, this comprehensive 
strategy could be given U.N. approval and used by the Afghan Government 
and U.N. Representative Kai Eide to better coordinate and implement 
international reconstruction efforts with the Kharzai government. At 
the Bucharest summit, the alliance must address not only the shortfalls 
in its ISAF mission in Afghanistan, but its ``Vision Statement'' on 
Afghanistan should be strong enough to move the international community 
to better organize its reconstruction efforts as well.
            Missile Defense in Europe
    A future mission for the alliance that new members will face is 
missile defense. At one end of the missile defense spectrum, NATO is 
considering how best it should protect deployed NATO forces in theater 
from missile attack. At a more strategic level, the United States has 
embarked on a bilateral--actually trilateral--program to build a third 
ballistic missile defense site with elements in Poland and the Czech 
Republic to provide most of NATO. Europe with protection from ballistic 
missile threats, both today but especially from prospective threats in 
the future. NATO has begun internal discussions about expanding NATO's 
own planning to include a capability to defend those parts of alliance 
territory--in southeast Europe and Turkey--that because of proximity to 
the potential Iranian threat will be outside the coverage of the Third 
Site.
    The Atlantic Council hosted a conference on the U.S. ``third site'' 
effort last year, and it was clear that most nations, including the two 
hosts for the site, were anxious to have the U.S. and NATO efforts 
joined together. Having NATO involved in an appropriate way in the 
Third-Site effort helps both host nations build support domestically 
for participating in the U.S. project and helps build acceptance more 
broadly across Europe and makes clear that the U.S. initiative is 
genuinely directed at contributing to multilateral security and is not 
a manifestation of supposed American unilateralism. There may be other 
ways where the U.S. and NATO could cooperate on European missile 
defense. NATO and Russia have worked together on missile defense as 
well, and it would be a natural fit for NATO, Russia, and the United 
States to work jointly on missile defense and so ease the paranoia that 
has grown up around the U.S. program, especially in Moscow. Such a 
joint approach, should be raised at the Bucharest summit with Russian 
President Putin should he participate.
            NATO and the New Threats
    Another issue that will shape NATO is how it prepares for a future 
security environment that includes security threats that are not the 
traditional military ones, but can have their own destructive impact, 
such as cyber attack or the use of energy access as a weapon. 
Certainly, Estonia considered itself under attack last year when its 
cyber space was invaded and computer systems brought down.
    These new types of nonmilitary threats to the Transatlantic 
community call for a new way of thinking for allies as we consider 
NATO's role in dealing with a future security environment that includes 
such nontraditional threats as cyber attack and energy security. These 
issues are difficult at NATO because there is no agreement among allies 
that these threats should even involve NATO. If NATO did become 
involved, questions are raised about what NATO could do on a practical 
basis in response.
    First, energy security needs to be recognized at NATO as a 
legitimate security issue for the alliance where it has a role to play; 
a role perhaps not even imagined today. Therefore, allies need to think 
through possible NATO roles in energy security and include them in NATO 
defense planning. Ensuring energy security can be an important NATO-EU 
mission as well, where both institutions have equities at stake in 
ensuring the security of their member's access to energy supplies. Both 
institutions would bring to the table important tools to provide for 
that security. For example, the alliance could work with the EU and 
with nations to help protect vital energy infrastructure in Europe 
which much of Europe depends on for energy transport. Both could also 
develop together better maritime domain awareness, which would help 
NATO and the EU respond to any threats to sea movement of energy 
resources. Finally, NATO and the EU could help train the military 
forces or law enforcement in energy-producing nations where security of 
energy infrastructure is a problem.
Summary
    In summary, Mr. Chairman, while I have touched on many issues 
today, they all involve NATO's future. I believe bringing Albania, 
Croatia, and Macedonia into the alliance is important to NATO's future, 
but even more important for stability and security in Europe, 
especially in the Balkans. These three cannot rest on their oars 
however; they have much work to do. Extending a membership invitation 
at Bucharest with accession in 2009 made contingent by NATO nations in 
the ratification process on their meeting or making progress on 
priority civil-military capability goals will help them accelerate 
their work. I also believe extending MAP to Ukraine and Georgia is 
important for NATO's future; MAP will help these countries take forward 
their already impressive reform efforts so that, one day, when NATO 
membership for these two countries is before this committee, they will 
be ready.
    The NATO that nations continue to want to join as members must 
remain as vibrant, relevant, and capable into the future as it was when 
the North Atlantic Treaty was drafted and signed in 1949. Those first 
transatlanticists who drafted the North Atlantic Treaty wrote a 
document that continues to speak directly to issues of security and 
peace almost 60 years later, when countries unimaginable in 1949 as 
allies either have joined or are on the cusp of joining the alliance. 
These new nations will meet the challenges laid out by the treaty 
drafters in article 10, and will be in a position to take forward the 
principles of the treaty and to ensure the security of the alliance. I 
hope Albania, Croatia, and Macedonia will be joined by other new 
members over time. But one thing is certain, members, new and old, will 
face new threats to that security, and the alliance needs to begin 
planning for those new challenges now.

    The Chairman. Gentlemen, thank you very much. This has been 
a very good panel.
    Let me--because you've answered, succinctly, a number of 
the questions each of us have had, I'm going to focus on two 
things, if I may.
    One is, let me ask a rhetorical question. If we don't grant 
MAP status to Ukraine and Georgia, what in the devil does that 
say? The Russians threaten to target Ukraine and we conclude 
not to offer the status? It seems to me it's almost an 
overwhelming reason why you almost have to offer the status. 
Anybody disagree with that notion?
    Yeah, Ron.
    Dr. Asmus. You know, we--just want to add a dose of 
European reality to this conversation, since I live in 
Brussels. And I'm in favor of MAP for Ukraine and Georgia, but 
I would say the chance of it happening at NATO in Bucharest are 
about 10 percent today; and they were zero percent a couple of 
months ago. And they've only become 10 percent because of the 
Russians saying the things they have.
    And, when I listen to European colleagues, the first thing 
is, many of them don't--start with the question, Are Georgia 
and Ukraine part of Europe? And even some, like Vaclav Havel--
--
    The Chairman. You said they ``do not start.''
    Dr. Asmus. They do start with the fundamental question, 
which is not fully answered in NATO----
    The Chairman. Gotcha.
    Dr. Asmus [continuing]. About whether these countries are 
part of the Europe that they think should be in the Alliance. 
And even a hero of ours, Vaclav Havel--I was stunned--at NATO, 
gave a major speech, 2 weeks ago, saying that Georgia is not 
part of Europe and should never become a member of NATO. Just 
to show you how complicated this debate is. Not some soft 
French or British or German--Vaclav Havel, freedom fighter 
hero, saying, ``I think Ukraine is in, but Georgia isn't.''
    Second, you know, we have this vision of the nineties that 
you all contribute to, and we all helped, Baltic to the Black 
Sea. Ukraine and Georgia is not like adding Estonia or Hungary. 
This is a major strategic move deep into Eurasia and across the 
Black Sea. It's not just a little bit more of the same, it is a 
fundamental strategic move to transform Eurasia, and, you know, 
a huge part of what I still think of as Europe. And I'm in 
favor of that. But, not all Europeans have crossed that 
strategic bridge and said, ``Yes, we're going to spend 10 
years, again, trying to transform the next part of Eurasia.'' 
And when you--when I go to Berlin--of course, some people, it 
is the Russia factor, let's be honest, Senator--but there's a 
lot of people--when I go to talk to Chancellor Merkel's 
adviser--it's not Russia, it is the--the questions they have 
about Misha's democratic credentials, about the solidity of the 
Western orientation of Ukraine, and they say, ``MAP, for us, 
means a country's in NATO over the next 3 or 4 years.'' Now, I 
disagree with that. I think we should redefine MAP to get away 
from this issue, and we're not willing to cross that bridge.
    So, I think we make it too easy for ourselves if we really 
want to convince the Europeans to go down this road with us, 
which is what I want to do, to say, ``It's all because of 
Russian this, that, and the other thing.'' They're fundamental 
strategic questions here that many of us have answered for 
ourselves, but which haven't been fully thrashed out in the 
Alliance, as a whole, which is why we don't have consensus. And 
if we're honest--and I--one or two of you asked the question 
to, you know, Dan Fried, our good friend--the United States is 
not playing a leader--this Government, this administration, at 
this moment, has not made up its mind on the question of 
whether MAP should be granted. I think, Senator, you were very 
gentile in the way you put the question. But, we know that, 
without strong and assertive American leadership, for months, 
you're not going to build this consensus and achieve this kind 
of strategic breakthrough that I think everyone on this panel, 
and probably the vast majority of your colleagues, want.
    So, this is a big move. It's a hard move. If we had 6 
months to go, I would have been much more optimistic. But, to 
think that we can turn this around in a couple of weeks, unless 
the President gets on the phone and really engages, personally, 
with key leaders, to move them, I think we're going to end up 
with very little for Georgia and Ukraine, and then people will 
be asking the question, Senator, that you asked, in spite of 
all this stuff; then, the Georgians and Ukrainians are going to 
be very, very nervous, and we will understand exactly why they 
feel vulnerable.
    The Chairman. Phil. And then you, Bruce.
    Dr. Gordon. Yes, I'll--just two very brief points.
    Ron is absolutely right that the Europeans, at present, are 
quite hostile to this invitation. But, I would remind us all--
and those of us who have watched NATO for a number of years 
have seen this so many times--an issue on which the Europeans 
were uncomfortable, skeptical, and opposed, and eventually, 
after United States leadership, came around. And that's true 
whether it was enlargement to the initial countries who got in, 
or to the Baltic States, or the NATO Response Force, or--
earlier, I gave the example of Afghanistan, where, just a few 
years ago, it was just--not even a prospect to imagine NATO 
doing this mission; and, of course, NATO has now taken it over. 
So, I do think that it is possible, with United States 
leadership and a bit more help from the Russians, who are 
making the case for Ukraine. and NATO, that we could move this 
ball.
    The second thing I would say, Senator Biden, in response to 
your specific question, ``What happens if we don't?''--well, 
here's what happens. Then NATO holds a 60th anniversary summit 
very early on in the new President's administration, and this 
comes up again, because, of course, the Georgians and the 
Ukrainians will ask for it again. And then we get to be in the 
position then of saying no again, which sort of says, well, 
every time the Russians rattle their sabers, we say no, or 
saying yes and being able to begin a new administration by 
having this crisis with Russia. Not an approach that I would 
recommend.
    The Chairman. Well stated.
    Bruce.
    Mr. Jackson. Sir, can I suggest that this--a rejection at 
Bucharest would be even worse than you have sketched out.
    One, undoubtedly, President Putin will announce at 
Bucharest that, under his administration, he has succeeded in 
closing Europe's open door, and there is now a Russian space of 
influence. And, frankly, the world press will undoubtedly agree 
with him, because it appears to be true.
    Second, the EU has said, ``If we wait a little bit more, 
it'll be easier for us.'' Actually, the reverse is the case. 
What you cannot do at Bucharest--Chancellor Merkel is not going 
to want to do in Germany, in 12 months; it'll be harder there. 
And, frankly--if we delay--we're talking about an extended 
period of time.
    Also, this will not be the first rejection for Ukraine, 
this will be the second, because we rejected the request of the 
Kuchma Government on the quality of the government, and on arms 
traffic issues at Istanbul. And we said that, ``If you get a 
democratic government, conduct free and fair elections, and ask 
us again in a clear way, we will say yes.'' Well, they did. It 
would be devastating to our credibility if we said, ``Under 
those circumstances, where you have''----
    The Chairman. Bruce, do you disagree? Ron says that, no 
matter what we all say right now, unless somewhere there's a 
transformative moment at the White House and the President 
wakes up tomorrow morning and decides to make this a priority, 
that there is a 10-percent chance that such an invitation will 
be made. Do you----
    Mr. Jackson. I always get in awkward situations. But, I 
think if you're making the case that the administration was 
late to the game, and does not get fully engaged in the game, I 
think that's a fair criticism, that accounts for----
    The Chairman. Well, I'm not making a criticism, I'm just 
making an observation. I mean----
    Mr. Jackson. That's----
    The Chairman [continuing]. Short of the President deciding 
this is critical, this is important for Bucharest----
    Mr. Jackson. Short of that----
    The Chairman [continuing]. Short of him making that clear, 
is there any----
    Mr. Jackson. Both Paris and Berlin have said we won't be 
the only one opposing it, you know, if the others agree. 
They're still hiding behind that--if America really wants it, 
and the rest of the Europeans come, they will go along. They 
have said that. Now, the vote count today is somewhere--we're 
short of that position, but there's 3 weeks to go.
    I should also point out that, you know, there is a security 
liability, basically defining a security perimeter. Today we do 
not have a dialogue with these countries. That's devastating. 
And also, a point that's persuasive to President Sarkozy. In 
the new United States administration, and in 2009, under the 
Lisbon Treaty, there are things we need to talk about, such as 
energy security and the Russian relationship. The two 
countries, we need to participate in that, are Georgia and 
Ukraine. We will not be able to begin the dialogues on energy 
security without having a relationship with these countries.
    The Chairman. Let me ask you--my time is up, but let me ask 
you one other question. Am I misreading this, or is it likely 
that we're not going to get an agreement negotiated between 
FYROM--Macedonia and Greece? Greece is going to veto, if that 
occurs. What about the other two? Is it all or none?
    Mr. Jackson. Well, sir, I----
    The Chairman. Yes.
    Mr. Jackson. Right now, it doesn't look likely. They are 
going back again, I guess negotiations are beginning again, but 
they are far apart, and, frankly, I didn't--Senator Menendez 
isn't here--the Greeks have been hardening their position for 
the last 3 or 4 months, and they don't really want an 
agreement. And both governments, both in Skopje and in Athens, 
are too weak to cut the Gordian Knot, and both of them need 
this standoff as a political plus.
    The Chairman. What about the other two? They're in? You 
mean--you know some are making the argument ``all or none,'' 
you know, the way to put pressure on the Greeks is to say, you 
know, ``If you veto, you know, Macedonia''----
    Mr. Jackson. You get into--it seems to me, you're probably 
going to find it's one or three. You could probably get away 
with Croatia, if you wanted to do an entire round for--what is 
it? Three million people. But taking only Albanians after 
Kosovo, and then leaving out the only multiethnic Slav 
community in the south, basically, it could break the Ohrid 
Framework structure.
    The Chairman. Anybody have a view on--I'd like all of 
your----
    Dr. Asmus. I----
    The Chairman [continuing]. Opinions on that, and----
    Dr. Asmus. Senator, I think----
    The Chairman [continuing]. Then I'll cease.
    Dr. Asmus. I think you said it in your opening remarks. You 
have to treat these countries as individual countries on their 
own merits while then thinking about the regional context. We 
had this discussion. There was one point, in the late nineties, 
where we seriously considered doing two out of three Baltic 
countries, because one was falling behind. It scared the 
bejesus out of the one that was falling behind, and it caught 
up again. Thank God it did. And it was the threat of leaving it 
behind that scared it. But, this--Macedonia is hostage to 
someone that's a little bit above its head and its paygrade to 
being resolved here. I think, in theory, we should be willing 
to do A2, but A2--I mean, leave my skepticism aside for a 
second--if the goal here is to stabilize the region, the most 
fragile country is Macedonia, of these three. So, if you leave 
the most fragile country outside and vulnerable, in terms of 
what you're accomplishing strategically, you know, I--you know, 
I--because, you know, Macedonia is part of the Albanian/Kosovo, 
you know, set of issues. And if that's what--if that's what 
this round of enlargement is supposed to be about, 
strategically, then, I think, you know, you've got to bring 
Macedonia in as part of solving that--or your contributing to 
progress on that set of issues. And----
    The Chairman. But, you can't bring Macedonia in if the 
Greeks say no and it seems pretty clear to me, in my meetings, 
that it's not likely, between now and Brussels, there's going 
to be an agreement.
    Dr. Asmus. I think--I have--and I don't mean this as a--you 
know, these are issues--if you want to get these issues right, 
this really requires some heavy lifting from our President. You 
know, this is a--these are Presidential----
    The Chairman. Ron, I tried.
    Dr. Asmus. You know?
    The Chairman. I tried. [Laughter.]
    You know, I mean----
    Dr. Asmus. I mean----
    The Chairman. You know----
    Dr. Asmus [continuing]. You're prodding----
    The Chairman. And we've both tried.
    Dr. Asmus [continuing]. And if you make it absolutely----
    The Chairman. You know, I mean----
    Dr. Asmus [continuing]. Positively----
    The Chairman. The hell. [Laughter.]
    Dr. Asmus. You know, I think this could be an issue----
    The Chairman. I can't help you there.
    Dr. Asmus [continuing]. Like Madrid, that goes--that is 
unresolved going into Bucharest, into the meeting of heads of 
state, and they have to resolve it at, you know, a closed 
meeting----
    The Chairman. Right.
    Dr. Asmus [continuing]. Just like we had to do that in 
Madrid.
    The Chairman. I'm sorry, Mr. Townsend. I--you've----
    Mr. Townsend. Thank you, Senator. Not a problem.
    I just wanted to say that, while the issue on the name 
and--between Greece and Macedonia is a hard one, I will put in 
a little bit of optimism, saying, I guess, kind of, what Ron 
was saying there, that I have certainly seen, in the past, 
very, very tough questions that seemingly look like they're not 
going to be resolved by two countries, that melt away as you 
get closer to a summit, particularly if one of those countries 
wants to become a NATO ally. So, I certainly expect there will 
be lots of skirmishing, lots of hand-wringing in the days to 
come, but it could very well be, in the day or so, or maybe 
even at the summit, as Ron suggested, the doors will close, and 
all of a sudden there'll be a new name that pops out for what 
we call ``Macedonia.''
    And one more point, Senator, if I may, with Ron. Ron, I 
also lived in Brussels, and, in fact, worked at NATO, where I 
had to exercise that leadership to move allies that were very 
reluctant, in a lot of ways, to move in certain directions. And 
I think the example of the first round of enlargement is one of 
those, as we all worked on that, and we had a lot of heavy 
lifting to do, in terms of leadership.
    And I just want to go back, as far as Georgia and Ukraine 
and MAP is concerned. It is about U.S. leadership. I think we 
do have a strategic window of opportunity here to go to just 
the Membership Action Plan, and I think we ought to not lose 
sight of what we're talking about here. We always say that, 
when you into the MAP, obviously there is--membership is an 
ultimate goal, but, as far as MAP is concerned, by itself as a 
tool, it's a very strong one that nations can use to refine and 
to sharpen their ability to take on reform. And I think Ukraine 
and Georgia are there for that. And it's--again, it's a 
strategic question, here. And I think MAP is the right way to 
go. But, we'll never get there unless we have strong 
leadership. We can turn those--the same European nations that I 
dealt with, that you're dealing now with, Ron.
    The Chairman. Senator Lugar, I'm sorry for going over.
    Senator Lugar. Thank you, Mr. Chairman.
    Let me just continue on the conversation that you've 
initiated here. Dr. Asmus and Dr. Gordon, and Bruce Jackson 
have been very helpful to both of us for many, many years as we 
have thought about the future of NATO and prepared for summits. 
I recall before the Riga summit, we had a number of dinner 
discussions with leaders like GEN Jim Jones and others who were 
working in Europe--our colleagues pointed out that while there 
wasn't a lackadaisical attitude of the Europeans, but there was 
not an overwhelming interest in Riga. People were going to show 
up and at least record their attendance, sort of like Senators 
going over to make sure they vote, but there was no passion for 
reform, reformation, and what have you. There was nothing 
really in the offing. And, therefore, we weren't going to take 
up membership questions at Riga. At Riga, I recall that the 
greatest news story was whether President Putin would come. 
President Chirac reportedly was going to invite him. And so, 
the whole area, for 48 hours, was clouded--will he come, or 
will he not? You know, the discussion going on around the 
table, about Afghanistan was lost, it seems to me, in 
translation. Ultimately, President Putin didn't come, and, 
therefore, life went on. But, that was the end of the summit.
    Now we come around to another one, but this time the 
suggestion is a more serious one, and we're talking about 
membership invitations and the extension of MAPs. And so, that 
really calls, as we've all said today, for heavier lifting. I'm 
hopeful that this hearing may be helpful in ensuring that 
occurs. Our friend Secretary Fried has testified, that he's 
heard us many times. I know he is working very hard on behalf 
of the President. But, I think the President, the Secretary of 
State, and others, will really have to focus on this. It's a 
short period, but it appears to me that Europeans will once 
again show up with little initiative. I am just concerned that 
there will not be a sense of urgency at Bucharest with regard 
to membership. I think the future of NATO is countermanded by a 
feeling that, all things considered, Europe is not at war and 
they don't want to rile up the Russians. President Putin has 
been extremely aggressive, to say the least, and he has clearly 
threatened European governments with violence should certain 
actions be taken at Bucharest--almost any action, for that 
matter. Russia, at this point, even though it has a 
relationship with NATO, really doesn't want to have a better 
one, under his regime at least. And that's too bad. We wish 
that that was not the case.
    But, I would say that this has to be a decision on our 
part--that is, the United States--as to what we believe is in 
the transatlantic interest, including our own security. And if 
we are lackadaisical about the situation, and decide that we'll 
just show up and things will just fall into place, I am afraid 
it will be a disappointing experience. This is especially true 
given that this was supposed to be the year of membership 
action--the disappointment and ramifications of why certain 
things didn't happen are more severe.
    I would just say, with regard to Ukraine, specifically--all 
of you have pointed out, correctly, that not only has Mr. 
Yanukovych and his supporters demanded a referendum, so has the 
President of the country and Prime Minister Tymoshenko. And you 
can still, I suppose, take polls in Ukraine that find a 
majority of people in that country are not in favor, although 
they may be more willing to consider it. At the same time, the 
MAP program is an opportunity for a dialogue with a very 
important country.
    Some of you have testified, as we have, it would be well if 
Europe included Russia. This is not an impossibility. 
Therefore, Ukraine should not be out of the question.
    Now, Georgia, everyone said, ``Well, that really is 
provocative.'' People farther away from Georgia than, say, the 
Poles, would say, ``You're really asking for it, there. We 
didn't want to come to a summit just to have an argument, and 
then, worse still, to see President Putin, the next day, 
issuing threats that generally censure our activities. This is 
just a mess.''
    I am afraid that is where we're headed, without leadership 
on the part of our country, defining what we believe is in our 
own security interests and those of Europe, and trying to be 
more persuasive to countries that may feel their stake in all 
of this is not that great.
    I want to emphasize the energy picture. When I was in 
Ukraine, Georgia, Azerbaijan, Turkmenistan, and Kazakhstan we 
discussed about how Europe might gain a degree of security if 
some of the natural gas and oil moved along a southern course 
through the Baku-Tbilisi-Ceyhan Pipeline or various other 
pipelines that are suggested going into Europe. The Russians 
responded rapidly. President Putin was on the phone with the 
President of Kazakhstan and Turkmenistan and concluded a very 
large agreement, which doesn't obviate other possibilities, but 
is a symbolic step. This represented personal diplomacy on 
Putin's part. Likewise, 3 weeks after I was in the region, 
Bulgaria and Serbia reached an agreement with Russia that 
included turning over 50-percent control of their pipelines to 
Gazprom.
    While we're quibbling over NATO membership, the realities 
are that the energy situation is being solved to the detriment 
of Europe. These countries are choosing to conclude bilateral 
agreements with Russia. It has become a bilateral situation, an 
existential problem for individual countries. So, it's all well 
and good to have a NATO Alliance. The fact is, the whole thing 
might crumble, simply because the individual countries have 
these very, very tough energy problems they have to solve if 
they're going to have economies at all, and Russia is the 
answer.
    And, finally, Russia is the answer, because it's wealthy. 
It's wealthy because it has the natural gas and the oil. It is 
not because it developed a sophisticated economy, a rule of 
law, courts, all the rest of it. It found more gas and oil. And 
it will have a lot more, as a matter of fact.
    So, those are the realities that need to be discussed at 
the summit. This really isn't even on the agenda. It's always 
said to be an EU issue, ``We don't deal with economics in 
NATO.'' Well, why not? You know, if there was ever a security 
issue or that threatened the future of these countries, energy 
is it.
    So, this is my own opportunity to give a statement, a point 
of view. But, I ask if any of you have any reaction to all of 
this.
    The Chairman. By the way, before you do, I rest my case why 
he should be Secretary of State.
    But, go ahead, answer the questions. [Laughter.]
    Dr. Asmus. Senator, I think--I suspect many of us agree 
with you. And, as I think Bruce pointed out, if you want an 
energy security policy, Ukraine and Georgia have got to be part 
of it. But, I--you know, I think--you know, we're at this, sort 
of, awkward moment in the Alliance, where, you know, this 
administration's coming to an end, some of the damage has been 
repaired, some of it hasn't. Europeans are also, let's be 
honest, calculating, ``How much do you invest in this last 
summit,'' versus waiting for the next President? Do we save the 
big moves for the first summit with--I mean, there's a lot of 
political calculation going on. And, I mean, Phil and I were 
just in Moscow together, and I have--we had some meetings 
together, and I had one very interesting one, where Phil 
couldn't join me. The Foreign Ministry called me in late at 
night, and wanted to talk about Bucharest. And I was very 
curious to see what their agenda was, because it goes to a lot 
of these issues. Well, you know, they were--first, they were 
going to make their views on Kosovo well known to the Alliance. 
OK. I understood what that means.
    And then they said, ``Well, you know, no MAP for Ukraine 
and Georgia is a precondition for the President coming--the 
President's coming.''
    And I said, ``Well, what does that mean?''
    And they said, ``Well, we don't expect any surprises, and 
we've been assured there won't be any surprises.''
    And I said, ``Well, what does that mean?'' You know?
    And they said, ``A3''--they said, ``we don't care. We don't 
care about A3. But, Ukraine and Georgia are red lines. No visit 
if there's movement on there, but our assessment is, you will 
do nothing.''
    And he said, ``When--and our big goal is to do a deal with 
Bush on missile defense.'' That's the Russian priority for 
Bucharest. And, you know, that's a different agenda.
    And I look at that and say, ``Well, how do I reconcile that 
with what I hear in Brussels and what I hear in Washington? And 
where are we going to be? And could we--could this be a very 
exciting, interesting, controversial--in other words, messy--
summit?'' Absolutely. What are we headed into? And do we really 
have this thing under control so that we can take steps that we 
can build on, you know, with the next administration?--et 
cetera, et cetera. I--the pucker factor is going up to----
    [Laughter.]
    Dr. Asmus [continuing]. To use an old Midwestern 
expression.
    Senator Lugar. Thank you.
    Dr. Gordon. Can I just say to Senator Lugar, your--we've 
talked about this a number of times--your leadership on the 
energy issue has been formidable, and your arguments always 
compelling. I think you know the reaction to your statement as 
well or better than we do, which is, as compelling as the 
arguments are, the Europeans, as I think you pointed out, can't 
even agree among themselves--I mean, they say, ``No; this is an 
EU matter. Don't get NATO into it.'' But, they won't even do it 
as the EU. Every single time Russia has offered a national gas 
deal to a European country, they have taken it. So, I think, 
you know, again, that--it would be terrific if we could add 
energy to the Bucharest summit and get people to do it. It's 
not going to happen at Bucharest. Maybe it'll wait until you're 
Secretary of State to show leadership on that.
    The Chairman. Gentlemen, I thank you very, very much. Your 
testimony is always helpful. I hope folks down the street were 
listening. And I hope we figure out what it is this Bucharest 
summit is about.
    But, at any rate, thank you very much.
    We're adjourned.
    [Whereupon, at 5:20 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Prepared Statement of Hon. Barack Obama, U.S. Senator From Illinois

    Mr. Chairman, thank you for holding this hearing on the enlargement 
and effectiveness of NATO.
    This is certainly a timely hearing. In 3 weeks, leaders of the 
North Atlantic Treaty Organization (NATO) will meet at a summit in 
Bucharest, Romania, to address issues critical to American national 
security and the future of the Euro-Atlantic community. NATO leaders 
must seize this opportunity to strengthen transatlantic ties, augment 
alliance members' contributions to common missions and continue to 
build the integrated, stable, and prosperous Europe that is a vital 
interest of the United States.
    A top priority for the summit must be to reinforce NATO's critical 
mission in Afghanistan. The contributions there of all the NATO allies 
alongside more than a dozen other countries bear testimony to how the 
alliance can contribute to the 21st century missions that are vital to 
the security of the United States and its allies. NATO's involvement 
provides capabilities, legitimacy, and coordination in Afghanistan that 
simply would not be available if NATO did not exist.
    Success in Afghanistan is vital to the security of the United 
States, to all NATO members and to the people of Afghanistan. NATO's 
leaders must therefore send an unambiguous message that every country 
in NATO will do whatever needs to be done to destroy terrorist networks 
in Afghanistan, to prevent the Taliban from returning to power, and to 
bring greater security and well-being to the Afghan people. This will 
require adequate numbers of capable military forces and civilian 
personnel from NATO members, and putting more of an Afghan face on 
counterinsurgency operations by providing more training and resources 
to the Afghan National Army and police forces, and by embedding more 
Afghan forces in NATO missions. We must also win long-term public 
support through assistance programs that make a difference in the lives 
of the Afghan people, including investments in infrastructure and 
education; the development of alternative livelihoods for poppy farmers 
to undermine the Taliban and other drug traffickers; and increased 
efforts to combat corruption through safeguards on assistance and 
support for the rule of law.
    Success in Afghanistan will also require the removal of 
restrictions that some allies have placed on their forces in 
Afghanistan, which hamper the flexibility of commanders on the ground. 
The mission in Afghanistan--legitimized by a United Nations mandate, 
supported by the Afghan people, and endorsed by all NATO members after 
the United States was attacked--is central to NATO's future as a 
collective security organization. Afghanistan presents a test of 
whether NATO can carry out the crucial missions of the 21st century, 
and NATO must come together to meet that challenge. Now is the time for 
all NATO allies to recommit to this common purpose.
    The summit must also address the question of the alliance's 
expanding membership. NATO's enlargement since the end of the cold war 
has helped the countries of Central and Eastern Europe become more 
stable and democratic. It has also added to NATO's military capability 
by facilitating contributions from new members to critical missions 
such as Afghanistan.
    NATO enlargement is not directed against Russia. Russia has an 
important role to play in European and global affairs and should see 
NATO as a partner, not as a threat. But we should oppose any efforts by 
the Russian Government to intimidate its neighbors or control their 
foreign policies. Russia cannot have a veto over which countries join 
the alliance. Since the end of the cold war, Republican and Democratic 
administrations have supported the independence and sovereignty of all 
the states of Eastern Europe and the former Soviet Union, and we must 
continue to do so. President Putin's recent threat to point missiles at 
Ukraine is simply not the way to promote the peaceful 21st century 
Europe we seek.
    NATO stands as an example of how the United States can advance 
American national security--and the security of the world--through a 
strong alliance rooted in shared responsibility, and shared values. 
NATO remains a vital asset in America's efforts to anchor democracy and 
stability in Europe, and to defend our interests and values all over 
the world. The Bucharest summit provides an opportunity to advance 
these goals and to reinforce a vital alliance. NATO's leaders must 
seize that opportunity.
                                 ______
                                 

Prepared Statement of Hon. Jim DeMint, U.S. Senator From South Carolina

    Chairman Dodd, Ranking Member Lugar, I want to thank you for 
holding this hearing today and moving forward quickly with the 
protocols of membership for Albania and Croatia. I am excited by the 
prospects of these two nations joining NATO, but I must also express my 
disappointment that Macedonia was not invited at the Bucharest summit. 
It is unfortunate that the security of Europe must take a back seat to 
other issues--especially at a time like this.
    Over the last several weeks we have seen a remarkable shift of 
events in Eastern Europe and a reemerging Russia that should make us 
all take pause. Clearly, the expansion of NATO is in the best interests 
of Europe and the United States, but more importantly it is a matter of 
security and safety for our friends and allies in Eastern Europe.
    As we all know, no one is ever forced to join NATO, in fact if a 
nation wants to become a member, they must work diligently to live up 
the standards of NATO, make changes to their political and military 
structures, and meet other benchmarks.
    For this reason, I reject the notion some have made that NATO 
enlargement is designed to threaten the security of other nations. 
Rather it is these nations that fear a weakening of their power and 
influence because they offer little in the way of prosperity and 
security. There may be a lot of tinsel and wrapping, but there is no 
substance they can offer. Their power is based on nothing more than 
threats and coercion. In this world of competing interests, the 
prosperity and security of the West are far more appealing than the old 
tired habits of propaganda, corruption, and oligarchs.
    Hence, each country has the right to choose if they want to side 
with the U.S. and Western Europe or with Russia and the East, but if 
they choose the West we should not feel constrained by the tirades of 
former KGB officers. We cannot, and should not, abandon the desires of 
a sovereign nation to protect and defend their own freedom.
    We have seen the security that NATO can provide. In 2004 we 
welcomed Estonia, Latvia, and Lithuania into the alliance. The same 
countries that once fell under the Soviet ``sphere of influence,'' are 
now conveniently excluded from the sphere of influence that Prime 
Minister Putin and President Medvedev speak of today. We should not 
erect fences to others who wish to follow in their footsteps.
    In fact, it is the newest members of NATO that have been some of 
the most powerful voices and, through their example, models to their 
older counterparts of what it means to confront threats and challenge 
aggression. They do not place caveats on their forces like other NATO 
members, and they are willing to make the case to their citizens about 
NATO's missions and why it is important to fight. These newer members 
bring a fresh perspective that is healthy for the alliance.
    And that brings us to the central point. Under U.S. leadership, 
NATO has been and remains the preeminent guarantor of security in 
Europe. We should not allow the alliance to be diluted or challenged by 
other organizations and policies that duplicate the structures of NATO, 
but remove the voice of the United States and other allies. This is 
especially true when rival organizations will call on the equipment and 
resources the United States provides.
    I am especially concerned that these discussions are particularly 
distracting when there is a lack of consensus on the strategic threats 
that face Europe and NATO. Without a strategic focus, no organization 
can be successful for long. And despite the very real threat of 
terrorism in Europe, many NATO members feel the war on terror in 
Afghanistan is not worth their time or effort. While some in Europe 
ignore the terror threat, there are emerging threats to Europe's energy 
security. Russia is hording oil and gas and building a network of 
pipelines to encircle and individually manipulate each European 
country.
    Countries like Albania and Croatia, know all too well the threats 
that can emerge quickly and need to be vigilant. Their voices in NATO 
will serve the interests of NATO and Europe well. They have provided 
leadership and demonstrated their commitment to the security and 
stability of Europe. It is time we welcome our close friends into NATO.

                                  <all>

</pre></body></html>
